<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2013</title>
<body><pre>[Senate Hearing 112-]
[From the U.S. Government Publishing Office]



 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2013

                              ----------                              


                        THURSDAY, MARCH 8, 2012

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:01 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Barbara Mikulski (chairman) 
presiding.
    Present: Senators Mikulski, Leahy, Feinstein, Lautenberg, 
Pryor, Brown, Hutchison, Shelby, Alexander, Murkowski, and 
Graham.

                         DEPARTMENT OF JUSTICE

                     Office of the Attorney General

STATEMENT OF HON. ERIC H. HOLDER, JR., ATTORNEY GENERAL


            OPENING STATEMENT OF SENATOR BARBARA A. MIKULSKI


    Senator Mikulski. Good morning, everybody. The Commerce, 
Justice, Science, and Related Agencies Appropriations 
Subcommittee (CJS) will come to order. This morning, we welcome 
the Attorney General of the United States, and as is the usual 
and customary way, Senator Hutchison and I will make opening 
statements. We'll go to you, Mr. Attorney General, for yours, 
and you may summarize. With unanimous consent, all statements 
will be included in the record.
    Senator Shelby, our colleague and former ranking member on 
this subcommittee, has a banking hearing. With Senator 
Hutchison's concurrence, we'll go right to Senator Shelby for 
the first question.
    Senator Hutchison. Okay.
    Senator Mikulski. Does that sound okay?
    Senator Shelby. Thank you.
    Senator Mikulski. And then we will observe Senators in 
their order of arrival, and we expect robust participation. 
We're going to strictly adhere to the 5-minute rule.
    So, having laid the groundwork, I just want to say good 
morning and welcome to our first CJS subcommittee hearing, the 
Attorney General of the United States, in which we will hear 
his presentation on the Department of Justice (DOJ) budget.
    We have a very positive relationship with the Attorney 
General. He's brought to the Justice Department the experience 
of a career prosecutor. He's been dedicated to fighting violent 
crime and terrorism. He knows that he is pioneering work now, 
working with our administration, on how to deal with the new 
and emerging threat of cybersecurity, which is, how do we 
protect our citizens, and his views and recommendations on 
protecting our civil liberties.
    Well, Mr. Attorney General, before we get into the numbers 
and the money, I would just like to thank you, and in thanking 
you, I want to thank all the hardworking men and women who do 
work at DOJ. There are 116,000 employees who work there; 25,000 
are Federal agents, and people work at the Federal Bureau of 
Investigation (FBI), Drug Enforcement Administration (DEA), the 
U.S. Marshals Service (USMS), and the Bureau of Alcohol, 
Tobacco, Firearms and Explosives (ATF). We have 20,000 prison 
guards and correctional staff, and 10,000 prosecutors and 
investigators. They've had some amazing accomplishments, which 
I'll talk about when I get to my question period.
    But we want to thank them, because every day and every way, 
they stand sentry, either to do prevention and intervention, to 
make sure they are out on the street, doing traditional violent 
crime work, to really being all over the world, and then 
fighting issues related to white collar crime.
    As the chair of the CJS Subcommittee, I have three 
priorities when examining the budget: communities security, how 
does the budget support the mission of keeping our communities 
safe; national security, what resources are needed to keep 
America safe; and then, oversight and accountability. No 
boondoggles on the watch of this subcommittee. And I want to 
make sure the Justice Department has what it needs to do its 
mission.
    As I looked at the President's budget, I noted that there 
was only one new initiative, and that's the expansion of 
mortgage and financial fraud. That request is $611 million. It 
is a modest $5 million targeted increase, and we are going to 
want to hear more about that. Because we, in our own State of 
Maryland, have seen such a rising number of scams, and schemes, 
and predatory lending practices, and we need to know what you 
want to do with the money.
    We can't have a strong, economically vibrant community 
unless they're safe, whether it's in our neighborhoods, whether 
it's protecting small business on Main Street. So, I want to 
know how the budget will keep America safe at home on Main 
Street.
    The request for $2 billion for grants to State and local 
law enforcement, I wonder if it's sufficient. This is $32 
million less than the 2012, and we might have to consider, you 
know, reorganizing priorities. The State and local funding 
seems to have borne the brunt of budget cuts. Since 2010, 
grants have been cut by $1 billion in local funding. Now, part 
of this was the axe and acts of the Congress itself.
    Many of my colleagues don't realize that cuts have 
consequences in discretionary spending. So, we need to hear 
your view on what we can do. We know the Government 
Accountability Office (GAO) has recommended that you should 
conduct a review and eliminate unnecessary duplication. We 
support that.
    We also want to work in community security at the 
protecting of our children. One of the areas of bipartisan 
support is in the money to catch predators who use the Internet 
to stalk children, break up children's pornography rings, and 
track down and arrest these child molesters. We understand you 
are requesting $328 million, and we'll look forward to seeing 
how you will allocate that, and what to do.
    The Southwest Border--my colleague, Senator Hutchison, has 
worked assiduously in that area. I want to know that this is 
not only bipartisan support--we think it ought to be 
nonpartisan to support our border, and I'll let her raise those 
questions in there.
    In the area of cyberthreats, our Nation faces a growing and 
pervasive threat overseas, from hackers, cyberspies, and 
cyberterrorists. We need safe and resilient networks. We worry 
about online banking and commerce, the safety of our power 
grids, air traffic control systems, digitized records.
    Yesterday, with the administration, the Senate held a cyber 
exercise. The majority of the Senators were there to listen to 
an exercise on an attack on a major city's power grid. It was 
chilling. It was terrifying to know what happened there, and 
what we could do to protect it. So, we need to know about 
cyber.


                           PREPARED STATEMENT


    Finally, I want to know how the Justice Department is 
improving its accountability to taxpayers. You know, you've 
gotten a bad rap--some of them, about lavish banquets, cost 
overruns, the Inspector General doing its audits--and it 
should. So, we want to know how we stand sentry over the money 
we do spend.
    We have very specific questions, but with the number of 
people here, I'm shortening my statement.
    [The statement follows:]

           Prepared Statement of Senator Barbara A. Mikulski

    Good morning and welcome to our first Commerce, Justice, Science, 
and Related Agencies (CJS) Subcommittee hearing. We begin our 
examination of the President's fiscal year 2013 budget by welcoming 
Attorney General Eric H. Holder, Jr.
    Today, we'll discuss how the Justice Department's fiscal year 2013 
budget request strengthens national security and counter terrorism; 
protects the safety, security, and rights of U.S. citizens; and ensures 
taxpayer dollars are used wisely.
    We have a very positive relationship with Attorney General Holder. 
He has brought to the Justice Department the experience of a career 
prosecutor dedicated to protecting the American people from terrorism 
and violent crime. Welcome back, Attorney General Holder, and thank you 
for joining us today.
    I want to begin today's hearing by thanking all of the hardworking 
men and women of the Justice Department's 119,000 civil servants:
  --the 25,000 Federal agents of the Federal Bureau of investigation 
        (FBI);
  --Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF);
  --the Drug Enforcement Agency (DEA);
  --the U.S. Marshals Service (USMS)--and the people who support those 
        agents;
  --the 20,000 prison guards and correctional staff; and
  --the 10,000 prosecutors, investigators, and legal experts.
    They've had some amazing accomplishments during the last year. USMS 
arrested more than 12,000 fugitive sex offenders. DEA agents put more 
than 3,000 drug traffickers out of business. FBI dismantled 366 
criminal enterprises involved in white collar crimes. U.S. Attorneys 
collected $6.5 billion in criminal and civil penalties.
    They are the guardians of our justice system, but they are often 
overlooked and undervalued. I want them to know that the CJS 
Subcommittee knows and appreciates what they do every day.
    The President's fiscal year 2013 budget request for the Department 
of Justice (DOJ) totals $27.1 billion, which is $110 million less than 
the fiscal year 2012 level. The budget request also includes $368 
million in cuts to prior year funding for core Federal law enforcement 
functions and grants. This year's budget also relies more heavily than 
ever on payments into the Crime Victims Fund, which will finance 30 
percent of the Department's operating budget in fiscal year 2013. The 
request reflects the stringent reality of our times.
    As chairwoman of the CJS Subcommittee, I have three priorities when 
examining the budget for the Justice Department. The first is community 
security. How does the budget support the mission of keeping our 
communities safe? The second is national security. What resources are 
needed to keep America safe from terrorism? And finally, oversight and 
accountability. Are tax dollars being spent wisely?
    I want to make sure that the DOJ has what it needs to uphold the 
rule of law and to protect this country from predatory attacks.
    There is only one new initiative in the Department's budget request 
this year--an expansion of mortgage and financial fraud task forces. 
Our economy depends on the integrity of our financial markets. Our 
neighborhoods and communities have been rattled by mortgage fraud 
schemes and scams.
    The budget request includes $611 million to fight mortgage and 
financial fraud, including a modest $55 million targeted increase to 
hire new FBI agents, new attorneys, new specialized support staff, and 
new forensic accountants and in-house investigators. This will also be 
used to combat financial and mortgage fraud, going after the schemers 
and scammers who prey on hardworking families and destabilize 
neighborhoods.
    We can't have strong, economically vibrant communities unless they 
are safe. So I want to know how the budget request keeps Americans safe 
here at home. The request is $2 billion for grants to State and local 
law enforcement. This is $32 million less than fiscal year 2012.
    State and local funding has borne the brunt of budget cuts. Since 
2010, grants have been cut by $1.5 billion, or 43 percent. This is a 
time when we must be frugal. Tough choices have to be made. The CJS 
Subcommittee is committed to making sure our police are not walking a 
thin blue line. We need to know which grants are truly most effective 
and which programs we need to take a closer look at before reinvesting 
American taxpayers' dollars in them.
    A recent Government Accountability Office report recommended that 
the Attorney General should conduct an assessment to better understand 
which grant programs overlap with one another to prevent unnecessary 
duplication. I think that is an excellent recommendation, and I 
encourage the Attorney General to complete this analysis.
    I know how committed the Attorney General is to keeping children 
safe from abuse, sexual predators, and cyber stalkers. The budget 
request includes $328 million to catch predators who use the Internet 
to stalk children, break up child pornography and prostitution rings, 
and track down, arrest, and prosecute child molesters.
    The FBI and USMS have crucial roles. FBI's Innocent Images 
initiative targets sexual predators who use the Internet to distribute 
child pornography. USMS are charged with tracking down and arresting an 
estimated 100,000 unregistered sex offenders.
    The Adam Walsh Act called for 500 new Deputy U.S. Marshals to carry 
out this mission. But since 2010, we've been able to prevent furloughs 
and layoffs, but we've been in a holding pattern of 160 new Marshals. I 
want to make sure we're putting the right resources in the right places 
to protect children from these despicable predators.
    The Department's budget request includes more than $1.8 billion for 
Federal law enforcement efforts, including the DEA, ATF, FBI, and USMS, 
to dismantle drug cartels that smuggle illegal drugs, guns, and humans 
along the border, and terrorize citizens and neighborhoods with fear 
and intimidation.
    Drug trafficking-related homicides in Mexico continue climbing. 
There were a sickening 12,100 murders in Mexico last year, up 86 
percent since 2009. We are very concerned about spillover violence. I 
want to know if the funds requested are sufficient to shut down the 
flow of firearms into Mexico, and to stop drugs and violence from 
coming into the United States from Mexico.
    Our Nation faces a growing and pervasive threat overseas from 
hackers, cyber spies, and cyber terrorists. We need safe and resilient 
networks to protect our online banking and commerce, electrical and 
power grids, air traffic control systems, and digitalized records.
    At the Justice Department, more than 1,500 personnel are working to 
prevent a broad range of cyber threats, such as computer intrusions, 
Internet fraud, intellectual property theft, and online child 
pornography; and to identify the perpetrators.
    The FBI is tasked with the most urgent cyber security 
responsibilities. They are on the front lines collecting intelligence 
and investigating computer intrusions that threaten our critical 
technology infrastructure. We will hear more details about this next 
week, when FBI Director Robert S. Mueller, III testifies before this 
subcommittee. But I want to know what you see as the Justice 
Department's role as a key guardian of our Nation's cyber security.
    Finally, I want to know how the Justice Department is improving 
accountability of taxpayer dollars so that every $1 spent to secure our 
communities is $1 well-spent. The subcommittee has taken steps to 
prevent waste, fraud, and abuse; prohibit funds for lavish banquets; 
control cost overruns; and require the Inspector General to do random 
audits of grantees. I want to know what concrete steps you have taken 
to put these guidelines into practice and give teeth to make sure they 
are followed.
    Given all of the Justice Department's important roles and 
responsibilities, we must ensure that it has the resources it needs to 
protect the lives of 330 million Americans. But we also want to make 
sure the Justice Department is a good steward of taxpayer dollars and 
makes sure every $1 we spend to keep our Nation safe is $1 well spent.
    I thank Attorney General Holder for his leadership, and I look 
forward to continuing our work together making a safer, stronger 
America.

    Senator Mikulski. I'm going to turn now to Senator 
Hutchison, and then to you.

               STATEMENT OF SENATOR KAY BAILEY HUTCHISON

    Senator Hutchison. Well, thank you, Madam Chairman, very 
much, not only for the deference on border security, where I 
live, but also on the way you run this subcommittee, which is 
for us to do what's right for America.
    Mr. Attorney General, I do want to address some of the 
areas of border security. First of all, State Criminal Alien 
Assistance Program (SCAAP) funding is something that continues 
to be shortchanged by your budgets, and SCAAP, of course, is 
the reimbursement for local counties that incarcerate illegal 
alien prisoners. And along the border, our counties are 
generally very poor and don't have those kinds of resources, 
and each year, you continue to not fund.
    We did put the money back in last year, $240 million, but I 
would hope that you would support increasing that, as we go 
through this process, because we must incarcerate these illegal 
alien criminals, who are mostly in the drug cartel and 
operations, so that this will not be borne by the counties on 
the border.
    In response to Operation Fast and Furious, language was 
included in last year's bill that would prohibit Federal law 
enforcement agencies from selling operable weapons to cartels. 
This request that you're giving us removes that language, 
saying it's unnecessary. Mr. Attorney General, we just want to 
make positively sure that what happened does not happen again, 
and I would hope that you would support our insertion of that 
language again.
    Last year, our Commerce, Justice, Science, and Related 
Agencies bill provided $10 million to expand the capacity at 
the overcrowded El Paso Intelligence Center (EPIC). And this is 
critical for our Southwest Border information sharing, and is 
the border's focal point to help stop the flow of narcotics, 
combat illegal immigration, and end human trafficking and 
firearms smuggling.
    It is imperative that EPIC and the DEA take full advantage 
of the resources available from DOJ agencies like the FBI, 
USMS, and ATF. And I hope that you can give us an update on the 
status of this funding and the project.
    There have been reports that cartels across the border are 
attempting to recruit college students to smuggle drugs into 
the country, and it says that minors are more appealing, 
because criminal penalties are lighter for them. One of the 
good parts of your budget request is $312 million for juvenile 
justice prevention programs. I will be interested in hearing if 
you are aware of these border threats to our youth, and if some 
of that money that you are requesting could be put on the 
border to try to make sure that we try to help our youth 
overcome the cartel overtures.
    The VALOR program, the Violence Against Law Enforcement and 
Ensuring Officer Resilience and Survivability, is one that I 
applaud your efforts to put in place. And unfortunately, the 
number of Federal, State, and local officers who died in the 
line of duty in America last year increased, from 153 to 173.
    The feedback from the training and research being conducted 
through VALOR is very positive, including the alert center at 
Texas State University, which was credited by the two officers 
who came into Fort Hood when Major Nidal Hasan started shooting 
unarmed military people. Both of those officers survived, even 
though Sergeant Munley was shot several times. But they both 
credited their swift response that day to the alert active 
shooter training program that they had received. So, that's 
something that's very good that I applaud in your budget.
    I want to state a concern that I have about the National 
Park Service pushing for construction, which is in progress, on 
an unmanned border crossing at the Big Bend National Park, in 
south Texas. This is not a DOJ decision, but it is going to 
affect some of the personnel, and I'm concerned that this is an 
area where illegal immigrants can walk across. The water is 
knee deep, and you can walk right across the river, and into 
Big Bend, and having an unmanned border crossing, I think, is 
insufficient. So, we're going to talk about that at some point 
to see if we can get FBI, DEA, ATF, Border Patrol, somebody to 
man a place like that, where it is so vulnerable.
    And last, but not least, Attorney General Holder, I'm going 
to ask you some questions about your public integrity unit. I'm 
going to give you full credit for dismissing the case against 
the late Senator Ted Stevens when you learned of the corruption 
within that division of your Department. I'm going to ask you 
questions, because the report will be public within days, and 
if there's anything that you should take as your major 
responsibility, it is that the public corruption unit and DOJ 
is fair and evenhanded, and, clearly, that was not the case in 
the prosecution of a great friend to many of us, and a great 
patriot for our country, who, unfortunately, was very badly 
abused by the DOJ.
    But, I will say, you did dismiss the case when you learned 
of the misbehavior, and I gave you credit on the Senate floor 
for doing that, and will again, but I do want to ask you about 
the report when we have time to ask questions.
    Thank you.
    Senator Mikulski. Mr. Attorney General.

                SUMMARY STATEMENT OF ERIC H. HOLDER, JR.

    Attorney General Holder. Thank you. Chairwoman Mikulski, 
Ranking Member Hutchison, other distinguished members of the 
subcommittee. I want to thank you very much for the opportunity 
to appear before you today and for your continued support of 
the Justice Department's critical work.
    I look forward to discussing the President's fiscal year 
2013 budget for the Department and how these investments would 
be used to build on what I think is our extraordinary record of 
success.
    The President's budget proposal demonstrates a clear 
commitment to advancing the Department's core missions and 
augmenting our ability to fulfill our most important 
obligation, and that is protecting the American people. Despite 
the significant fiscal constraints the Federal Government has 
faced in recent years, the 116,000 dedicated employees who 
serve in the Department offices around the world have made 
significant, and in many cases, historic progress in 
safeguarding our citizens from terrorism, from violent crime, 
from financial fraud, and from a range of threats that often 
disproportionately threaten the most vulnerable members of our 
society.
    We've also proven our commitment to acting as sound 
stewards of precious taxpayer dollars. As you can see in the 
most recent budget request, proposed spending increases have 
been exceeded by proposed cuts. In fact, as a result of 
numerous steps taken to streamline operations, almost $700 
million worth of savings have been developed and reinvested in 
critical mission areas. I believe that the Department is 
perhaps more efficient and more effective than ever before.
    Our recent achievements underscore this point, especially 
when you consider our national security efforts. By continuing 
to work collaboratively alongside U.S. and international 
partners, we have identified and disrupted numerous alleged 
terrorist plots, including one by two Iranian nationals to 
assassinate the Saudi Ambassador to the United States. We have 
thwarted multiple plots devised by homegrown extremists, and we 
have secured convictions and robust sentences against a number 
of dangerous terrorists.
    In October, the Department obtained a guilty plea from Umar 
Farouk Abdulmutallab for his role in the attempted bombing of 
an airplane on Christmas Day in 2009. Just last month, 
Abdulmutallab was sentenced to four life terms in prison. In 
November, we secured the conviction of Viktor Bout, a notorious 
arms dealer who sold millions of dollars in weapons for use in 
killing Americans. In December, Waad Ramadan Alwan pleaded 
guilty to 23 charges, including conspiracy to use a weapon of 
mass destruction against U.S. nationals abroad, attempting to 
provide material support to al Qaeda in Iraq, and conspiracy to 
transfer, possess, and export explosive devices against United 
States troops in Iraq.
    The list goes on and on. With the sustained and increased 
investments included in the President's budget for the 
comprehensive national cybersecurity initiative, the high-value 
detainee interrogation group, the joint terrorism task forces, 
the Render Safe program, and other key national security 
efforts, the Department will be able to strengthen our critical 
surveillance and intelligence gathering capabilities.
    It will also allow us to bring our fight against financial 
fraud to a new level. On Monday, as many of you know, President 
Obama issued a proclamation to mark the beginning of this 
year's Consumer Fraud Protection Week, and I'm proud to note 
that the Justice Department's Consumer Protection Branch has 
established a record of success in defending the interests of 
American consumers that is worth celebrating and will be 
expanded upon.
    In 2011 alone, our Consumer Protection Branch attained a 
95-percent conviction rate, recovered more than $900 million in 
criminal and civil fines, restitution, and penalties, and 
obtained sentences totaling more than 125 years of imprisonment 
against more than 30 individuals. This represents remarkable 
and unprecedented progress, but it really is only the 
beginning. In fact, since the start of the administration, the 
Justice Department has signaled an unwavering commitment to 
combating and preventing a wide range of financial and 
healthcare fraud crimes, and we've taken bold steps to address 
the causes and the consequences of the recent economic crisis.
    Through the efforts of the President's financial fraud 
enforcement task force, which was launched in 2009, and which 
I'm proud to chair, charges have been brought against numerous 
CEOs, CFOs, corporate owners, board members, presidents, 
general counsels, and other executives of Wall Street firms, 
hedge funds, and banks who have engaged in fraudulent activity.
    In recent months, we have obtained prison sentences of up 
to 60 years in a variety of fraud cases, including multi-
million-dollar Ponzi schemes, and the largest hedge fund 
insider trading case in U.S. history.
    Just this week, we secured a conviction against the former 
board of directors' chairman for an international bank for 
orchestrating a $7 billion investment fraud scheme. The task 
force has established two new working groups: the Consumer 
Protection Working Group, which will enhance civil and criminal 
enforcement of consumer fraud, and the Residential Mortgage-
Backed Securities (RMBS) Working Group, which bring Federal and 
State partners together to investigate and to prosecute abuses 
in our housing markets. Both will help to amplify existing 
efforts, and to foster cooperation and collaboration in the 
Department's response to these problems.
    Just a few weeks ago, a similar collaborative approach led 
the Departments of Justice and Housing and Urban Development, 
as well as other agencies, and 49 State attorneys general to 
achieve a landmark $25 billion settlement with the Nation's top 
five mortgage servicers, the largest joint Federal and State 
settlement in our Nation's history.
    Although this will not, on its own, cure all that ails our 
housing market, this agreement builds on the record fair 
lending settlement obtained by the Civil Rights Division's fair 
lending unit last year, and will provide substantial relief to 
homeowners. It also provides a blueprint for future 
collaboration across levels of government, State borders, and 
party lines.
    There is perhaps no better illustration of our recent 
progress than the Department's groundbreaking work to combat 
healthcare fraud. Over the last fiscal year alone, in 
cooperation with the Department of Health and Human Services, 
as well as other partners, by utilizing authorities provided 
under the False Claims Act and other essential statutes, we 
were able to recover nearly $4.1 billion in funds that were 
stolen or taken improperly from Federal healthcare programs. 
That is the highest amount ever recorded in a single year.
    Over the same period, we opened more than 1,100 new 
criminal healthcare fraud investigations, secured more than 700 
convictions, and initiated nearly 1,000 new civil healthcare 
fraud investigations. For every $1 that we have spent combating 
healthcare fraud, we have returned, on average, about $7 to the 
United States Treasury, the Medicare Trust Fund, and others.
    These numbers are stunning, but my colleagues and I 
recognize that we cannot be satisfied, and this is no time to 
become complacent. That's why in addition to helping us build 
on this record of success, the President's budget request also 
would bolster our fight against drug trafficking, international 
crime networks, gangs, and cyber criminals. It would increase 
our efforts to protect the law enforcement officers who keep us 
safe, and expand upon the work being done by our Civil Rights 
Division to guarantee that the rights of all Americans are 
protected in border areas, workplaces, housing markets, and 
voting booths.

                           PREPARED STATEMENT

    I am committed to building on these and our other many 
achievements, and I know that you understand that in this time 
of uncommon threats and complex challenges, we simply cannot 
afford to cut back on the amount and the quality of justice 
that we are obligated to deliver. The Department must remain 
vigilant in protecting this Nation and in enforcing the law, 
and these efforts must be appropriately and adequately funded.
    I look forward to continuing to work with the members of 
this subcommittee and your colleagues throughout the Congress 
to accomplish this, and I would be happy to answer any 
questions that you might have.
    Senator Mikulski. Thank you, Mr. Attorney General. And your 
full statement will be entered into the record.
    [The statement follows:]

               Prepared Statement of Eric H. Holder, Jr.

    Good morning Chairwoman Mikulski, Ranking Member Hutchison, and 
members of the subcommittee. Thank you for the opportunity to meet with 
you today to discuss the President's fiscal year 2013 budget for the 
Department of Justice (DOJ) and the Department's key priorities.
    I also appreciate the opportunity to tell you more about the good 
work that is being done by DOJ employees across the United States and 
overseas to protect all of our citizens from harm and to ensure equal 
protection under the law, in order to promote ``liberty and justice for 
all.''
    The President has emphasized his goal to stabilize the economy by 
creating new jobs and reducing our national debt through greater 
revenue generation and spending cuts. To assist in the economic 
recovery, we continue to ask even more from our talented DOJ personnel. 
This is as true in DOJ as it is in the rest of the Federal Government.
    The President has asked DOJ to do more with less, recognizing that 
many across the country are still suffering; I am committed to 
presenting the Congress with a serious and thoughtful budget, which 
clearly reflects this awareness, and allows us the resources to 
faithfully carry out DOJ's mission and fulfill our obligation to the 
American people.
    Upon careful examination of our mission and the range of the 
priorities I will present here we cannot simply ``cut back'' on the 
extent or quality of justice that we are obliged to deliver; we cannot 
cease to enforce the law. We cannot ignore an indictment, or choose at 
the end of the process not to imprison a criminal, if sentenced. We are 
responsible for enforcing the law, and these efforts must be funded.
    What we can and must do, however, is examine the way we do our 
work, and find better ways to continue to do it well. In response to my 
call for savings across DOJ, my staff developed almost $700 million 
worth of budget offsets, so that we can reinvest that money and protect 
DOJ's core mission and priorities. In presenting DOJ's fiscal year 2013 
budget, we have aligned the entire amount to pay for high-priority, 
mission-related needs. Specifically, we have proposed $228 million in 
program increases. Our overall discretionary budget authority is 
reduced from $27.2 billion in fiscal year 2012 to $27.1 billion in our 
fiscal year 2013 request.
    In this fiscal year 2013 budget, we have proposed changes in 
operational accounts, as well as leadership offices. We have used 
balances from prior years that were left on the books to offset this 
year's costs, and we tried to find less expensive ways to accomplish 
the same outcome.
    Each of our proposed reorganizations and realignments has been 
developed with one goal in mind, to save taxpayers money, while 
remaining dedicated to our mission to protect our citizens. I can 
assure you that none of our reorganizations or realignments will 
compromise this fundamental mission; personnel and resources will be 
shifted to achieve the same end, to remake DOJ in ways that make us 
more responsive to the American people whom we proudly serve.
    To be clear, then, we at DOJ recognize that we are accountable to 
the American people, to identify and eliminate areas of waste, fraud 
and duplication, and also to marshal limited resources for the greatest 
return on investment. I have carefully reviewed with my staff DOJ's 
fiscal year 2013 budget request, and have directed them to focus 
resources on programs that have a measurable impact and demonstrate 
success in keeping our citizens safe.
    In his fiscal year 2013 budget, President Obama proposes that the 
Congress fund the work of DOJ in the amount of $27.1 billion. In this 
hearing, I would like to focus on DOJ's work in six critical areas, 
namely,
  --To sustain our Nation's security interests;
  --To uphold DOJ's traditional mission programs;
  --To combat financial, mortgage, and healthcare fraud;
  --To support our State, local, and tribal law enforcement partners;
  --To invest in Federal prisons and enhance detention capacity; and
  --To streamline programs and operations across DOJ.

                           NATIONAL SECURITY

    The fiscal year 2013 budget includes a total of $4 billion to 
sustain our first priority--DOJ's national security mission. As with 
our law enforcement mission, the Department continues to work to build 
strong ties with intelligence and security partners around the world, 
to protect the American people. At the same time, we are diligent in 
protecting U.S. technologies, goods, services, and national security 
interests from illegal tampering, malicious manipulation and 
acquisition by other countries, in order to maintain our Nation's 
competitive edge.
    The funding previously enacted, which the fiscal year 2013 budget 
maintains, for our national security programs ensures the continuation 
of critical investments made to improve intelligence coordination; 
expands information sharing efforts with trusted counterparts; secures 
our cyber infrastructure; widens investigations of drug trafficking 
organizations with ties to terrorist groups; and continues to extend 
anti-terrorism training to our law enforcement partners.
    In the past year, we were successful in several key national 
security investigations. In October, DOJ obtained the conviction 
against Umar Farouk Abdulmutallab for his role in the attempted bombing 
of an airplane full of holiday travelers on Christmas Day in 2009. He 
was sentenced to life in prison earlier this month. Working closely 
with our United States and international partners, we thwarted a plot 
by two Iranian nationals to assassinate the Saudi Ambassador to the 
United States, as well as numerous other suspected plots by homegrown 
violent extremists. We also secured the conviction of notorious arms 
dealer Viktor Bout for his efforts to sell millions of dollars of 
weapons for use in killing Americans. In May of last year, a grand jury 
indicted Waad Ramadan Alwan on 23 charges, including conspiracy to use 
a weapon of mass destruction against United States nationals abroad; 
attempting to provide material support to al Qaeda in Iraq; and 
conspiracy to transfer, possess, and export explosive devices against 
United States troops in Iraq. In December, Alwan pleaded guilty to all 
23 charges.
    In the fiscal year 2013 budget, DOJ seeks to maintain critical 
counterterrorism and counterintelligence programs, and sustain 
significant, recent increases related to intelligence gathering and 
surveillance capabilities; detecting and deterring cyber intrusions and 
fully supporting cybersecurity through the Comprehensive National 
Cybersecurity Initiative. We also look to maintain our investments 
supporting the High Value Detainee Interrogation Group; the Joint 
Terrorism Task Forces; and the Render Safe Program.

                      TRADITIONAL MISSION PROGRAMS

    In the fiscal year 2013 budget, DOJ seeks increases of $31.8 
million in support of programs in DOJ's traditional core mission of 
combating violent crime, cybercrime, crimes against children, and 
criminal trafficking in persons; and enforcing the Nation's civil 
rights and environmental laws.

Criminal Law
    In combating organized crime, I announced in January 2011 the 
single largest operation against the mafia ever undertaken by the 
Federal Bureau of Investigation (FBI), the result of unprecedented 
cooperation among Federal, State, local, and foreign law enforcement 
personnel. The operation resulted in the arrest of more than 100 
suspected mobsters--all without a hitch. In July, we announced the 
results of Project Delirium, a Drug Enforcement Administration (DEA) 
operation targeting La Familia Michoacana (Mee-shoa-CA-na), a violent 
drug cartel and supplier of most of the methamphetamines smuggled into 
the United States. Working with other Federal, State, local, and 
foreign law enforcement partners, including the Bureau of Alcohol, 
Tobacco, Firearms and Explosives (ATF), DEA oversaw more than 1,900 
arrests and the seizure of more than $63 million in U.S. currency; more 
than 2,700 pounds of methamphetamine; more than 2,700 kilograms of 
cocaine; 900 pounds of heroin; nearly 15,000 pounds of marijuana; and 
$3.8 million in other assets. An ATF investigation targeting a gang in 
Philadelphia known as the Young Hit Men or Harlem Gang resulted in an 
89-count superseding indictment charging 23 members with an array of 
Federal violations, including multiple firearms violations. The trial 
of these gang members is scheduled for May. And finally, in 2011, the 
U.S. Marshals Service (USMS) captured nearly 125,000 fugitives, 
including 7 from their ``Fifteen Most Wanted'' list in 2011. This was 
the fourth consecutive year that the USMS captured more than 100,000 
fugitives. These are only highlights, but, as you can see, it's been a 
busy year for DOJ.
    Investigating cyber crime and protecting our Nation's critical 
network infrastructure is another of DOJ's top priorities. Successful 
cyber attacks can have devastating effects on our national security, 
infrastructure, and economy; and hackers have been relentless in their 
efforts to attack U.S. Government agency Web sites, including ours. In 
combating these efforts, we continue to build and strengthen our 
capabilities to counter and prevent these attacks. Here again, DOJ 
works on a global scale to achieve success, in cooperation with our law 
enforcement partners abroad. FBI estimates that Americans lose hundreds 
of millions of dollars to cyber criminals based in Eastern Europe 
alone. Working closely with the FBI Cyber Division and with our legal 
attache personnel in Bucharest, our Romanian counterparts have arrested 
more than 300 cyber criminals in the last 3 years. Our efforts to build 
relationships with foreign counterparts continue to produce real 
dividends. FBI, the DOJ Office of International Affairs, and the 
Southern District of New York cooperated closely with the Israeli 
National Police and the Israeli Ministry of Justice. Together, we took 
down two boiler rooms in Israel that had targeted elderly persons in 
the United States in a lottery telemarketing scam, and had swindled 
them out of more than $10 million of their hard-earned savings. Thanks 
to this cooperation, 24 members of the ring were arrested in Israel and 
the United States; and 19 of the 21 have been extradited to the United 
States. Most pleaded guilty, and have been sentenced.
    In fiscal year 2013, DOJ is requesting an increase of $15.2 million 
within the Justice Information Sharing Technology program to transform, 
strengthen, and protect DOJ internal networks. This will counter newly 
emerging cyber security threats, including insider threats, provide 
advanced intrusion detection and response capabilities, and implement 
cost-efficient scalable enterprise architecture.
    The fiscal year 2013 budget also includes $3 million in new 
investments to combat transnational criminal organizations, and a total 
of nearly $2 billion to maintain the security of our Nation's Southwest 
Border. The budget also increases funding for international 
investigation and deterrence of intellectual property crime by $5 
million, which brings our investment to nearly $40 million annually to 
combat online piracy and otherwise protect our Nation's intellectual 
capital and maintain our competitive edge in developing American ideas 
and technologies to better compete in the global marketplace.
    DOJ's budget request also supports our continuing work to prevent, 
investigate, and prosecute child exploitation crimes. Sadly, our 
caseload in this area continues to increase. Our budget request will 
fund ongoing efforts to investigate and prosecute offenders such as 
those who participated in the so-called Dreamboard, an international, 
members-only, online bulletin board that was dedicated to the sexual 
abuse of children. Just as Dreamboard's members operated across 
international boundaries in committing their crimes, so too did law 
enforcement personnel work across boundaries to take down this 
nefarious ring. To date, 72 Dreamboard members have been indicted; 53 
have been arrested in the United States and abroad.
    DOJ has successfully investigated and prosecuted public corruption, 
not only in the several high-profile cases that made the news, but 
across the United States. The American electorate trusts that their 
public servants will obey the law; they expect DOJ to bring to full 
justice those who abuse that trust.

Civil Rights
    A fundamental highlight of DOJ's budget request for traditional 
mission programs is $5 million in new resources for the Civil Rights 
Division to prevent and combat human trafficking; hate crimes; and 
misconduct by law enforcement and public officials. These issues 
warrant our greater investment and vigilance as we advocate for every 
American--without exception. Safeguarding the civil rights of every 
American is at the heart of what we do, and represents our core 
mission. In this good work, DOJ continues to achieve success and helps 
our Nation to create ``a more perfect union''.
    In seeking redress for the host of inequities uncovered by the 
mortgage morass, DOJ has fought especially hard to protect the civil 
rights of Americans. Recently, I announced that DOJ had reached a $335 
million settlement with a lender to resolve allegations of lending 
discrimination against African-American and Hispanic borrowers who 
qualified for mortgage loans, but were charged higher interest fees or 
were steered into sub-prime loans, solely because of their race and/or 
national origin. More than 200,000 Americans will be entitled to 
compensation. We have also acted to protect the civil rights of our 
servicemembers who have been targeted by these unconscionable, 
predatory lending practices. In May 2011, we announced settlements with 
two lenders to resolve allegations that they had wrongfully foreclosed 
upon active-duty servicemembers without first obtaining court orders, 
in clear violation of the Service Members Civil Relief Act. The 
settlements provided more than $22 million in compensation to our men 
and women in uniform who were forced to worry about their families and 
losing their homes through unlawful foreclosures, while also having to 
endure the horrors of war. We fought hard for them because we believe 
that, as Americans, we are much better than that, and that our fellow 
citizens, who place their lives on the line for all of us, deserve far 
better than that.
    Our other civil rights priorities in fiscal year 2013 include a 
greater focus upon combating human trafficking; in uncovering and 
prosecuting hate crimes that target Americans for who they are and what 
they believe; in upholding and enforcing the constitutional right of 
every eligible American to participate in our Nation's political 
process and vote freely; and fully implementing provisions of the Civil 
Rights for Institutionalized Persons Act.

Environment and Natural Resources
    Since 2011, a team of our agents and prosecutors continues to lead 
the Deepwater Horizon Task Force, which has investigated the conduct of 
those involved in the tragic explosion and oil spill that claimed the 
lives of 11 people; despoiled the coastal waters of the Gulf of Mexico; 
killed scores of wildlife; and damaged the vibrant economy of a 
beautiful region, which our citizens have struggled mightily to 
restore.

Financial, Mortgage, and Health Fraud
    In our fiscal year 2013 budget, DOJ seeks an increase of $55 
million, for a total investment of more than $700 million, to 
investigate and prosecute financial and mortgage crimes that have 
sorely hurt the American people and damaged their trust in the 
financial markets they expect to engage in fair play. The abuses by 
many in the financial sector have had a devastating effect on the U.S. 
economy, and have contributed significantly to the economic suffering 
of so many Americans. It is essential that DOJ address these abuses 
forcefully, to hold fully accountable those who are responsible for 
these abuses and ensure that they are not repeated. In this budget, we 
propose an increase in specialized staffing and technologies to combat 
and root out fraud in the area of securities and commodities; 
investment scams; mortgage foreclosure schemes; and increasingly, in 
healthcare fraud.
    The program increase of $55 million would provide funding for 
additional FBI special agents, criminal prosecutors, civil litigators, 
in-house investigators, forensic accountants, and paralegals to hone 
DOJ's capacity to investigate and prosecute the full spectrum of 
financial fraud. Bringing aboard specialized and dedicated personnel, 
especially investigators and forensic accountants, is key to our 
successful detection and prosecution of complex financial schemes, and 
helps us to stay well ahead of the criminals who devise them. Of the 
$55 million program increase, $37.4 million is to increase criminal 
enforcement efforts and $17.6 million would increase civil enforcement 
efforts. Our total request also includes $9.8 million for technology 
tools and automated litigation support.
    We have already been actively engaged in these efforts. Since 
fiscal year 2010, the Financial Fraud Enforcement Task Force has 
spurred investigation and prosecution of financial fraud that has been 
uncovered by the 2008 financial crisis and economic recovery efforts. 
The task force has charged and sentenced a great number of defendants 
involved in securities fraud, investment fraud, Ponzi schemes, and 
other financial fraud. In October 2011, the managing member of Galleon 
Management LLC was sentenced to 11 years in prison, based on DOJ's 
investigation of the largest hedge fund insider trading scheme in 
history. We also continue to aggressively prosecute those who commit 
mortgage fraud. Mortgage fraud victims include distressed homeowners 
preyed upon by fraudsters posing as foreclosure rescue experts; the 
elderly who are victimized in Home Equity Conversion Mortgage or 
``reverse mortgage'' schemes; U.S. servicemembers; and entire 
neighborhoods blighted by blocks of abandoned homes. In fiscal year 
2011, the U.S. Attorneys' offices filed 513 cases against 947 
defendants, an increase of 92 percent in just 2 years.
    Earlier this month, I joined Housing and Urban Development 
Secretary Shaun Donovan and the Attorneys General of Colorado, Indiana, 
North Carolina, Illinois, and Iowa to announce the unprecedented 
agreement reached by the Federal Government and State attorneys general 
with the Nation's five largest mortgage servicers to address mortgage 
loan servicing and foreclosure abuses. This agreement--the largest 
joint Federal-State settlement ever obtained--provides substantial 
financial relief to homeowners and establishes significant, new 
homeowner protections. It holds mortgage servicers accountable for 
abusive practices and requires them to commit more than $20 billion 
toward financial relief for consumers. As a result, struggling 
homeowners throughout the country will benefit from reduced principal 
amounts and the refinancing of their loans. The agreement also requires 
substantial changes in how servicers do business, which will help to 
ensure the abuses of the past are not repeated.
    Moreover, on January 27, I announced the formation of the 
Residential Mortgage-Backed Securities Working Group, supported by 
current manpower and funds, to leverage State and local resources in a 
nationwide effort to investigate and prosecute crimes in the 
residential mortgage-backed securities market. DOJ will join the 
Securities and Exchange Commission and the New York State Attorney 
General under authority of the Financial Fraud Enforcement Task Force 
in leading the working group, which will be staffed by at least 55 DOJ 
agents, analysts, investigators, and attorneys from around the United 
States.
    Finally, DOJ remains fully engaged with the Department of Health 
and Human Services (HHS) to prevent and combat healthcare fraud. 
Earlier this month, HHS Secretary Kathleen Sebelius and I reported the 
success of our joint efforts, having recovered nearly $4.1 billion for 
U.S. taxpayers in fiscal year 2011. The 3-year average return on 
investment for healthcare fraud funding in fiscal year 2011 was more 
than $7 for every $1 invested--the highest ever for this program.
    In fiscal year 2013, we plan to redouble our efforts and ask the 
Congress for $294.5 million through the HHS budget for healthcare fraud 
funding to support DOJ initiatives to combat civil and criminal 
healthcare fraud. Increased funding will permit DOJ to expand Medicare 
Fraud Strike Force operations and to more effectively target locations 
where healthcare fraud activities are rampant. We also propose 
additional support to bolster civil enforcement efforts, including 
False Claims Act matters, to investigate and prosecute fraud by medical 
and pharmaceutical providers.

                STATE, LOCAL, AND TRIBAL LAW ENFORCEMENT

    In our fiscal year 2013 budget, DOJ seeks a total of $2 billion to 
assist State, local, and tribal law enforcement personnel, especially 
in combating violent crime and violence against women and all other 
victims of crime, and in supporting victim programs.
    DOJ's budget request is strong on law enforcement; it's strong on 
solid program research and development; it's strong on juvenile 
justice; and it's strong on innovation. In presenting this budget 
request, we've taken a long, hard look at what has worked best in these 
areas, in order to extend these best practices across the broad range 
of our work.
    The key to DOJ's success in protecting the American people 
continues to be in developing effective partnerships with law 
enforcement counterparts throughout the United States and abroad to 
leverage a more focused and effective law enforcement response. To put 
this in perspective, there are 65,000 U.S. Federal agents dedicated to 
criminal investigations; by comparison, there are 700,000 State and 
local law enforcement officers in the United States, not to mention 
scores of others who work for agencies from other nations. Crime is 
increasingly transnational and global in scope, and criminals respect 
no boundaries. We owe it to the American people to work closely with 
our partners--at home and abroad--to prevent these criminals from 
harming our citizens, and to ensure that those who do so are brought to 
justice.
    Here at home, one of our most important partnering programs is the 
Community Oriented Policing Service (COPS) grant program. These grants 
assist State and local police in hiring officers for targeted patrol 
and other proven strategies to reduce and prevent crime. From fiscal 
year 2009 through fiscal year 2011, the COPS office funded more than 
7,100 positions. More than 5,000 of these positions have been filled so 
far; nearly 4,000 of them as new hires. The budget requests an 
additional $91 million for the COPS hiring program in fiscal year 2013, 
for a total of $257.1 million. Of this amount, $15 million will be 
dedicated to community policing development initiatives and $15 million 
will be directed to tribal jurisdictions.
    It is worth noting that COPS will be giving preference in any 
fiscal year 2012 hiring grant award to communities that hire post-9/11 
veterans of our armed forces. Put simply, this is the right thing to 
do, and I assure you that this policy will continue in grants funded by 
the fiscal year 2013 appropriation.
    To give you an idea of the impact that COPS funding has had within 
local communities, let me tell you about Fresno, California. Given 
budgetary constraints, the Fresno Police Department had lost 100 sworn 
police officer positions and 265 civilian positions over a 3-year 
period. COPS funding added 41 front-line officers who helped Fresno 
reduce violent crime by targeted removal of dangerous criminals from 
the community's streets. The results are impressive. In 2011, Fresno 
experienced decreases in violent crimes across the board and had its 
lowest murder rate in a decade. Without COPS funding, the Fresno Police 
Department would have been forced to disband its violent crime impact 
team and redeploy officers into patrol, and merely react to crime. 
Instead, COPS funding helped the people of Fresno become more active in 
safeguarding their community.
    In this area, too, DOJ seeks funding for grant programs proven to 
be effective in preventing crime. Increased funding is requested for 
the Byrne Criminal Justice Innovation Program; for residential 
substance abuse treatment; for Second Chance Act implementation; for 
Part B Juvenile Justice Formula Grants; and for a new, evidence-based 
juvenile justice competitive demonstration grant program.
    The Adam Walsh Act significantly enhances DOJ's ability to respond 
to crimes against children and vulnerable adults, and to prevent sex 
offenders who have been released back into the community from 
victimizing others. The fiscal year 2013 budget also includes $20 
million for States and local jurisdictions, and an additional $1 
million to develop the National Sex Offender Public Web site.
    Finally, a significant outlay under the fiscal year 2013 budget 
includes increased funding to squarely address domestic violence and 
child abuse in rural areas through support of projects specifically 
designed to prevent these crimes in rural jurisdictions. A significant 
portion of these funds will be dedicated to implementing public safety 
programs in Indian country, to assist tribal law enforcement partners 
in reducing the disproportionately high levels of violent crime there.

                         PRISONS AND DETENTION

    In DOJ's fiscal year 2013 budget, we are seeking $8.6 billion to 
ensure that prisoners and detainees are held in secure Federal 
facilities and to improve Federal prisoner re-entry.
    Last year, DOJ made strategic investments to enhance the Nation's 
security and make communities safer. There are more than 2 million 
people incarcerated in the United States; estimates project the Federal 
inmate population in the United States to increase by 6,500, in 
addition to the estimated 5,000 inmates who will be processed in fiscal 
year 2012. The fiscal year 2012 enacted appropriation included partial 
funding for activation of new prisons in Alabama and New Hampshire. In 
the fiscal year 2013 budget, DOJ requests funding to fully activate 
these facilities and initiate two others, in Mississippi and West 
Virginia. In all, DOJ plans to add 2,500 prison beds and 1,000 new, 
low-security contract confinement beds in fiscal year 2013. DOJ will 
also direct increased funding to hire additional corrections workers 
and cover increased costs to transfer, accommodate, and secure the 
larger prisoner population.
    While opening the secure facilities we need to confine criminals, 
DOJ's budget request also addresses the parallel need to free up prison 
space and reduce long-term detention and incarceration costs. This 
budget recognizes the need to work with you in the Congress to make 
simple changes to the calculation of good conduct time, and to explore 
ways to further reduce recidivism. These proposals provide proven 
incentives for good behavior among certain eligible, nonviolent 
inmates, and their participation in programs designed to keep them from 
returning to prison, and will have a direct impact in relieving 
overcrowding in Federal prisons. Beyond the steps proposed in this 
budget, the Federal Government has an opportunity to build on the work 
of States like Texas and Indiana to modernize criminal sentencing, 
ensuring that violent and career criminals remain behind bars and off 
the streets, while strengthening programs to help eligible, nonviolent 
offenders to safely and productively re-enter their communities.
    The programs we propose to fund aim to reduce recidivism by 
expanding participation in these re-entry programs. DOJ's fiscal year 
2013 budget request includes expansion of the Bureau of Prison's 
residential drug abuse program, which supports Second Chance 
objectives. This expansion will enable greater use of the sentencing 
credits available to eligible, nonviolent inmates who complete drug 
treatment programs. Thus, as this program contributes to reducing 
crime, it will also result in fewer taxpayer resources directed at 
incarcerating inmates.

                        SAVINGS AND EFFICIENCIES

    DOJ's fiscal year 2013 budget presents a highly streamlined array 
of programs, which will help us to achieve our mission more efficiently 
while protecting the American people more effectively.
    DOJ proposes almost $700 million in efficiencies, offsets, and 
rescissions. We at DOJ recognize that we must do our part to help our 
Nation maintain its sound fiscal footing. In our fiscal year 2013 
budget request, we seek to balance fiscal responsibility demanded by 
the American people with DOJ's national security and law enforcement 
mission to prevent, prosecute, and bring to justice all who would do us 
harm.
    In leading this effort, I directed DOJ staff to identify areas 
where we would achieve significant savings for the American taxpayers 
by implementing changes in the way we execute our mission. These 
changes include improving the way we target funding, seeking support 
for programs that work; redirecting funding from the Department level 
to component agencies to reduce overhead and increase operational 
efficiency; and consolidating offices and redirecting or reducing 
personnel and resources.
    In all, we identified $646.6 million in administrative 
efficiencies, nongrant program reductions, and rescissions of prior-
year balances, which will reduce our bottom line without impairing our 
mission or capabilities.
    In submitting DOJ's fiscal year 2013 budget request, I emphasize 
that we continue to hold the line on expenses, seek to eliminate waste, 
and promote efficiencies. In this request, we propose to reorganize DOJ 
by consolidating offices. In doing so, we will become a leaner, more 
agile, and more responsive organization. Our goal is to enhance our 
service to the American people, without sacrificing the essential 
mission. Instead, we intend to realign our staff and resources to meet 
the greatest needs.
    In proposing these realignments, we add our efforts to the 
President's Campaign to Cut Waste. In July 2010, I launched DOJ's 
Advisory Council for Savings and Efficiencies, or the SAVE Council, to 
focus these efforts within DOJ. In just the last 2 years, the SAVE 
Council has helped DOJ realize nearly $60 million in savings and cost 
avoidance.
    The fiscal year 2013 budget includes savings expected from merging 
detention functions currently performed by the Office of the Federal 
Detention Trustee into USMS, merging core functions of the National 
Drug Intelligence Center into DEA, and transfer management of the Law 
Enforcement Wireless Communication program to FBI, returning funding 
and the concomitant responsibility for radio operations and maintenance 
to DOJ's law enforcement components.
    Additional savings and efficiencies were identified in the areas of 
information technology, space requirements, overhead, administration, 
and operations. For example, the IT offset represents savings that will 
be developed through greater inter-component collaboration in IT 
contracting; funds will be redirected to support DOJ's cyber security 
and IT transformation efforts and other high-priority initiatives.

                               CONCLUSION

    In conclusion, I am keenly aware that the President and I have 
asked DOJ's dedicated employees to do much more with fewer resources 
during this period of economic recovery. That they have done so with 
continued dedication to our mission to protect the American people is 
truly exemplary and inspiring.
    I appreciate this opportunity to tell you about our good work at 
the Department of Justice, to thank you for your support to date, and 
to ask you to fund the important work that lies ahead.
    At this time, I would be pleased to take your questions.

    Senator Mikulski. As a matter of senatorial courtesy, we're 
going to turn to Senator Shelby, who has a Banking Committee 
hearing that he must join, then I'll pick up, followed by 
Senator Hutchison. We will recognize the members in order of 
arrival, and we'll follow the 5-minute rule.
    Senator Shelby.

                 STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. Thank you. Thank you, Madam Chairman. Good 
morning, Mr. Attorney General.
    Attorney General Holder. Good morning.

 TERRORIST EXPLOSIVE DEVICE ANALYTICAL CENTER AND NATIONAL CENTER FOR 
                      EXPLOSIVES TRAINING RESEARCH

    Senator Shelby. Two key DOJ facilities will soon be 
operating on Redstone Arsenal: The FBI's Terrorist Explosive 
Device Analytical Center (TEDAC), and the ATF's National Center 
for Explosives Training Research (NCETR). These two national 
assets will help law enforcement officials deal with the 
growing threat posed by terrorists and criminal use of powerful 
explosives.
    You and I have discussed these facilities previously, and I 
believe you agreed then with me that the missions of NCETR and 
TEDAC are distinct, but complementary, and that it made sense 
to colocate them at Redstone, where there's a lot of property, 
a lot of land.
    For the benefit of the subcommittee, Mr. Attorney General, 
can you describe how DOJ will utilize NCETR and TEDAC?
    Attorney General Holder. TEDAC, run chiefly by the FBI, 
deals with the examination of improvised explosive devices 
(IEDs), that we see coming out of Afghanistan and other places. 
NCETR, by contrast, run by the ATF, deals with other, more 
common explosive devices.
    Senator Shelby. More prevalent maybe?
    Attorney General Holder. More prevalent explosive devices 
that we see. I think that you're right, they have fundamentally 
different responsibilities, but they complement one another, 
and the location of them in that place makes a great deal of 
sense.
    Senator Shelby. Could you describe the value of colocating 
these facilities on a large Federal arsenal, with lots of range 
of space?
    Attorney General Holder. Yes. I think there's a great deal 
of cross-pollination, the ability to talk to one another. 
Although the purposes are distinct, there are going to 
certainly be scientific things, breakthroughs, perhaps, that 
you can exchange information about by having people who are 
relatively close by. Having the two agencies that are primarily 
responsible for explosives determination and prevention close 
by each other, even though they have distinct roles that have 
been pretty well delineated--it is good to have them there and 
talking to one another.
    Senator Shelby. Also, you're aware that the community 
there, near Redstone, Huntsville, has the highest per capita 
Ph.D. communities in science and engineering.
    Attorney General Holder. There are a lot of smart people 
there. That's true.
    Senator Shelby. You plan to utilize that then.
    Attorney General Holder. Yes. We'll use smart people 
wherever we can find them. There are a lot there. That is fair.

         ACTIVATION OF ALICEVILLE FEDERAL CORRECTIONS INSTITUTE

    Senator Shelby. Well, I want to go to another question. 
People make mistakes and pay for it, I guess.
    Attorney General Holder, the Justice Department is seeking 
funds this year to activate a new women's prison in Aliceville, 
Alabama. This prison was designated as a female-only facility, 
based on input from your Department, and it cost nearly $250 
million when it was finished. Does the Department plan to 
activate this soon? I know you've got a lot in it. The Bureau 
of Prisons (BOP) said that was one of their top priorities.
    Attorney General Holder. We want to activate it. It was 
specially designed to deal with the unique needs that female 
prisoners have. We need to expand our capacity to handle female 
prisoners in the Federal system. Given the fact that the 
facility was specially configured for female prisoners, it 
would be our hope to activate it as quickly as we can, and for 
the use for which it was designated.
    Senator Shelby. Well, you've got a lot in it, and it's 
finished. And I'd hope you would do that soon, because to 
activate it, it costs hardly anything, compared to what it cost 
to build.
    Attorney General Holder. No. I don't disagree with that. 
The need is clearly there for the expanding female population, 
unfortunately, that we see in the Federal prison system.
    Senator Shelby. It would be a priority for you?
    Attorney General Holder. Yes.
    Senator Shelby. In that area.
    Attorney General Holder. We want to bring online as many of 
these facilities we can, and this is one that, as I understand 
it, is extremely close, where we're just about ready to open 
it.
    Senator Shelby. Good. Madam Chairman, thank you very much 
for taking me out of order, and I appreciate it very much.
    Senator Mikulski. Mr. Attorney General, I have two 
questions. I had many, but we'll submit them for the record.

                         FEDERAL PRISON FUNDING

    First of all, Federal prisons. As I look at the 
Department's budget, almost one-third of the Justice Department 
money is going into Federal prisons. That amount is now at $6 
billion, and it is rapidly approaching almost what the FBI 
budget is, which is $8 billion.
    Now, my question is: What's going on with Federal prisons? 
First of all, we want the bad guys and gals off the street. So 
we want you to prosecute and incarcerate, particularly where 
there are people who constitute a danger to our country or to 
our communities. I don't know if we can sustain this growth, 
and then I'm concerned about once we put them in, it's a 
revolving door, and we keep expanding their prisons with the 
same people. They keep coming back.
    Could you elaborate on your Department's needs? Are there 
any recommendations you'd have to begin to contain the prison 
population? Are we federalizing too many crimes? Is recidivism 
the problem? Again, safe streets--but this is really an ever-
increasing part of our appropriations.
    Attorney General Holder. There are a whole variety of 
reasons why we see the prison population expanding. We now have 
about 215,000 people in the Federal system. That number goes up 
every year, and it is for that reason that we consistently come 
back to this subcommittee asking for additional funds for BOP.
    There are a variety of reasons why you see people coming 
into the system. We are good partners with our State and local 
counterparts, and we try to help them, to the extent that we 
can. And so, some cases violate both Federal and State law, and 
if they are very serious criminals, we bring them to the 
Federal system if there are evidentiary rules or more harsh 
sentences that we can give to them.
    I think the point that you hit on, that we really need to 
focus on, is how can we rehabilitate people so that we cut down 
on recidivism rates? One of the things that we have talked 
about is the Second Chance Act, coming up with ways in which we 
make available to people re-entry possibilities, so that they 
have the chance of not being recidivists, coming up with 
educational, vocational, drug treatment programs while we have 
them in prison.
    We've actually seen pretty good success being made by some 
State systems that has been shared with me by the Pew Research 
Foundation. I think we can learn a lot from them in that 
regard.
    Senator Mikulski. Well, Mr. Attorney General, we would 
really look forward to specific recommendations. We want our 
local and our Federal law enforcement to prosecute and get bad 
people off the street, whether they're terrorists or whether 
they're terrorizing a neighborhood, like some of the drug 
dealers in some of my own communities in Maryland.
    At the same time, we don't want our Federal prisons to be 
an incubator for more crime, where the lessons that they learn 
when they go to prison is not to commit crimes again, but how 
to be better crooks. We want our prisons to teach them how to 
be better citizens, and then to come back to a community 
support system where they don't fall back into the behavior 
that got them.
    So, I'm concerned that our Federal prisons are such that we 
need to really look and evaluate, and learn some of these 
lessons. So, we want to work with you. I know you feel that 
way. You're very experienced in street crime, which takes me to 
the other point.

               COMMUNITY ORIENTED POLICING SERVICE GRANTS

    Ultimately, you've done this fantastic job of fighting 
terrorism, keeping America safe. It's been stunning what our 
national security services have accomplished, both military and 
civilian. Again, I'll come back to streets and neighborhoods. 
You know, we have communities that face crime every single day. 
And we talk to our local law enforcement, our local 
prosecutors' offices, and so on. They feel they're under the 
gun. They need Byrne grants, they need Cops on the Beat, and so 
on.
    Do you feel that this is sufficient funding? In fiscal year 
2010, we had $3.7 billion that went into State and local 
grants. Due to acts of the Congress and so on, now, we're down 
to $2 billion. Yet, everywhere I go in Maryland, from our local 
police commissioners to local district attorneys, or States' 
attorneys, as they're called in my State, people say we need 
those Justice Department grants. They give us better 
technology. They give us tools to deal with violence against 
women. They express gratitude for the lethal index. They need 
you. They love having you as a partner.
    Do we have enough money in the right places to do the job 
to protect our communities?
    Attorney General Holder. We have in the budget request 
$2.04 billion for State and local assistance programs; $1.4 
billion for Office of Justice Programs (OJP); about $290 
million for COPS; and $412 million for the Office on Violence 
Against Women (OVW).
    This is the level that's about equal to the level we 
requested last year. It is lower than numbers that you had 
said. But, I think that given the budget realities that we 
face, the amount that we have requested is strong on law 
enforcement. It's strong for science. It's strong for victims.
    Would I like to have more money? Yes, but the budget 
realities that we confront, and the need to stay within a 
budget in the executive branch have gotten us to this point. I 
think that through the provision of this money, through the 
technical assistance that we can also provide to our State and 
local partners, we can do the job.
    I met with the National Association of Attorneys General 
just this week, and I think the partnership that we have is an 
unprecedented one. I think that the combination of that 
partnership, the sensitivity that we have to their needs, and 
the $2 billion that we are seeking here will allow us to be 
good partners.
    Senator Mikulski. Well, we have many questions. So, I'm 
going to turn to Senator Hutchison.
    What I would find very helpful is two things. One, if you 
look at your Byrne grants, Cops on the Beat, and so on, what 
was the amount of money requested by State and local people to 
apply for those grants, and what could you fund?
    Attorney General Holder. Yes. I mean the request--oh. 
Sorry.
    Senator Mikulski. No. My time's up. So I'd like that for 
the record.
    [The information follows:]

   Funds Requested by State and Local Organizations for Byrne Grants

               COMMUNITY ORIENTED POLICING SERVICE OFFICE

    In 2011, the Community Oriented Policing Service (COPS) office made 
238 awards to fund 1,021 law enforcement officer positions, totaling 
$243,398,709. The total amount requested was $2,067,924,397 from 2,712 
law enforcement agencies.

                       OFFICE OF JUSTICE PROGRAMS

    Because individual Byrne Justice Assistance Grant (JAG) program 
awards are determined and limited by a specific, statutorily driven 
crime and population formula, States, local governments, and tribes 
cannot request more than the total amount available in any fiscal year. 
Because of this, it is not possible to determine what the unmet need 
was in fiscal year 2011 under the JAG program. In fiscal year 2011, 
there were a total of 56 States and territories and 1,348 local 
jurisdictions eligible for JAG funds, with a total of $365.9 million 
available in prescribed amounts. Of the local governments eligible for 
a direct JAG award, all but 127 applied for their funding allocation. 
Of the 127 that did not apply for their eligible funding, 120 of these 
jurisdictions would have received an award of between $10,000 and 
$25,000. As a result of these failures to apply, $1,949,103 in Byrne 
JAG funding was not awarded in fiscal year 2011.
    However, in fiscal year 2011, Office of Justice Programs' (OJP) 
Bureau of Justice Assistance (BJA) released 63 funding solicitations 
and received 4,295 funding applications requesting a total of 
$3,793,937,608 in Federal funding from BJA. BJA had sufficient 
appropriations to meet 19.32 percent of this requested total, funding 
51.66 percent of all applications submitted. These figures do not 
include unmet demand from programs such as the State Criminal Alien 
Apprehension Program and the Bulletproof Vest Partnership, which had 
additional unmet funding requests.

                        DUPLICATION OF SERVICES

    Improving the effectiveness and efficiency of Federal programs is a 
critical priority of the administration and the Department. The 
Department is committed to continuing efforts to prevent unnecessary 
duplication, streamline through approaches such as the consolidation of 
grant programs, and identify effective programs using evidence-based 
methods.
    Department of Justice (DOJ) grantmaking agencies closely 
collaborate on the development and implementation of grant programs to 
avoid the types of potential problems cited by the Government 
Accountability Office (GAO). Managers from OJP and its bureaus, COPS 
office, and the Office of Violence Against Women (OVW) often meet to 
coordinate programs and objectives. The following selected examples are 
illustrative of the Department's commitment to work collaboratively 
among its own components as well as Federal Government-wide to improve 
government performance and effectively target the public safety needs 
of our communities.
  --In January 2011, I convened the first meeting of the Federal 
        Interagency Reentry Council. The council is addressing short-
        term and long-term goals on prisoner re-entry through enhanced 
        communication, coordination, and collaboration across Federal 
        agencies. OJP is leading a parallel staff-level effort, which 
        includes 35 people from 17 different Federal agencies--
        including the Departments of Health and Human Services (HHS), 
        Housing and Urban Development (HUD), Labor, Education (ED), 
        Veterans Affairs, Agriculture, and the Social Security 
        Administration, and others.
  --OJP is also spearheading the National Forum on Youth Violence 
        Prevention, which is an effort launched--at the direction of 
        the White House--by DOJ and ED, to directly and locally address 
        the needs of communities that continue to experience high 
        levels of youth violence. Using comprehensive technical 
        assistance, the Forum enables Federal agencies to serve as 
        catalysts for broad-based positive change at the local level in 
        a very efficient, cost-effective manner.
  --All of DOJ's components and leaders are working together to provide 
        the most efficient and timely information to tribal 
        communities. As cited in the GAO report, beginning in fiscal 
        year 2010, the Department created the Coordinated Tribal 
        Assistance Solicitation (CTAS), which consolidates most of the 
        Department's tribal government-specific criminal justice 
        assistance programs administered by OJP, OVW, and COPS under 
        one solicitation. Through CTAS, tribes can apply for funding 
        for many of their criminal justice needs with one application.
    --The Tribal Law and Order Act enacted in July, 2010, contained 
            amendments to multiple laws with an impact across DOJ 
            activities in Indian country, including a number of OJP 
            programs. The CTAS collaborative experience readied us for 
            statutorily mandated coordination required for law 
            enforcement, training, increased grants authority, and 
            crime data analysis and reporting.
    --We are also partnering with other Federal agencies to conduct 
            inventories of Federal resources, develop interagency 
            memorandums of agreement, and long-term comprehensive plans 
            to improve our performance, eliminate duplication, and 
            identify gaps to better serve tribal governments and their 
            communities, in consultation with tribes.
  --The Defending Childhood Initiative is being coordinated across OJP, 
        COPS, OVW, the U.S. Attorneys offices, as well as other 
        components within the Department and the Federal Government.
    The Neighborhood Revitalization Initiative--which is a White House-
led interagency collaboration--is executing place-based strategies to 
engage and support local communities in developing and obtaining the 
tools they need to revitalize their own neighborhoods of concentrated 
poverty.
    The Federal Government already directs significant resources to 
these neighborhoods, but we can always look for additional ways to 
continue to support them. Better alignment of Federal programs will 
help local leaders to use Federal funds more effectively, making our 
taxpayer dollars go further.
    Additionally, the Department is working as a whole to coordinate 
and improve our grants management efforts. There is a DOJ-wide Grants 
Management Challenges Workgroup, comprised of grants officials from 
COPS office, OJP, and OVW, that meets to share information and develop 
consistent practices and procedures in a wide variety of grant 
administration and management areas. In fiscal year 2011, the working 
group successfully implemented the DOJ-wide high-risk grantee 
designation program and a DOJ-wide, on-line financial training tool for 
DOJ grantees.
    Through our Byrne Criminal Justice Innovation program, OJP and the 
Department will strengthen partnerships with HUD, ED, HHS, and the 
Department of the Treasury in distressed neighborhoods to implement 
effective strategies to address persistently high violent crime, gang 
activity, and illegal drugs.
    As mentioned, the Department is equally committed to consolidating 
grant programs as appropriate. The fiscal year 2013 budget re-proposes 
a consolidation that was also included in the fiscal year 2012 budget 
but not adopted, the consolidation (Problem Solving Justice) and 
expansion of funding for Drug Courts and the Mentally Ill Offender Act 
Program. The fiscal year 2013 budget also proposes the creation of a 7-
percent tribal grant set aside to address the needs of Indian country, 
rather than several separate programs.
    As resources have become tighter, we are working smarter by 
promoting evidence-based approaches and developing and spreading 
knowledge about what works and what causes crime and delinquency. 
Evidence-based knowledge is critical to help policymakers at the 
Federal, States, and local levels know what to fund, but perhaps more 
importantly right now, what not to fund. For example, OJP has developed 
tools such as CrimeSolutions.gov and the Diagnostic Center, which help 
jurisdictions focus on evidence-based ``smart on crime'' approaches to 
maximize resources and improve public safety results.

    Senator Mikulski. The second thing is: The GAO report 
raises issues related to duplication of services, and I'd like 
to have your reaction to the GAO report on how we can 
streamline, get more efficiencies. I think you're already on 
that road.
    But let me turn to Senator Hutchison.

                              STEVENS CASE

    Senator Hutchison. Thank you, Madam Chairman. Mr. Attorney 
General, we will have questions for the record, but I wanted to 
pursue this public integrity unit's misconduct against Senator 
Stevens.
    After you moved to dismiss the case, the court appointed 
counsel to investigate the botched prosecution of Senator 
Stevens, and found that the prosecutors engaged in systematic 
concealment of evidence, but they were not guilty of criminal 
contempt. And according to the summary that was put out in the 
public, the full report coming later, the court said, ``Despite 
findings of widespread, and at times, intentional misconduct, 
the special counsel, Mr. Schuelke, recommended against contempt 
charges, because prosecutors did not disobey a clear and 
equivocal order by the judge, as required under law.''
    Now, Judge Sullivan said, ``Upon review of the docket and 
proceedings in the Stevens case, Mr. Schuelke concludes no such 
order existed in this case. Rather, the court accepted the 
repeated representations of the subject prosecutors that they 
were familiar with their discovery obligations, were complying 
with those obligations, and were proceeding in good faith.''
    My question to you is: Does it concern you that the only 
reason these prosecutors escaped criminal charges is that the 
judge in the Stevens case didn't file an order specifically 
telling the prosecutors that they should follow the law?
    Attorney General Holder. We have to take into account a 
variety of things. When I was made aware of the issues that led 
to the inquiry that Judge Sullivan ordered, I made sure I 
ordered that the case be dismissed.
    Senator Hutchison. Dismissed.
    Attorney General Holder. I also ordered that an Office of 
Professional Responsibility (OPR) report be done as an internal 
DOJ report, which has now been completed. It is now in its 
final stages of being worked through.
    Senator Hutchison. Will it be made public, Mr. Attorney 
General?
    Attorney General Holder. I'm hoping that we can. There are 
privacy interests that we have to deal with, but my hope is to 
get that report, or as much of the report, made public as we 
possibly can. It is an exhaustive study. It is hundreds of 
pages long. I think the people at OPR have done a good job, and 
there are recommendations with regard to sanctions that ought 
to be made. I'm hoping that we will make that available.
    Senator Hutchison. I'm going to request that you do.
    Attorney General Holder. Okay. I'm not really at liberty to 
discuss the report that Mr. Schuelke did. We've gotten a 
limited number of those reports in the Justice Department, 10 
or 15 of them, and we're under orders by the judge not to 
discuss those. I've had a chance to review, certainly, the 
summary and portions of it, and some of the findings that are 
made there are disturbing. They were disturbing when I made the 
decision to dismiss the case.
    We have done a lot since that time to come up with ways in 
which we try to prevent those kinds of mistakes from happening 
again. We have an extensive training program. We have hired 
somebody who is responsible as a coordinator to make sure that 
discovery is handled properly in criminal cases and civil cases 
that the Justice Department is involved in, so we don't fall 
back into those same kinds of errors. I have spoken to members 
of the judiciary. All to make sure that what happened in the 
case involving Senator Stevens is not replicated. I would urge 
everybody to understand that this Justice Department, this 
Attorney General, when we made that determination that mistakes 
occurred, took the extraordinary step of dismissing that case.
    Senator Hutchison. Which I give you full credit for.

                      PROSECUTORS IN STEVENS CASE

    Now, let me ask you: Four of the six prosecutors, according 
to reports, who were investigated, opposed releasing the 
report, and their names have been redacted. I want to ask you 
if any of these prosecutors are still in the Justice Department 
system.
    Attorney General Holder. I have to check that, just to make 
sure, but I believe all of the prosecutors who were involved in 
that case are still in the Department. I believe that's true. 
I'm not totally sure of that.
    Senator Hutchison. Does that trouble you, that there would 
be findings of misconduct in such a sensitive area that you 
would not let them go outside of our justice system?
    Attorney General Holder. It depends on the nature of the 
misconduct, what it is that they did, the mistakes that were 
made. I think one has to look at the Schuelke report that is 
about to be released, combined with the OPR report and the 
recommendations for sanctions that are contained in that OPR 
report, to look at what exactly should happen to these people. 
Was the incident an isolated one? How serious was it? What is 
the nature of their contribution?
    Senator Hutchison. Are you going to do that, Mr. Attorney 
General? Are you going to make a decision regarding people who 
have clearly exhibited that they do not have the integrity to 
prosecute in this sensitive area? Will you tell the 
subcommittee what your actions are when you have made that 
determination?
    Attorney General Holder. I don't think there was any 
Privacy Act interest that prevents us from sharing with this 
subcommittee what actions we have ultimately decided to take 
against those people who are found to have been culpable.
    Senator Hutchison. Well, I ask that you report that to the 
subcommittee. Thank you, Madam Chairman.
    Senator Mikulski. Senator Brown.

                   STATEMENT OF SENATOR SHERROD BROWN

    Senator Brown. Thank you, Madam Chair, and thank you, 
Attorney General Holder, for your service.

          RESIDENTIAL MORTGAGE-BACKED SECURITIES WORKING GROUP

    You established the new RMBS Working Group. Thank you for 
that. I want to talk a moment about that. But, last week, Phil 
Angelides, from Senator Feinstein's State, former chair of the 
Financial Crisis Inquiry Commission, observed that the number 
of lawyers, some 55 lawyers, investigators, and other staff of 
the working group I just mentioned, that is far fewer than the 
100 law enforcement professionals dedicated to the Dallas bank 
fraud task force during the savings and loan era.
    Mr. Angelides also suggested the Congress should extend the 
statute of limitations for financial institutions fraud from 5 
years to 10 years, as the Congress did in 1989, when it passed 
the Federal Institutions Reform Recovery Enforcement Act after 
the savings and loan crisis. And you, of course, are aware of 
the public sentiment of anxiety, frustration, outrage--pick 
your noun--toward the fact that so few people have been 
prosecuted.
    Talk to me about the working group, the dollars you're 
dedicating of the $55 million increase you're asking for. Is it 
going to go into the RMBS Working Group? And comment, if you 
would, on Mr. Angelides' recommendation that the statute of 
limitations, similarly 20 years ago on a, if not a similar 
scandal, surely a scandal, when it was lengthened to 10 years 
by the Congress then, if that's something we should do.
    Attorney General Holder. I would say, first off, that this 
whole mortgage fraud scandal that we are dealing with is 
something that we have taken extremely seriously. We brought 
charges against about 2,100 people last year, all over the 
course of the last few years, in connection with the mortgage 
problem. You mentioned there are 55 Federal personnel to go to 
the RMBS task force--that's the Federal component. One of the 
things that I think is unique about that is that we're working 
with our State and local partners, and, in particular, State 
attorneys general. So, the number of people who will be 
ultimately devoted to that task force will be substantially 
greater than that.
    I suspect we will also be adding people from various U.S. 
Attorneys' offices around the country. I think we're looking at 
four or five that will be intimately involved in this, so that 
number will ultimately go up. We're going to have adequate 
resources, in terms of the numbers of people, to do the job 
that we need to do with regard to the RMBS Working Group.
    With regard to the extension of the statute of limitations, 
that is something that I'd be more than glad to discuss with 
the members of this subcommittee after I've had a chance to 
speak with the prosecutors on the ground, to see if, in fact, 
that is something that we need. We want to use all the tools 
that we have, and also consider any possibilities that we might 
want to acquire, so that we can hold accountable the people and 
institutions who really had a devastating impact on our 
Nation's economy, and continue to have a lingering effect on 
our Nation's economy and, in particular, the housing market, 
which drags down the recovery.
    Senator Brown. Okay. Thank you for that. And we will be 
following up with your office on the wisdom, hearing from your 
prosecutors that might be in the middle of initiating these 
cases or in the middle of these cases, about the importance of 
that extra 5 years of the statute of limitations.

                 OIL AND GAS PRICE FRAUD WORKING GROUP

    Let me talk for a moment about gas prices. You know, oil 
prices are more than $100 per barrel. The Department of Energy 
and the Commodity Futures Trading Commission have told us 
inventories of oil are sufficient. Domestic production is up. 
We hear that. The number of rigs has grown. The consumption is 
down. All reasons that gas prices should not be going up, 
understanding that the turmoil in the Middle East and the 
discussion of Iran.
    Some analysts have estimated speculation may be adding 50 
cents to the price per gallon of gas. It's my understanding 
over the last year, DOJ organized the Oil and Gas Price Fraud 
Working Group to determine the role speculators and potential 
price manipulation are having on the price of gasoline.
    What have you found? What are your next steps? What can we 
expect?
    Attorney General Holder. That working group continues to be 
in effect. In fact, they're having a call today to discuss the 
situation in which we find ourselves with regard to these 
rising gas prices. That working group, itself, will be meeting 
before the end of this week. The work of that group has been 
ongoing and looking to see if there are inappropriate 
manipulations of the market.
    The Federal Trade Commission (FTC) is also working in this 
area. I don't want to speak for them, but I understand they're 
working on a report of some sort that we should be seeing 
relatively soon. That is, again, the FTC working independently 
of us. But within the Department, that Oil and Gas Price Fraud 
Working Group has been active, and as I said, has a call today 
and a meeting that will happen, I think, by tomorrow.
    Senator Brown. Okay. I would like to request that after the 
phone call, and after the meeting today or tomorrow, that task 
force brief me and other members of the subcommittee who have 
expressed interest.
    Attorney General Holder. All right. To the extent we can, 
we will certainly do that.
    Senator Brown. Thank you.
    Senator Mikulski. All right. Mr. Attorney General, we 
really would like to see that. This is very, very, very 
important.
    We would now like to turn to Senator Murkowski.

                  STATEMENT OF SENATOR LISA MURKOWSKI

    Senator Murkowski. Thank you, Madam Chairman, and Mr. 
Attorney General. Welcome this morning.

                              STEVENS CASE

    I want to follow onto Senator Hutchison's questions 
regarding the prosecution of Senator Ted Stevens. I think so 
many of us were absolutely shocked. I was horrified, as a 
friend, and as an Alaskan, to read Judge Sullivan's comments 
that this ill-gotten verdict not only resulted in the loss of 
Senator Stevens losing his seat, but in his words, tipped the 
balance of power in the U.S. Senate. Pretty powerful, in terms 
of what DOJ did to a great man.
    I appreciate, and I recognize, and I thank you for your 
actions in dismissing that case, and in your decision to not 
attempt to retry, and I join Senator Hutchison with that. But, 
there are questions that still remain. You know that. I have a 
long series of them, and what I would like to do is submit them 
to you today, and ask that you respond to them prior to the 
release of the report, which is due to come out next Wednesday, 
the 15th of March. So, I would appreciate your attention to 
that.

            ATTORNEY'S FEES FOR PROSECUTORS IN STEVENS CASE

    I have a question regarding what is happening now with the 
release of this report. The USA Today reported that DOJ has 
spent $1.8 million in defending prosecutors from allegations 
that they broke the law in the Stevens prosecution. And Senator 
Grassley was one who mentioned that it seems like this is an 
unseemingly high amount of money being spent by the taxpayers 
to defend what appears to be egregious misconduct. And, again, 
Senator Hutchison has noted the words that Judge Sullivan used 
in his order, saying that the report demonstrated significant 
widespread, and at times, intentional misconduct by the 
prosecutors.
    Now, I understand that the $1.8 million went for attorney's 
fees to defend the actions of the Justice Department 
prosecutors who were under investigation for contempt by the 
counsel appointed by Judge Sullivan. The report of that 
counsel, again, is due to be released on the 15th. In addition 
to spending taxpayer money to defend your attorneys, did the 
taxpayers also pay for the attorneys to argue that the contents 
of this report should not be publicly released? You have stated 
that this is a matter that has risen to a level of public 
attention. So, if you can answer that question for me, and also 
whether the Justice Department supports the merits of the 
appeal that has been raised by Mr. Edward Sullivan, who is one 
of the prosecutors who has asked the U.S. Court of Appeals for 
an emergency stay to prevent the release of this report next 
week.
    So, the question is whether you support the merits of that 
appeal, and, again, whether or not the taxpayers are on the 
hook to pay for his attorneys to argue that this report should 
be kept from the public.
    Attorney General Holder. I don't think we take any position 
with regard to what he has said about his desire to keep the 
report sealed. The Justice Department has indicated that we do 
not object to the release of the report. I think that given the 
issues that we found there, the magnitude of the case, and, 
frankly, the magnitude of the errors that led me to decide to 
dismiss the case, that there is a legitimate public interest in 
knowing as much as we can about what happened, why it happened, 
what steps the Justice Department has taken in connection with 
these findings of misconduct.
    Senator Murkowski. So is the Justice Department paying for 
his attorneys' fees in this matter, to keep this from being 
made public?
    Attorney General Holder. I don't know about him, 
specifically, but I do know that as a result of the charges 
that were brought against them, the determination was made that 
there would be a conflict of interest for the Justice 
Department to defend them, which would be typically how we 
would do it, and they were, therefore, allowed to get outside 
counsel. Under the regulations, the Justice Department then 
pays for those legal representations, which has happened in a 
variety of cases, a variety of circumstances, former attorneys 
general and lawyers who have been reimbursed by the Government. 
I'm hoping I won't have to do that, but other attorneys general 
have done that.
    Senator Murkowski. So, even now that the independent 
counsel that Judge Sullivan had appointed, even though that 
counsel has found that members of the Stevens prosecution had 
engaged in significant, widespread and, at times, intentional, 
and again, intentional misconduct, does the Government have any 
recourse to recover the funds that have been paid for their 
attorneys' fees, when they have engaged in intentional 
misconduct?
    Now, you mentioned in your comments to Senator Hutchison 
that after the OPR report, that there may be sanctions that we 
will see, but is there recourse? Are you pursuing any recourse? 
It seems to me that in an instance like this, where it has been 
made clear that the conduct was intentional, that it was 
substantial, and it was widespread, that we should not be 
defending and paying for the attorneys' fees to again allow 
these individuals to conduct such acts, and then to learn that 
they're still within DOJ doesn't give me much confidence.
    Attorney General Holder. Certainly, one of the things that 
happens is that because the Justice Department can't represent 
these people, and they have their own views of what happened, 
they want to be able to explain, with counsel, defend 
themselves. That is why the expenditure of money actually 
occurred. That is why they are allowed to get outside counsel. 
As I said, that has happened, not frequently, but it certainly 
happened in the past, and we acted with regard to them as we 
have done in the past with regard to the retention of outside 
counsel.
    Senator Murkowski. I would think that $1.8 million to go to 
defend these attorneys, who have engaged in intentional 
misconduct, is just stunning to me. I'd like to think that 
there could be some recourse.
    Madam Chairman, I'm well over my time. I thank you for your 
indulgence.
    Senator Mikulski. It was important that you had the 
opportunity to completely pursue your line of questioning. The 
situation that has been presented by you and Senator Hutchison, 
reminding the subcommittee, is deeply troubling. We must have 
public integrity. We also must have an independent judiciary. 
We have to have, regardless of which party is in the White 
House, a Justice Department that we believe in, and that the 
American people believe in. So, I know the Attorney General 
will be responsive, and then we'll take it from there.
    Senator Murkowski. Madam Chairman, I just want to thank you 
for those comments, and agree wholeheartedly. And I do think 
the Attorney General took a major first step, when he dismissed 
the case. That was huge. But, now we must followup, so that 
there is no question that the people who did this, and the 
report will show whatever it shows, that they're not able to 
prosecute ever again. Ever.
    Senator Mikulski. Thank you.
    Senator Murkowski. Thank you.
    Senator Mikulski. Senator Pryor.

                    STATEMENT OF SENATOR MARK PRYOR

    Senator Pryor. Thank you, Madam Chair, and Attorney 
General, welcome to the subcommittee. Thank you for being here.

                          PRISON OVERCROWDING

    I want to add my voice to something that was said earlier 
about prison overcrowding. And I could go through the facts and 
figures on that, but you know those better than any of us do. 
It is just a real concern.
    One of the prisons that's on the short list is actually in 
Arkansas, and back in fiscal year 2010, it was scheduled to be 
funded in fiscal year 2014. Well, now, it keeps getting pushed 
back. Now, it's fiscal year 2018. So, it's an example of us not 
being able to fund some of the real needs that we have. I know 
I'm not alone in that. So, I want to voice my concern there.

                             SEQUESTRATION

    Let me ask about sequestration. I don't believe anyone's 
had a chance to ask about sequestration. And I'm curious about 
what the Justice Department perceives will happen to DOJ 
funding if sequestration does, in fact, take place, and what 
steps you're taking to address that.
    Attorney General Holder. I certainly hope that's something 
that we don't have to face. As I look at it, we'd be looking at 
an across-the-board cut of about 7.8 percent, which would mean 
a cut of about $2.1 billion. No Justice component would be 
exempt from those cuts. And from an operational perspective, we 
would have to cut personnel funding and nonpersonnel funding.
    We are estimating that we'd have to furlough all position 
types, including agents, Federal agents, FBI agents, DEA 
agents, ATF agents, and attorneys, who try cases, investigate 
cases, for an average of about 25 days. We would have to lose 
permanently a pretty substantial number of jobs. This across-
the-board cut would have a devastating impact on the Justice 
Department's ability to protect the American people, to do 
investigations. It would be something that would just simply be 
devastating. My hope would be that the Congress will find a way 
to avoid this sequestration, which, just from my own parochial 
interests, which I think actually are the Nation's as well, to 
really avoid the very negative consequences that could have a 
permanent impact on our well-being.
    Senator Pryor. And so, you've mentioned these furloughs, 
but I assume, also, you'd have to suspend the funding of many 
of your programs that help local and State law enforcement 
agencies.
    Attorney General Holder. That's an excellent point. The 
consequences are not restricted to simply what happens to the 
Justice Department here in Washington and in our field offices. 
Our ability to be good State and local partners would certainly 
be impacted by the reduced amounts of money that we'd be able 
to share with our State and local partners, in terms of grants, 
Cops on the Beat. It would be a devastating thing for this to 
happen.

                      THE JOHN R. JUSTICE PROGRAM

    Senator Pryor. And let me ask about personnel in a little 
different context. The John R. Justice Program has about 1,600 
prosecutors and about 1,200 public defenders in the last fiscal 
year that received assistance under that program, to help them 
pay off their student loans, et cetera. But, this budget, as I 
understand it, does not have funding for that program this 
year. So, my concern there would be that we want the best and 
the brightest out there trying cases on both sides. Again, this 
is public defenders and prosecutors. And in our criminal 
justice system, it's critical that we have good representation 
on both sides. And I'm afraid that we're going to lose a lot of 
talent if we don't have a program like this. Do you share that 
concern, and what steps you think we can take to keep the best 
and the brightest coming on board?
    Attorney General Holder. I do share that concern. We want 
the best and the brightest to come and take what are low-paying 
jobs on the prosecution side, on the defense side. These kids 
come out of law school with enormous amounts of debt. And I 
don't want them to make career choices based on how they're 
going to repay those loans, as opposed to following their 
passions, and taking their great skills to become members of 
the Justice Department, State and local prosecutors offices, or 
on the other side, to be good defense attorneys. And that is 
one of the things that I'm concerned about.
    We have a tough budget, and you're right, the money is not 
there, to the extent that it was in the past. To the extent 
that we can work on ways in which we come up with creative 
things to do to make sure that those career decisions, 
especially those first job career decisions, by people coming 
out of law school, are not a function of their financial 
concerns, but really is a function of how they want to help 
build a better society.
    Senator Pryor. Thank you.

                             CYBERSECURITY

    And Madam Chair, I don't really have time to ask another 
question, but I would like to just make an observation. The 
chair of the subcommittee here yesterday took a leadership role 
in a cybersecurity exercise in a classified setting, and we 
appreciate her leadership in getting all of us to go and 
participate. It was very informative, very interesting. And I 
know that DOJ has been very involved in what's going on with 
Federal Government cybersecurity issues, and all the task 
forces and everything you're working on. But, I also hope that 
you will not neglect the private sector, as well as the State 
and local governments, because they have a role to play in this 
as well.
    Attorney General Holder. That's exactly right. This is not 
something that the Federal Government can handle by itself. 
This is a national security issue, certainly, but it's also an 
infrastructure issue which involves our State and local 
partners. Then one looks at just the amount of theft that 
occurs, intellectual property theft, in particular, so that the 
private sector has to be involved as well.
    We have to come up with mechanisms, means by which all of 
those various components talk to one another, if we ultimately 
want to be successful in what I think is the most pressing 
thing that we're going to be facing in the coming years.
    Senator Pryor. Thank you. Thank you.
    Senator Mikulski. Thank you, Mr. Attorney General. I want 
to go back to the excellent question Senator Pryor raised about 
the impact of sequester. Could we have that answer in more 
detail, in writing, so that everybody would have a chance to 
study it, and go over it in programs and so we can really grasp 
the full consequences?
    Attorney General Holder. Yes.
    [The information follows:]

                        Impact of Sequestration

    The Department of Justice's (DOJ) supports the fiscal year 2013 
President's budget request, which would avoid a sequestration, if 
enacted as proposed. Therefore, I am not describing the impact of a 
potential sequester, which the administration is committed to avoiding. 
However, I can describe the impact of an across-the-board cut of 7.8 
percent, or more than $2.1 billion, to DOJ's budget authority. To 
implement this cut, DOJ would have to cut both personnel and 
operational funding. Personnel cuts would require DOJ to implement a 
hard hiring freeze, which would mean losing 4,800 positions, and 
furloughing all DOJ employees for 25 days. These personnel cuts, along 
with significant operational cuts, would mean reductions in the 
apprehension of violent fugitives, fewer Federal Bureau of 
Investigation (FBI) national security investigations, fewer affirmative 
litigation efforts, and more crowded prisons. For context, a 7.8-
percent cut would mean that the Bureau of Prisons would be cut by $510 
million, FBI by $730 million, the Drug Enforcement Administration by 
$175 million, the U.S. Marshals Service by $90 million, and the U.S. 
attorneys office by $150 million.

    Senator Mikulski. I'd now like to turn to Senator Graham.

                  STATEMENT OF SENATOR LINDSEY GRAHAM

    Senator Graham. Thank you, Madam Chairman. I'd like to add 
my voice to what you just echoed, and Senator Pryor, that 
sequestration, as it's set up, would devastate DOJ, our ability 
to defend ourselves, and destroy the military, and surely we 
can find a better way to do it than that. So, I think you're 
dead on. This is just an ill-conceived idea of cutting money 
blindly, in my view.
    Now, you were in South Carolina couple days ago, is that 
right, Mr. Attorney General?
    Attorney General Holder. It was yesterday.
    Senator Graham. Yesterday. Well, we're glad to have you. 
Hope you spent money while you were there.
    Mr. Holder. I did.

                        NATIONAL ADVOCACY CENTER

    Senator Graham. But, the National Advocacy Center (NAC), in 
Columbia, that you visited, what would you tell the 
subcommittee about the NAC, in terms of being a value to the 
Nation?
    Attorney General Holder. It is an invaluable resource for 
us.
    Senator Graham. Did you all hear that?
    Okay. I'm sorry. Go ahead.
    Attorney General Holder. No. I mean it is. It is an 
invaluable resource for the training that goes on in the 
Justice Department. It is one that I think could actually be 
expanded. I'm concerned that we're not interacting with our 
State and local partners to the extent that we once did in 
doing training with them. We're trying to bring into the NAC 
people from the defense side as well. It's where people learn 
to be good trial lawyers, learn a variety of skills, learn 
their ethical obligations. It's an invaluable resource.
    Senator Graham. Well, we appreciate your visit, and it will 
be a place where, you know, cybersecurity is probably the issue 
of the 21st century, and whether it's a crime, an act of war, 
it depends, I guess, who's involved, but a lot of local law 
enforcement folks probably have no idea how to handle this, and 
it would be a good way to kind of educate the country as a 
whole. And the collaboration between the University of South 
Carolina and the NAC, I appreciate.
    And I want the subcommittee to know that we took about 200 
or 300 DOJ jobs out of Washington, because after 9/11, we were 
worried about having every part of our Government in one city. 
And we moved those folks down to South Carolina, in Columbia, 
and you leased a building from the university. It saved about 
$35 million. So, I just want to applaud you for trying to be 
creative to decentralize DOJ, so that in case we're ever 
attacked here, we don't lose all of our national assets, and it 
was a way to save money.
    Attorney General Holder. And we also have that relationship 
with the university about the rule-of-law component as well. 
And I think that's been a good synergy.
    Senator Graham. To my colleagues, and I've been to 
Afghanistan and Iraq, like many of you, and we're trying to 
develop a rule-of-law program in Iraq, Afghanistan, Africa--you 
name it. Without some basic rule of law, no country can 
develop. And all the lessons we've learned the hard way, from 
making mistakes, but finally getting it right in many ways, 
we're trying to create a center at the University of South 
Carolina, where those who have been overseas can share their 
thoughts about what worked, what didn't. You could train before 
you went. DOJ, Department of Agriculture, and the Department of 
Defense, this is a team.
    This war requires a team concept. And we're trying to reach 
out to the Islamic world and create partnerships with lawyers, 
and attorneys general, and judges in the Islamic world, so we 
can understand them better, and they can understand us. And I'm 
excited about it, and I appreciate your support.

                  REVAMPING THE FEDERAL CRIMINAL CODE

    Now, Justice Scalia came out yesterday, or the day before, 
talking about, he thought it would be wise if we looked at our 
Federal criminal code, particularly in the drug area, to see if 
we could reform it. And I think he's right. I think we've 
Federalized way too many crimes, creating work for our 
judiciary that could probably be handled better at the State 
level. What do you think about the idea of revamping the 
Federal criminal code, and looking at maybe undoing some of the 
over-Federalization?
    Attorney General Holder. When I came into office, I set in 
place a number of working groups to look at that issue. Are we 
bringing the right people into the Federal system? Are the 
sentences that we have for the crimes that are Federal ones 
appropriate?
    Senator Graham. Like crack cocaine. We finally fixed that, 
but that was just sort of an indefensible sentencing disparity.
    Attorney General Holder. Right. I think the bipartisan 
effort that resulted in the lowering of that ratio from 100 to 
about 16 to 1 was something that was long overdue, and was a 
great example. People don't focus on it, but it was an example 
of Republicans and Democrats getting together and doing the 
right thing, not only for the system, but it was something that 
I think was morally right as well.

                          RECESS APPOINTMENTS

    Senator Graham. And an area where we may disagree, we'll 
talk about the law of war later, we don't have time here, but 
the recess appointments made by President Obama a while back to 
the National Labor Relations Board, is there a situation 
similar to that in the history of the Senate, or by a previous 
President, of appointing someone to a Federal agency under 
those circumstances, that you're aware of?
    Attorney General Holder. If you look at the 23-page report 
by the Office of Legal Counsel (OLC), they go through a variety 
of precedents. They look at the laws that exist, tradition, and 
the conclusion that they reached was that given the length of 
the recess, 20 days, or so, that the appointments were, in 
fact, appropriate. This is obviously something that the courts 
are going to ultimately decide, but I think that the OLC 
opinion was accurately described.
    Senator Graham. I think Senator Alexander will have a 
discussion with you about that, but I take a different view. 
But, I'll let him discuss that with you.

                          MILITARY COMMISSIONS

    And finally, just to note, I think, maybe it was last week, 
we had a plea bargain with a military commission detainee who 
was one of the Khalid Sheikh Mohammed close confidantes. And I 
know Mark Martins is the chief prosecutor, and you've got a 
good defense team down there. I do support Article III courts 
for terrorism trials, when appropriate. But, I just want to 
acknowledge your support for military commissions in 
appropriate circumstances, and with your help, I think we've 
got these things up and running, and I look forward to more 
action coming out of Guantanamo Bay to get some of these people 
through the legal system. So, thank you for that support. And 
to all those at Guantanamo Bay doing your job, you're doing the 
country a great service, particularly the defense counsels.
    Attorney General Holder. I think that's right. I think that 
people should understand that the revised commissions that 
exist, as I said in my speech at Northwestern, have many of the 
elements of due process that we consider vital to the American 
system. I think we have great defense lawyers down there.
    The military system doesn't get the credit that it deserves 
for the fair way in which it deals with people, and under the 
direction of Mark Martins, who's a person I've known for some 
time, I think we'll be proud of the work they do.
    Senator Mikulski. Thank you very much, Mr. Attorney 
General.
    We're now going to turn to Senator Feinstein. Before 
Senator Pryor leaves, I thank you and others for mentioning the 
cyber exercise yesterday, and all who participated. Next week, 
we're going to hear from the FBI, and we're going to do an open 
hearing, and then we're going to do a classified hearing. This 
will be an opportunity to ask many of your cyber questions and 
go into the level of detail I think the subcommittee would 
like. So, thank you.
    Senator Feinstein.

                 STATEMENT OF SENATOR DIANNE FEINSTEIN

    Senator Feinstein. Thanks very much, Madam Chairman, and 
welcome, General.
    I want to associate myself with the comments of Senator 
Murkowski and Senator Hutchison. To me, the tragedy is that 
Senator Ted Stevens died before he knew this was a faulty 
prosecution. And that, to me, elevates this to a new height. 
And so, I think this investigation is really important. And I 
think that actions have to be taken. And I just wanted to 
express that.

                            OIL SPECULATION

    I wanted to followup on Senator Brown's comment. It's my 
understanding that there's more oil available in the United 
States than demand calls for. And as a matter of fact, surplus 
is being sold outside. This, I think, would bring to special 
attention the issue of speculation. And I hope the study that 
you're doing is going to take a good look at the financial 
marketplace, with regard to its ability to impact price in this 
way.
    Attorney General Holder. The Oil and Gas Price Fraud 
Working Group that we formed last year as part of the 
President's Financial Fraud Enforcement Taskforce has been 
meeting. It just happens that they are having a call today, and 
a meeting, I think either tomorrow or on Monday. The full 
committee will be getting together to look at the issues that 
you've raised and the issues that Senator Pryor raised.
    Senator Feinstein. Good. Thank you.

                 FOREIGN INTELLIGENCE SURVEILLANCE ACT

    As you know, title 7 of the Foreign Intelligence 
Surveillance Act (FISA) expires at the end of the year. This 
allows for electronic surveillance of targets outside the 
United States. Senator Mikulski and I both serve on the Senate 
Intelligence Committee, and we've done extensive oversight of 
the Government's use of these surveillance authorities, and 
look forward to working with you to make sure Congress can 
reauthorize title 7 well before the end of 2012. We need to 
maintain the collection of critical foreign intelligence and 
provide certainty to intelligence professionals in that regard.
    For members of this subcommittee that don't follow this 
issue closely, could you explain the need to reauthorize title 
7 of FISA and the efforts taken to protect the civil liberties 
and privacy of Americans, as this title is carried out.
    Attorney General Holder. The surveillance authorities that 
are in the FISA Amendments Act are absolutely critical to our 
national security. On a day-to-day basis, I authorize FISAs, 
the head of the National Security Division does, sometimes the 
Deputy Attorney General. It is a critical tool that we have in 
keeping the American people safe. The administration strongly 
supports the reauthorization, and as you indicated, hopes that 
it occurs well before the end of the year, so that the 
certainty that is needed by the men and women who are in our 
intelligence community will have some degree of assuredness 
that those tools will remain there, and that our fight against 
those who would do harm to the United States can continue.

                           NATIONAL SECURITY

    Senator Feinstein. Thank you. I also want to thank you for 
your enormous help and the help of FBI with respect to national 
security. FBI now has thousands of agents and analysts located 
around the United States, essentially doing intelligence work. 
So, that transition has been effectively made.
    Director Mueller, at a worldwide threat hearing, indicated 
to us that in the past year there have been 20 arrests in the 
United States of people in this country planning or 
participating in attempted terrorist attacks. And as you 
mentioned in your recent testimony, Umar Farouk Abdulmutallab 
was recently sentenced to life in prison.
    Now, I also want to say that even though its specific 
activities are classified, in your written testimony, you 
mention the High-Value Detainee Interrogation Group, or the 
HIG, as we call it. I can say that we've seen the excellent 
intelligence the HIG is producing. And earlier this week, also, 
four principle members of hacking groups, Anonymous and 
LulzSec, were charged with computer hacking, and a fifth member 
pled guilty.

                       NATIONAL SECURITY FUNDING

    Now, to my question. It's two-fold. I think we have to 
begin to look for redundancy and duplication of effort. We now 
have a counterterrorism center. We now have Homeland Security 
with intelligence, and we also now have FBI. And so I hope you 
will take a look at that, because the dollars are precious, and 
we're already experiencing cuts in the intelligence budget.
    So, here's my question. What are, in the national security 
area, your budget reductions? What will that mean for 
counterterrorism, and are there any gaps in our efforts?
    Attorney General Holder. We have adequate amounts of money 
contained in the budget that we have requested. If you look at 
the amount of money that has gone to FBI in the national 
security sphere, since 2001 we've had about a 300-percent 
increase for the Justice Department. For FBI, it might have 
been about 400 percent. So, it's a very substantial increase 
over the course of the last 10 years or so. Even with the flat 
budget that we essentially have for the Justice Department and 
its components, including FBI, we have adequate amounts of 
money to keep the American people safe.
    I will tell you that to the extent that I feel that it is 
not the case, my voice will be heard. We have no greater 
responsibility than keeping the American people safe.
    Senator Feinstein. Good. Thank you very much. Thank you, 
Madam Chairman.
    Senator Mikulski. Senator Feinstein, we look forward to 
working with you on that part of it.
    Senator Alexander.

                  STATEMENT OF SENATOR LAMAR ALEXANDER

    Senator Alexander. Thanks, Madam Chairman, and General 
Holder, welcome. It's good to see you. I was thinking about a 
conversation we had during your confirmation about Griffin 
Bell, for whom you worked, and I know you admired him, and I 
certainly admired him. I was a law clerk on a court when he was 
judge. And one of the things he used to say and which I've 
heard you say, I think, too, is that the attorney general is 
the lawyer for the United States, not just the lawyer for the 
President.

                          RECESS APPOINTMENTS

    So, in following up with Senator Graham's comment on the 
so-called recess appointments, I wanted to ask you a question. 
As the lawyer for the United States, if the President calls you 
up and said, ``General Holder, I notice that the Senate's gone 
into recess for lunch. I've got a Supreme Court nominee I want 
to appoint. Can we put him on the court without their advice 
and consent?'' what would your answer be?
    Attorney General Holder. Going to lunch? That would not be 
a sufficient recess.
    Senator Alexander. Well, what if he said they're going to 
recess for lunch and for dinner, and they won't be back until 
tomorrow? Would that be a sufficient recess?
    Attorney General Holder. What we're getting at, if you look 
at that OLC opinion, they would----
    Senator Alexander. I'm asking your opinion, Mr. Attorney 
General.
    Attorney General Holder. Well, I associate myself with that 
OLC opinion.
    Senator Alexander. Does that mean you agree with it?
    Attorney General Holder. With the OLC opinion?
    Senator Alexander. Yes.
    Attorney General Holder. Yes.
    Senator Alexander. You do agree with it.
    Attorney General Holder. Yes.
    Senator Alexander. Then that means that the President, not 
the Senate, can decide when it's in session for purposes of 
advice and consent.
    Attorney General Holder. Well, one has to look at the 
reality, the totality of the circumstances, in determining 
whether or not the Senate is actually in session, as that term 
has historically been used, and the determination made by OLC 
was that given the----
    Senator Alexander. Well, if we look at that, Mr. President, 
was your deputy solicitor wrong when he told the Supreme Court 
in a letter 2 years ago that the Senate may act to foreclose 
recess appointments by declining to recess for more than 2 or 3 
days at a time? And was Senator Reid wrong in 2007 when he 
really devised the plan for pro forma 3-day sessions, because 
he said he heard that President Bush was about to make recess 
appointments. And Senator Reid said on November 16, 2007, 
``With the Thanksgiving break looming, the administration has 
informed me they want to make several recess appointments. As a 
result, I'm keeping the Senate in pro forma to prevent recess 
appointments until we get back on track.'' And the next year he 
said, ``We don't need to vote on recess. We'll just be in pro 
forma session. We'll tell the House to do the same thing.'' 
President Bush didn't like it, but he respected it.
    So, are you saying that the President, not the Senate, can 
decide when it's in session for purposes of a recess 
appointment?
    Attorney General Holder. What we have to do and what we 
have done in this OLC opinion is look at history, look at 
precedent, look at the law, use some common sense when it comes 
to the approach of whether or not the Senate is actually in 
session.
    Senator Alexander. Well, was Senator Reid wrong?
    Attorney General Holder. The determination that we made 
here was that with regard to that 20 days in which those pro 
forma sessions were occurring, that those were, in fact----
    Senator Alexander. But the Senate had decided it was in a 
3-day session, according to the Reid formula. So, was Reid 
wrong about that?
    Attorney General Holder. I'd have to look at exactly what 
occurred during that 3-day period, but given the facts that 
were presented to OLC in this instance, I think the 
determination that they made was correct.
    Senator Alexander. So, I don't see why the President 
couldn't look at the Senate and say, ``I'm going to send up a 
Supreme Court justice, and I'm going to skip advice and 
consent.'' I'm astonished by this, really. And I would think 
Democratic as well as Republican Senators would honor the Reid 
formula that President Bush honored. The Senate did the very 
same thing in January, and the President, nevertheless, made 
four appointments during the time when constitutionally he 
shouldn't have, according to all the precedent that I've seen.
    Attorney General Holder. The only thing I'd correct is that 
the determination was not made by the President. The 
determination was made by OLC, we then shared that opinion with 
the President, and the President made the decision as to what 
he wanted to do.
    Senator Alexander. He made the decision not to respect the 
Senate's decision about when it's in session or when it's not, 
which, to me, is a blatant lack of regard for the 
constitutional checks and balances, and something that we ought 
to avoid.

                          METHAMPHETAMINE LABS

    May I ask quickly a question? Last year, the Department 
found money to support the work against methamphetamine, and I 
compliment the Department for that. I know it's getting 
increasingly harder. In our State, we had the highest number of 
meth lab seizures in the Nation. The money's running down. The 
State's increasing its funding. Will the Department again be 
able to try to help States that are working on this, as you 
were able to do last year?
    Attorney General Holder. We are certainly going to try to, 
as best we can. I know one of the things that we have seen with 
regard to the cleanup of meth sites is that there have been a 
number of these container activities. I think this is right, 
that Tennessee is actually a leader in that effort.
    Senator Alexander. Yes.
    Attorney General Holder. There have been a number of States 
that have come up with things, and instead of it costing, I 
don't know, $3,000, $4,000, $5,000 to do that, it actually 
comes down to $200 or $300. The experience that we have seen 
there is something that we have to extrapolate and use in other 
parts of the country as well.
    Senator Alexander. Thank you, General Holder. Thank you, 
Madam Chairman.
    Senator Mikulski. Senator Lautenberg.
    Senator Lautenberg. No. I think----
    Senator Mikulski. Oh. I'm sorry. Wait. Wait. It's a little 
rock-and-roll in here today. First of all, Senator Leahy, the 
chair of the Judiciary Committee, excuse me, and then Senator 
Lautenberg.

                 STATEMENT OF SENATOR PATRICK J. LEAHY

    Senator Leahy. Thank you, Madam Chair.

                           RECESS APPOINTMENT

    Attorney General Holder, good to have you here. If I could 
just follow-up a little bit on what my good friend from 
Tennessee, Senator Alexander, said on the recess appointments. 
There is an easy way out of all of this. It requires a little 
cooperation on both sides. And I suggested this in the 
Judiciary Committee, that the President resubmit the 
nominations, and the Republicans agree to have an up or down 
vote, say, within 1 week or 2 weeks. The President did this, 
because even though everyone knew there were more than 50 
votes, which is normally what it takes to confirm somebody, 
available, my friends on the other side of the aisle were 
blocking having a vote.
    I understand the President's frustration, but I think the 
easy way out of this is simply if the Republican leadership 
would agree to an up or down vote, say, within 1 week or 2 
weeks, whatever amount of time needed for it to be, and 
resubmit them and have the up or down vote. That takes care of 
all the problem. I just would suggest that as an easy way out. 
It's not as much fun on the talk shows, but it helps the 
Government.

                       GRANT PROGRAM DUPLICATION

    Mr. Attorney General, your Department administers many 
crucial grant programs that help victims and law enforcement, 
including ones that I've been very heavily involved with, the 
Violence Against Women Act programs. And as you know, Senator 
Crapo and I have a reauthorization bill on the COPS grants and 
the bulletproof vest partnership program. GAO has said there's 
duplications and inefficiencies in some of the grant programs.
    Will your Department work to make sure if there are any 
duplications that they be removed? Because these are good 
programs, but there's only so much money to go around.
    Attorney General Holder. That's exactly the problem that we 
have. There's limited amounts of money to go around, and we 
have to make sure that there's not duplication. Managers from 
OJP, from COPS, OVW regularly meet to coordinate their 
programs, their activities. I think that one thing that people 
should not assume is that because, for example, you see the 
word ``victim'' in a number of the things that we do in the 
Department, that necessarily means that we're duplicating 
efforts there. They have very distinct responsibilities. We are 
working to make sure that the money that we have is being used 
in an efficient and appropriate way.

                           BULLETPROOF VESTS

    Senator Leahy. One of the things I'm very proud of for my 
time here in the Senate is a bill that I wrote with then-
Senator Ben Nighthorse Campbell on bulletproof vests, so much 
so, that I walked down the street in Denver, Colorado, 1 year 
or so ago, a police officer came up, asked if I am who I am. 
And I said, ``Yes, I am Senator Leahy.'' He just tapped his 
chest and said, ``Thank you.''
    But, we've been told by GAO that there's some funds that 
have not been obligated on the bulletproof vest partnership 
grant program. Law enforcement--especially in the smaller 
communities, where they do not have the budget to buy the 
bulletproof vests, which are $500, $600--need these funds. Can 
you check to make sure these funds are obligated as quickly as 
possible?
    Attorney General Holder. Yes. To the extent that funds were 
not drawn down, we are taking steps to allow jurisdictions to 
use that unused funding, and have the time period with which 
they could drawdown extended, so that we can get these 
bulletproof vests out to these officers.
    Senator Leahy. And I would reiterate what I had told you 
when we chatted earlier this week, when I was in Vermont, about 
your speech earlier this week in guiding drones and targeting 
of U.S. citizens, I still want to see the OLC memorandum, and I 
would urge you to keep working on that. I realize it's a matter 
of some debate within the administration.
    Attorney General Holder. That would be true.
    Senator Leahy. And please keep my staff and me updated on 
the progress of the review of the NYPD surveillance of Muslim 
Americans.
    Attorney General Holder. We will.

                     SAME-SEX IMMIGRATION PETITIONS

    Senator Leahy. And last, I wrote to you and the Secretary 
of Homeland Security, Janet Napolitano, to encourage you to 
hold marriage-based immigration petitions for same-sex spouses 
in abeyance, in light of the administration's decision to no 
longer defend the constitutionality of the Defense of Marriage 
Act. I heard it may be granting individual cases. I hope you 
will reconsider the administration's position.
    We have a case I've written to you about, Frances Herbert 
and Takako Uedo, who are married in Vermont lawfully. We have a 
number of States where same sex marriages are legal, but then 
they run up against the immigration problem. So, please review 
that.
    Attorney General Holder. Okay. I will look at that case, 
and we'll get back to you, Senator.
    Senator Leahy. Thank you. Thank you, Madam Chair.
    Senator Mikulski. Those were excellent points, Senator 
Leahy, and thank you very much.
    Senator Lautenberg.

                STATEMENT OF SENATOR FRANK R. LAUTENBERG

    Senator Lautenberg. Thanks very much, Madam Chairman, and 
welcome, Attorney General Holder. The job doesn't seem to be 
getting easier, and I'm not blaming you. I'm just sympathizing 
in some ways.
    Attorney General Holder. It's a good observation.

                             VIOLENT CRIME

    Senator Lautenberg. Not so much that I won't ask for more, 
because we're doing with less, and we see it in my State of New 
Jersey, 246 gun murders in 2010; 12 percent more than the 
previous year. We've had layoffs galore from cities that can't 
afford to maintain their police force structure. So, when I 
look at the things that we're doing, I worry about what it is 
that we can do from your Department and from others. What can 
we do to help these communities? State budget cuts have caused 
Newark, Camden, and other cities in New Jersey to cut their 
police forces at alarming rates; one-third of the police force 
in Camden, more than 100 terminations of police officers in 
Newark.
    In December, I wrote asking if you could provide Federal 
resources to assist our ailing cities, and I am pleased, Mr. 
Attorney General, to see an increase in the budget for COPS 
grants. Is DOJ planning other steps that we can use to help 
protect New Jerseyans from violent crime?
    Attorney General Holder. We're certainly making sure that 
in terms of COPS grants we do the best that we can there. We 
have a substantial amount of money in the budget. I spoke to 
the mayor of Camden. I was at a reception and I saw her. We 
have certainly, with regard to Camden, in 2011 made available 
monies to hire 14 officers, $3.79 million; 2010, 19 officers, 
$4.2 million. We'll be looking at that kind of unique situation 
again this year. We certainly are putting into New Jersey, and 
in other places, task forces, so that the DEA, the ATF, the FBI 
are helping to the extent that we can, as well.
    There are a variety of ways in which the Federal Government 
can help, given the economic situation that many cities around 
the country are facing. We want to be good partners in that 
way. Camden is a place that deserves special attention, given 
the unique problem that we see there.
    Senator Lautenberg. Can I ask your view on whether or not 
you think we're doing enough between your Department, the FBI, 
our State and local police people? Are we doing enough, based 
on what we see with the statistics? Do you think that we're 
doing enough to say honestly that we're protecting our people 
appropriately?
    Attorney General Holder. We have crime rates that are at 
historic lows, 40- and 50-year lows, and yet, I'm still 
troubled by the number of police officers, for instance, who 
have been killed in the line of duty in the last 2 years, where 
we've seen a 16-, 20-percent increase there. That is something 
that we have to work on.
    I'm concerned about the fact that although the numbers of 
murders are down, 67 percent of them occur by people who are 
using firearms. That's an issue that we have to deal with. Too 
many of the wrong people have access to guns, and they use them 
in inappropriate ways. The targets of many of those people are 
law enforcement officers, who are sworn to protect us, and we 
have to do everything that we can to try to protect them.

                        HIGH-CAPACITY AMMUNITION

    Senator Lautenberg. Well, the wrong people or wrong laws? 
The man who shot Congresswoman Giffords last year used a gun 
with a high-capacity ammunition clip to kill 6 people, wound 
13. It was only when he fired all 31 rounds in his clip that 
people were able to subdue him. And these high-capacity 
magazines were banned by the Congress until 2004. Last year, 
you said that you thought that reinstating this ban should be 
examined. What's the result of that examination?
    Attorney General Holder. We're still in the process of 
working our way through that. I think there are measures that 
we need to take. We need to be reasonable, understanding that 
there is a second amendment right with regard to firearms, but 
even the dissent in the Heller case indicated that reasonable 
restrictions can be placed on the use of weapons. What this 
administration has tried to do is to come up with ways in which 
we are respecters of the second amendment, and yet come up with 
reasonable, appropriate firearms laws that will ultimately 
protect the American people.
    Senator Lautenberg. Madam Chairman, your indulgence for one 
more question, please.

                           NYPD SURVEILLANCE

    Over the past several years, the NYPD has been engaged in 
surveillance of New Jersey's communities and universities 
searching for those who might be accused of terror; Governor 
Christie and Newark Mayor Cory Booker both were apparently 
unaware of this large-scale investigation. How can the law 
enforcement agencies spy on another State's residents without 
notifying the authorities, the Governor, the mayor even knowing 
about it?
    Attorney General Holder. I don't know. We are in the 
process of reviewing the letters that have come in expressing 
concerns about those matters. There are various components 
within the Justice Department that are actively looking at 
these matters. I talked to Governor Christie. Actually, I saw 
him at a reception a couple days or so ago, and he expressed to 
me the concerns that he had. He has now publicly expressed his 
concerns, as only he can. I think, at least what I've read 
publicly, again, just what I've read in the newspapers, is 
disturbing, and these are things that are under review at the 
Justice Department.
    Senator Lautenberg. Thank you, General Holder. Thank you, 
Madam Chairman. I assume the record will be kept open.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Mikulski. The record will be kept open for 
questions, and we then ask the Department to respond within 30 
days. Senators may submit additional questions. We ask the 
Department to respond within 30 days.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

           Questions Submitted by Senator Barbara A. Mikulski

    Question. The Department's request for State and local grants is $2 
billion. This is down from roughly $3.7 billion funded for grants in 
fiscal year 2010.
    What is the total amount of money applied for in these competitive 
grant programs versus the amount actually awarded to States and 
localities?
    Answer. In fiscal year 2011, Office of Justice Programs (OJP) 
received a total request of more than $7.1 billion in discretionary 
applications; OJP awarded more than $850 million in discretionary 
funding.
    In fiscal year 2011, the Office on Violence Against Women (OVW) OVW 
had applications totaling $1,150,510,742; OVW awarded $457,900,491 in 
grants. OVW's yearly budget requests seek funding to support four core 
priorities of OVW:
  --preventing violence against women;
  --addressing sexual assault;
  --extending our programming to underserved communities; and
  --restoring and protecting economic security to victims of violence.
    For fiscal year 2012, $412,500,000 was appropriated to OVW to 
further the Department's efforts to improve the Nation's response to 
domestic violence, dating violence, sexual assault, and stalking. The 
fiscal year 2013 overall request for the OVW totals $412,500,000, 
making the fiscal year 2013 total resource request for OVW equal to the 
fiscal year 2012 enacted appropriation.
    In fiscal year 2011, the Office of Community Oriented Policing 
Services (COPS) received applications totaling $2,067,924,397. COPS 
awarded more than $313 million in grants funding. The COPS office 
received $243,439,595 for the COPS Hiring Program in appropriated funds 
for fiscal year 2011 and awarded $243,398,709. All agencies were asked 
to cap their request at no more than 5 percent of their current actual 
sworn force strength, up to a maximum of 50 officers. However, in order 
to provide funding assistance to the largest number of eligible 
agencies, the COPS office decided to further reduce the cap from a 
maximum of 50 officers to 25 officers. Had this methodology not been 
adopted as part of the hiring program solicitation, the total amount 
that would have been requested would have been $5,354,837,329. For 
fiscal year 2012, $166,000,000 was appropriated for the COPS Hiring 
Program. The COPS office will make 2012 hiring awards later this 
summer. The fiscal year 2013 budget request includes $257,087,000 for 
the COPS Hiring Program.

                   DUPLICATION IN GOVERNMENT PROGRAMS

    Question. The Government Accountability Office (GAO) recently 
released an updated version of its 2011 report on duplicative 
Government programs, ``Opportunities to Reduce Potential Duplication in 
Government Programs, Save Tax Dollars, and Enhance Revenue'', as well 
as a new 2012 version of the report. In 2011 and 2012, GAO counted 
Department of Justice (DOJ) programs among those that are potentially 
duplicative.
    Has the Attorney General conducted an assessment to better 
understand which State and local grant programs overlap with one 
another to prevent unnecessary duplication, as the GAO report 
recommended?
    Answer. Improving the effectiveness and efficiency of Federal 
programs is a critical priority of the administration and the 
Department. The Department is committed to continuing efforts to 
prevent unnecessary duplication, identifying overlaps in programs, and 
streamlining where it would ensure more effective grant assistance. The 
Department will initiate an assessment to better understand the extent 
to which Department grant programs may overlap and identify ways to 
mitigate the risks for unnecessary duplication. This assessment will be 
conducted by OJP's Office of Audit, Assessment, and Management.
    Question. Has Department staff reviewed the report and conducted 
the analysis of grants recommended by GAO?
    Answer. The Department appreciates the work of GAO and has 
carefully considered the findings and recommendations presented in 
GAO's report. The Department agrees that preventing unnecessary 
duplication in Government programs is a critical priority. The 
Department's grant agencies have significantly improved collaboration 
and information-sharing to mitigate the risk of duplicative Federal 
spending. The DOJ grantmaking agencies closely collaborate on the 
development and implementation of grant programs and share information 
with each other to improve coordination prior to making awards. The 
Department components will continue to coordinate with one another to 
ensure sound stewardship and management of its grants.
    Question. What independent steps have the Justice Department 
taken--prior to the release of the GAO report--to identify potentially 
duplicative grant programs?
    Answer. DOJ grantmaking agencies closely collaborate on the 
development and implementation of grant programs to avoid the types of 
potential problems cited by GAO. Managers from OJP and its bureaus, 
COPS, and OVW meet regularly to coordinate their programs and 
objectives, and they pay particular attention to those areas where they 
have complementary joint programs. Additionally, the executive branch 
annual budget process provides a multi-level review of all component 
budgets and requires programs to be modified or deleted if overlap or 
duplication is identified. It is important to note, however, that 
overlapping activities do not necessarily signify duplication. For 
example, the following selected examples demonstrate the Department's 
commitment to work collaboratively among its own components as well as 
Federal Governmentwide to improve performance and effectively target 
the public safety needs of our communities.
  --In January 2011, the first meeting of the Federal Interagency 
        Reentry Council convened. The council addressed short-term and 
        long-term goals on prisoner re-entry through enhanced 
        communication, coordination, and collaboration across Federal 
        agencies.
    --OJP is leading a parallel staff level effort, which includes 35 
            people from 17 different Federal agencies including the 
            Departments of Health and Human Services (HHS), Housing and 
            Urban Development (HUD), Labor (DOL), Education (ED), 
            Veterans Affairs, Agriculture, and the Social Security 
            Administration, and others.
  --OJP is also spearheading the National Forum on Youth Violence 
        Prevention, which is an effort launched, at the direction of 
        the White House, by DOJ and ED, to directly and locally address 
        the needs of communities that continue to experience high 
        levels of youth violence. Using comprehensive technical 
        assistance, the Forum enables Federal agencies to serve as a 
        catalyst for broad-based positive change at the local level in 
        a very efficient, cost-effective manner.
  --For the first time, all of DOJ's components and leaders are working 
        together to provide the most efficient and timely information 
        to tribal communities. As cited in the GAO report, beginning in 
        fiscal year 2010, the Department created the Coordinated Tribal 
        Assistance Solicitation (CTAS), which coordinates the 
        applications of most of the Department's tribal government-
        specific criminal justice assistance programs administered by 
        OJP, OVW, and COPS under one solicitation. Through CTAS, tribes 
        can apply for funding for many of their criminal justice needs 
        with one application.
  --The Tribal Law and Order Act enacted in July 2010, contained 
        amendments to multiple laws with an impact across DOJ 
        activities in Indian country, including a number of OJP 
        programs. The CTAS collaborative experience readied us for 
        statutorily mandated coordination required for law enforcement, 
        training, increased grants authority, and crime data analysis 
        and reporting.
    --We are partnering with other Federal agencies to conduct 
            inventories of Federal resources, develop interagency 
            memorandums of agreement, and long-term comprehensive plans 
            to improve our performance, eliminate duplication, and 
            identify gaps to better serve tribal governments and their 
            communities, in consultation with tribes.
  --DOJ is an active participant in the Senior Policy Operating Group 
        (SPOG), which coordinates Federal strategies and programs to 
        combat human trafficking. National Institute of Justice and the 
        State Department co-chair the SPOG Committee on Data and 
        Research.
  --The Attorney General's Defending Childhood Initiative is being 
        coordinated across OJP, COPS, OVW, the U.S. Attorneys offices, 
        as well as other components within the Department and the 
        Federal Government.
  --The Neighborhood Revitalization Initiative, which is a White House-
        led interagency collaboration, is executing place-based 
        strategies to engage and support local communities in 
        developing and obtaining the tools they need to revitalize 
        their own neighborhoods of concentrated poverty.
    --The Federal Government already directs significant resources to 
            these neighborhoods, but we can always look for additional 
            ways to continue to support them. Better alignment of 
            Federal programs will help local leaders to use Federal 
            funds more effectively, making our taxpayer dollars go 
            further.
  --Through our Byrne Criminal Justice Innovation program, OJP and the 
        Department will strengthen partnerships with HUD, ED, HHS and 
        the Treasury in distressed neighborhoods to implement effective 
        strategies to address persistently high violent crime, gang 
        activity, and illegal drugs.
  --The COPS office is heavily invested in the White House initiative, 
        Strong Cities Strong Communities, where it provides technical 
        assistance to the Chester, Pennsylvania police department on 
        issues such as crime analysis, faith-based partners, and 
        community-based government problem-solving.
  --To further advance national discussion regarding these important 
        topics, the COPS office and OJP's Bureau of Justice Assistance 
        have convened an Officer Safety and Wellness Group that brings 
        together law enforcement leaders, criminal justice 
        practitioners, Federal agencies, professional organizations, 
        and academics to share perspectives on improving officer safety 
        and wellness.
    Additionally, the Department is working as a whole to coordinate 
and improve our grants management efforts. The Associate Attorney 
General's Office leads the DOJ-wide Grants Management Challenges 
Workgroup. The Workgroup is comprised of grants officials from COPS, 
OJP, and OVW, to share information and develop consistent practices and 
procedures in a wide variety of grant administration and management 
areas. In fiscal year 2011, the working group successfully implemented 
the DOJ-wide high-risk grantee designation program and a DOJ-wide, 
online financial training tool for DOJ grantees.
    Question. Have you met with any roadblocks in the Department's 
attempts to eliminate or consolidate potentially duplicative programs?
    Answer. The Department is committed to continuing efforts to 
consolidate grant programs as appropriate and use ``evidence-based'' 
approaches to identify programs that work, as well as those that do 
not. An example of this effort is the fiscal year 2013 President's 
budget proposal for the consolidation and expansion of funding for Drug 
Courts and the Mentally Ill Offender Act Program. A similar proposal 
also was included in the fiscal year 2012 President's budget, but not 
adopted.
    In fiscal year 2012, the Congress supported the Department's budget 
proposal to merge several youth-oriented programs under OVW into one 
single program.
    We are working smarter by promoting evidence-based approaches and 
developing and spreading knowledge about what works and what causes 
crime and delinquency because of limited resources. Evidence-based 
knowledge is critical to help policy-makers at the Federal, State, and 
local levels know what to fund, what not to fund. For example, OJP has 
developed tools such as CrimeSolutions.gov and the Diagnostic Center, 
which help jurisdictions focus on evidence-based ``smart on crime'' 
approaches to maximize resources and improve public safety results.
    Question. Does the Department think that the programs listed in the 
report are duplicative? Why or why not? What grant programs do the 
Department view as duplicative?
    Answer. In its comments to the GAO on the report, the Department 
expressed significant concerns with GAO's methodology and identified 
flaws in its analysis. This flawed methodology resulted in a 
substantial overstatement of the number of programs that might 
potentially be operating in the same policy area. GAO categorized 253 
solicitations into broad justice areas to identify ``evidence of 
overlap'' in justice areas. This approach is oversimplified and 
imprecise, resulting in a large number of solicitations in each broad 
category. Narrowing the justice areas would have provided for a more 
informative analysis of where DOJ funding is being applied. For 
example, the ``technology and forensics'' category is extraordinarily 
and unnecessarily expansive. Refining this justice area--such as 
information sharing standards development, criminal intelligence 
sharing, DNA backlog reduction, equipment and materials testing--would 
have been more informative, accurate, and less misleading.
    Additionally, the GAO report identified 56 solicitations providing 
victim assistance, citing these as overlapping. While some might look 
at DOJ and see overlapping programs related to crime victims, what we 
actually have are programs directed at providing direct assistance and 
counseling to victims and their families; programs directed at training 
community law enforcement entities to better address the needs of 
victims; academic and forensic programs directed at research on victim 
issues; and statistical collections providing national data on the 
incidence of victimization and the consequences to crime victims.
    GAO did not identify actual duplication; rather it cited examples 
of potential duplication. DOJ examined the award information of these 
grants and found no instance of grantees receiving funding to carry out 
the same activities. Although GAO acknowledges DOJ's review, the 
examples remain in the report to support its ``findings.'' One example 
cited in the report as potential duplication involves the Office of 
Juvenile Justice and Delinquency Prevention and COPS grants to the 
Georgia Bureau of Investigation. DOJ determined that each of three 
grants is being used to target different issues:
  --child prostitution and potential sexual slavery issues in Georgia;
  --Internet crimes against children; and
  --identification of sex offenders.
    A second example reports that one applicant received funding under 
two awards from OVC and OVW to support child victim services through 
its child advocacy center. DOJ reviewed these grants, to the Tuilpe 
Tribes of Washington, and determined that the tribe sought multiple 
funding sources because one source did not adequately cover the costs 
to establish the center and then carry out its activities in subsequent 
years.
    Further, the Department was concerned with the lack of 
understanding that GAO showed related to the Department's 
``leveraging'' and sustainability funding strategy. GAO concluded that 
DOJ's granting agencies have awarded multiple grants to the same 
communities for the same or similar purposes. Although GAO 
acknowledges, ``there may be times when Justice's decision to fund 
grantees in this manner may be warranted'', the content and tone of the 
report wrongly infers that recipients receiving related grant funding 
from more than one agency is wasteful or unnecessary. Due to limited 
funding, DOJ encourages grantees to use multiple funding streams in a 
complementary manner to support local needs and implement comprehensive 
programs. DOJ and other agencies encourage this as a ``leveraging'' and 
sustainability strategy.
    Question. What steps are the Department and the administration 
taking--both independently and together--to eliminate duplication, 
abuse, and waste in the Department's grantmaking process in response to 
the GAO report?
    Answer. The Department has been proactive in identifying and 
addressing unnecessary duplication. During the program design and the 
annual budget formulation process, the Department carries out the 
following actions to avoid duplication and overlap:
  --Components regularly collaborate during the budget formulation 
        process.
  --DOJ's Justice Management Division Budget Division and senior 
        officials review all component budgets prior to their 
        submission to the Office of Management and Budget and require 
        programs to be modified or deleted if overlap or duplication 
        exists.
    In addition, there are systems and tools in place that can be used 
to ascertain if duplication of awarded funds exists. Such as:
  --All three DOJ major grantmaking components (OJP, COPS, and OVW) use 
        the same accounting system and OJP and OVW both use the Grants 
        Management System (GMS). All GMS users can access detailed 
        program information.
  --OJP's Office of the Chief Financial Officer conducts financial 
        monitoring of grants of all three DOJ grantmaking components 
        (OJP, COPS, and OVW) and identifies potential areas of overlap 
        between programs and related funding.
  --DOJ grantee audits (both single audits and Office of Inspector 
        General grant audits) represent an independent examination of 
        funding at the grantee level. Single audits, which are 
        mandatory for grant recipients who expend more than $500,000 in 
        Federal funds during a fiscal year, provide the auditors with 
        an opportunity to examine funding and related expenditures for 
        all grant programs.
    As it relates to existing program areas that cross components:
  --OJP, COPS, and OVW regularly collaborate with other DOJ components 
        in areas where programs overlap to ensure that efforts are 
        efficient and effective. For example, the Attorney General has 
        convened the Federal Interagency Reentry Council in which 18 
        Federal agencies participate.
  --DOJ coordinates intra-agency working groups to develop and improve 
        programs and reduce the possibility of duplication and overlap. 
        For example, CTAS involves DOJ, OJP, COPS, and OVW in 
        development of a single solicitation for all DOJ grants for 
        tribal governments.
 --OJP also leads interagency coordination groups to strategically 
        utilize each component's strengths and minimize duplication. 
        For example, OJP leads the National Forum on Youth Violence 
        Prevention with strong participation from COPS, OVW, and other 
        Federal agencies such as DOL, HUD, and ED.
    For grants management activities, DOJ grant components participate 
in the Grants Management Challenges Working group as previously 
described in another section.
    The Department has tackled the challenges of grants management 
aggressively, establishing policies, procedures, and internal controls 
to ensure sound stewardship, strong programmatic and financial 
management, and effective monitoring and oversight of its grants and 
grant programs. These policies and internal control framework position 
the Department to carry out statutory mandates and requirements and to 
detect and prevent potential waste, fraud, and abuse of the billions of 
taxpayer dollars the Department awards in grants each fiscal year.
    The Department is dedicated to continuously improving its oversight 
and monitoring of grantees and grant programs. The Department reduces 
risks for fraud and abuse by identifying high-risk and at-risk grantees 
and ensuring compensating controls are implemented. The DOJ high-risk 
grantee program requires appropriate controls to be in place to ensure 
that grantees with outstanding noncompliance issues implement timely 
corrective actions to address the issues; a grantee's risk status is 
addressed during the grant award process; enhanced oversight and 
monitoring is provided to the grantee. The Department ensures grantees 
have access to financial and grant fraud training. The OJP Office of 
the Chief Financial Officer provides training to grantee participants 
through its Regional Financial Management Training Seminars. These 
seminars cover critical topics such as subrecipient monitoring, cost 
principles for allowable and unallowable costs, reporting requirements, 
grant fraud, waste, and abuse, audit requirements, and prohibition of 
excess cash on hand. In December 2011, DOJ launched an on-line 
financial management training tool for all DOJ grantees and grant 
management staff.
    The Department's Office of Inspector General works closely with the 
grant components to provide training on detecting and preventing grant 
fraud to its grantees and staff. For example, since fiscal year 2009, 
more than 600 OJP employees have participated in grant fraud training.

                      FEDERAL PROGRAMS FACING CUTS

    Question. Under the terms of the Budget Control Act of 2011 (Public 
Law 112-25), funding for virtually all Federal programs will face an 
across-the-board cut in January 2013 if the Congress fails to reduce 
the national debt by $1.2 trillion. According to CBO estimates, this 
would result in a cut of roughly 8 percent to programs across DOJ.
    How would these cuts affect the Department?
    Answer. Under the terms of the Budget Control Act of 2011 (Public 
Law 112-25), virtually all Federal programs will face an across-the-
board cut in January 2013 if the Congress fails to enact legislation 
that would reduce the national debt by an additional $1.2 trillion. 
According to CBO estimates, such an across-the-board cut would result 
in a reduction of at least 7.8 percent to programs across DOJ. A 7.8-
percent reduction equates to a loss in funding of approximately $2.1 
billion.
    Question. Please provide a list of expected workforce furloughs, 
cuts to grant programs, and other reductions at DOJ if sequestration is 
implemented.
    Answer. The Department supports the fiscal year 2013 President's 
budget request, which would avoid a sequestration, if enacted as 
proposed. However, the impact of an across-the-board cut of 7.8 percent 
would mean a reduction of approximately $2.1 billion to the 
Department's budget authority. To implement this cut, the Department 
would have to cut both personnel and operational funding. While the 
specific implementation of a 7.8-percent across-the-board cut cannot 
yet be determined, such a cut to DOJ's budget could result in the loss 
of more than 15,000 personnel, including furloughing all DOJ employees 
for 25 days. These personnel cuts, along with significant operational 
cuts, would mean reductions in the apprehension of violent fugitives, 
fewer Federal Bureau of Investigation (FBI) national security 
investigations, fewer affirmative litigation efforts, and more crowded 
prisons. For context, a 7.8-percent cut would mean 5,400 fewer Federal 
agents and nearly 1,250 fewer attorneys available to investigate and 
prosecute violent criminals, perpetrators of fraud, fugitives from 
justice, transnational criminal organizations, and cartels and 
terrorists. In addition, the Bureau of Prisons would have 2,500 fewer 
correctional officers to operate prison facilities in a manner 
consistent with officer and inmate safety and the Department's grant 
programs would be reduced by $110 million compromising relationships 
with State and local law enforcement organizations and programs 
critical to advancing public safety.
    Question. How would these cuts affect the Department's ability to 
carry out its mission?
    Answer. An across-the-board cut of 7.8 percent would jeopardize the 
Department's ability to fulfill its missions to prevent terrorism, 
enforce Federal law, and ensure the fair administration of justice.
    While the specific implementation of a 7.8-percent across-the-board 
cut cannot yet be determined, such a cut to DOJ's budget could mean:
  --49,654 fewer immigration matters completed by immigration judges;
  --5,430 fewer matters opened by the National Security Division;
  --7,713 fewer cases filed by U.S. Attorneys;
  --9,705 fewer investigations conducted by the FBI;
  --$335 million more revenue in the pockets of drug trafficking 
        organizations;
  --79 fewer local police hires;
  --300 fewer Foreign Intelligence Surveillance Act applications filed 
        by the National Security Division;
  --$1.6 million decrease in restitutions, recoveries, and fines 
        related to FBI white collar crime investigations; and
  --6,495 fewer bulletproof vests for State and local law enforcement 
        personnel.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy

    OFFICE OF LEGAL COUNSEL MEMORANDUM--COUNTERTERRORISM OPERATIONS

    Question. Earlier this week, you gave a speech outlining some of 
the legal rationale for the use of lethal force against American 
citizens overseas in terrorism cases. In your speech, you stated that 
``the executive branch regularly informs the appropriate Members of 
Congress about our counterterrorism activities, including the legal 
framework, and would of course follow the same practice where lethal 
force is used against United States citizens.'' While your speech was a 
welcome step toward more transparency about the legal rationale for 
these actions, it is no substitute for an independent review by the 
Congress of the actual legal opinion underpinning such actions. As 
Chairman of the Judiciary Committee, I have made repeated requests for 
the legal opinions upon which the administration has relied in taking 
such extraordinary actions against American citizens.
    Can you tell me when you will be sending me a copy of the Office of 
Legal Counsel (OLC) memorandum authorizing the use of lethal force 
against American citizens in counterterrorism operations, including the 
operation that killed Anwar al-Awlaki?
    Answer. OLC regularly publishes opinions that the office determines 
are appropriate for publication. The opinion in question is currently 
covered by executive privilege and therefore will not be released 
beyond the Department. Moreover, the Department does not comment on any 
specific case or individual. However, as noted before, the conduct and 
management of national security operations are core functions of the 
executive branch, as courts have recognized throughout our history. In 
order to ensure proper oversight, and in keeping with the law and our 
constitutional system of checks and balances, the executive branch 
regularly informs the appropriate Members of Congress about our 
counterterrorism activities, including the legal framework, and would 
of course follow the same practice where lethal force is used against 
United States citizens.

          NEW YORK CITY POLICE DEPARTMENT SURVEILLANCE PROGRAM

    Question. In recent months, we have heard troubling information 
about the surveillance operations of New York City Police Department 
(NYPD)--particularly targeting the Muslim-American community. According 
to press accounts, the NYPD has been compiling databases of information 
concerning Muslim Americans residing throughout the northeast, and has 
used informants called ``rakers'' and ``mosque crawlers'' to infiltrate 
mosques and Muslim student groups. There have also been reports of CIA 
involvement in NYPD's surveillance program. Last week, you told a House 
Appropriations subcommittee that the Department of Justice (DOJ) was 
reviewing complaints it had received concerning the NYPD's surveillance 
program, in order to determine what actions should be taken by DOJ.
    I would request that you keep me and my staff updated as to the 
progress of this review. Can you tell me the current status of the 
Department's review into these allegations of civil rights violations 
by the NYPD?
    Answer. At this time, the Civil Rights Division is continuing its 
review into allegations of civil rights violations by the NYPD 
Surveillance Program. The Attorney General has authority to bring 
litigation to address patterns or practices by law enforcement agencies 
that deprive persons of rights, privileges, or immunities secured or 
protected by the Constitution or laws of the United States (42 U.S.C. 
14141). This authority has been delegated to the Civil Rights Division 
of DOJ and the Division often works with the local U.S. Attorney's 
office. Each allegation of misconduct is reviewed and in a portion of 
cases, a formal investigation or another response is authorized. 
Investigations typically involve site visits, hundreds of interviews, 
and the review of tens of thousands of pages of documents. In addition 
to Division attorneys and investigators, the Division engages experts, 
typically well-respected law enforcement executives, to assist in the 
investigation. There is no way for us to provide a general timeframe 
for a preliminary inquiry or a formal investigation. Timelines for 
inquiries and investigations are controlled by the facts found.
    Question. As the Department conducts its review of these 
complaints, I also ask that you evaluate the extent of coordination 
between the NYPD and the Federal Bureau of Investigation (FBI). I am 
particularly interested in whether data obtained through NYPD 
surveillance methods is shared with and used by FBI in accordance with 
DOJ guidelines. Will you do that?
    Answer. FBI and NYPD work together on the Joint Terrorism Task 
Force, share investigative information, and exchange queries for 
operational and tactical de-confliction purposes in accordance with DOJ 
and FBI policies. However, FBI does not receive NYPD surveillance 
information.

                     SAME-SEX IMMIGRATION PETITIONS

    Question. On April 6, 2011, I wrote to you and the Secretary of 
Homeland Security, Janet Napolitano, to encourage you to hold marriage-
based immigration petitions for same-sex spouses in abeyance in light 
of the administration's decision to no longer defend the 
constitutionality of the Defense Against Marriage Act (DOMA). The 
response I received on May 17, 2011, suggested that discretion may be 
granted in individual cases, but that the agencies would not exercise 
discretion in a categorical manner. Subsequently, the Department of 
Homeland Security (DHS) denied the spousal-based petition of a Vermont 
couple, Frances Herbert and Takako Ueda who are lawfully married under 
Vermont statute. Particularly in States such as Vermont, where same-sex 
marriages are legally recognized, we believe that DHS has the legal 
authority to hold such cases in abeyance, and to exercise prosecutorial 
discretion for those in removal proceedings. I ask that you reconsider 
the administration position articulated in the May 17, 2011 letter. 
Will you do so?
    Answer. While we cannot comment on the specific example cited, DOJ 
and DHS are continuing to follow the President's direction to enforce 
DOMA. Both DHS, through U.S. Citizenship and Immigration Services and 
Immigration and Customs Enforcement (ICE), and DOJ, through the 
Executive Office for Immigration Review, have discretion to make 
individual case determinations, and have used that discretion in a 
number of recent cases. The agencies have not, however, granted any 
form of blanket relief to the entire category of cases affected by 
DOMA. As ICE Director Morton described in a June 17, 2011 memorandum, 
``Providing Guidance on the Exercise of Prosecutorial Discretion 
Consistent With the Department's Civil Immigration Priorities'', ICE's 
current enforcement priorities are aliens who pose a clear risk to 
national security or to public safety and those with an egregious 
record of immigration violations.
                                 ______
                                 
           Questions Submitted by Senator Frank R. Lautenberg

                           PAN AM 103 BOMBING

    Question. Only one person has ever been convicted in connection 
with the Pan Am 103 bombing, and that person has since been released 
from prison. On February 28, 2012, Secretary Clinton testified that the 
United States ongoing investigation into the bombing is primarily a 
Department of Justice (DOJ) responsibility. What progress has been made 
on the investigation of the Pan Am 103 bombing?
    Answer. We remain committed to pursuing justice on behalf of the 
victims of this terrorist attack that took the lives of 189 Americans 
and many others.
    We continue to seek more information, as well as access to those 
who might have been involved in the planning or execution of the 
bombing. We have made clear--and will continue to make clear--to the 
Government of Libya the great importance of this case to the United 
States and our determination to bring all of those responsible to 
justice.
    The investigation into the Pan Am 103 bombing remains open, and we 
will continue to follow any leads that could result in evidence to 
support a criminal prosecution.
    As this is an ongoing investigative matter, we cannot comment on 
specific investigative steps that are being taken.

                     ILLEGAL TRAFFICKING OF TOBACCO

    Question. Reports from the Government Accountability Office have 
identified an estimated tax loss of $5 billion a year due to the 
illegal trafficking of tobacco. The tremendous profits and low criminal 
penalties have attracted the involvement of organized criminal and 
terrorist groups. The Federal Bureau of Investigation (FBI) has primary 
jurisdiction on terrorism and organized crime, while the Bureau of 
Alcohol, Tobacco, Firearms and Explosives (ATF) holds primary 
jurisdiction on cigarette trafficking. How does DOJ ensure that the FBI 
and ATF work together to prevent illegal tobacco proceeds from 
financing organized crime and terrorists?
    Answer. DOJ's agencies have strong and effective working 
relationships with their DOJ partners as well as other Federal, State, 
and local agencies and a history of highly successful joint 
investigations. Supervisors in the field regularly review 
investigations on a case-by-case basis and involve other agencies as 
appropriate. For example, recently the ATF and the FBI worked together 
on ``Operation Secondhand Smoke'', an undercover investigation into a 
nationwide network of retailers, wholesalers, distributors, importers, 
and manufacturers who were avoiding cigarette taxes to make millions of 
dollars in profits.
                                 ______
                                 
          Questions Submitted by Senator Kay Bailey Hutchison

DEPARTMENT OF JUSTICE'S PREVENTING VIOLENCE AGAINST LAW ENFORCEMENT AND 
   ENSURING OFFICER RESILIENCE AND SURVIVABILITY INITIATIVE TRAINING

    Question. Violence against law enforcement officers is at an all-
time high. According to National Law Enforcement Officers Memorial Fund 
statistics, Texas leads the Nation with most police officers killed the 
in the line of duty--1,594. Ensuring the safety of law enforcement is a 
top priority for all of us in this subcommittee's bill.
    During the Fort Hood shooting rampage in 2009, Department of the 
Army civilian Police Sergeants Kim Munley and Mark Todd were two of the 
first officers to arrive on the scene. Sergeant Munley was shot 
multiple times. Sergeant Todd was able to wound and incapacitate the 
shooter before he could shoot Sergeant Munley again. Both officers 
credited their swift and heroic actions to the active shooter training 
they received through the Advanced Law Enforcement Rapid Response 
Training (ALERRT) Center at Texas State University, which is a partner 
of the Department of Justice's (DOJ) Preventing Violence Against Law 
Enforcement and Ensuring Officer Resilience and Survivability (VALOR) 
Initiative. Their heroic actions show how a small investment in 
training can have an impact on the safety of our Nation's law 
enforcement officers.
    Can you tell us about the successes of the VALOR Initiative and 
DOJ's plans to expand this training?
    Answer. More than 3,100 law enforcement professionals have received 
the VALOR Initiative training, in 17 sessions across the country. We 
have heard from sheriffs and police chiefs that this curriculum has 
been successfully used in the field. Therefore, we plan to continue 
promoting, refining, and expanding its availability along with the 
VALOR Initiative officer toolkit. There have been 8,100 toolkits placed 
in the field and the Web site has received 2.5 million hits.
    The feedback from the training has been positive from the field. 
Some of the feedback includes:

    ``It was truly some of the best training I've attended in 12 years 
as a peace officer here in Georgia. I truly hope and urge you to bring 
this training back to Georgia for more officers to attend, I would 
definitely push this training for as many as my colleagues as I could 
through the chain of command.''----Cartersville, Georgia
    ``This training was excellent, and every officer needs to take it. 
It's an eye-opening experience! Excellent training!''----Arlington, 
Texas
    ``Most relevant training ever to help prepare and heighten 
awareness.''----Arlington, Texas
    ``I was involved in an incident where the training in pre-attack 
indicators really helped prevent a violent struggle with a suspect.''--
--San Diego, California
    ``The training has helped me with being more vigilant and looking 
for pre-incident indicators of violent attacks and armed persons. Cops 
become complacent as time goes on. This type of training helps rid the 
complacency and reopens the eyes of a patrol cop.''----San Diego, 
California

    Texas State University and its ALERRT active shooter training has 
been, and is, an extremely important component of the VALOR Initiative 
training.
    In fiscal year 2011, the Institute for Intergovernmental Research 
(IIR) received an award as the Bureau of Justice Assistance's (BJA) 
VALOR Initiative grantee. IIR, through its internal awarding processes, 
provided a sub-award of $200,000 to Texas State University for the 
delivery of 11 ALERRT Active Shooter hands-on training sessions. In 
fiscal year 2012, IIR will receive its second supplemental award for 
the VALOR Initiative. IIR has discussed with BJA how it intends to use 
the fiscal year 2012 funding, including awarding a second subcontract 
to Texas State University for an anticipated additional $200,000 to 
continue delivery of ALERRT trainings across the country. BJA has 
discussed and is in agreement with the overall proposed work plan. IIR 
follows its internal subcontracting guidelines as well as Office of 
Justice Programs' (OJP) guidelines with regard to the expenditure of 
Federal funds and subcontracting.
    Question. Is the Department able to keep up with the requests for 
this training?
    Answer. Given existing resource constraints, it is a challenge to 
satisfy the high demand of requests for this training. However, BJA is 
working closely with our grantees to ensure that we are maximizing 
attendees at each event. To better meet the demand, we are requesting 
$5 million in fiscal year 2013, an increase of $3 million more than the 
fiscal year 2012 enacted level of $2 million.
    Question. Last year there were 31 cases of violence against U.S. 
Marshal Task Forces. Seven of these instances resulted in fatalities of 
Deputy U.S. Marshals or State and local officers working on the task 
forces.
    Is there any type of training being conducted with our Federal law 
enforcement agencies? (Bureau of Alcohol, Tobacco, Firearms and 
Explosives [ATF] and U.S. Marshals Services [USMS] conduct training)
    Answer. DOJ, through BJA, reached out to Federal law enforcement 
agencies as the VALOR Initiative was being developed. Specifically, 
leadership levels of USMS have been briefed on the VALOR Initiative, 
and coordination and joint efforts, including exchanges of curricula to 
ensure consistent messaging, are in progress. A team from USMS was 
invited to and participated in the first VALOR Intiative class held in 
Tampa, Florida. BJA recently met with USMS staff to further develop 
coordination and information sharing between both the BJA and the USMS 
trainings. Leadership of ATF was also briefed on the VALOR Initiative, 
and collaborative discussions are planned. Staff from the Federal 
Bureau of Investigation (FBI) was significantly involved in the 
development of the VALOR Initiative, in particular, the research that 
supports the program. Coordination with Department of Homeland Security 
(DHS) law enforcement agencies is also expected. BJA has also 
coordinated VALOR Initiative trainings through U.S. Attorney's offices, 
pursuant to the Attorney General's direction that the U.S. Attorneys be 
engaged in assessing and responding to the officer safety issues in 
their districts.
    Question. Is there any type of coordination with DOJ and our 
Federal law enforcement agencies to ensure that best safety practices 
are being shared?
    Answer. BJA has made specific outreach to Federal law enforcement 
agencies to create best safety practices. BJA's VALOR Initiative 
representatives will attend the current USMS training. USMS 
representatives will attend a VALOR Initiative training to ensure that 
best safety practices are shared. Additionally, leadership of the ATF 
was also briefed on the VALOR Initiative and further discussions are 
planned.
    DOJ law enforcement components participate in DOJ-wide working 
groups related to agent safety issues, such as body armor standards and 
requirements. DOJ law enforcement components also compare, collaborate, 
and share training techniques and methodologies, both formally and 
informally.
    The ATF, Drug Enforcement Administration (DEA), and USMS purchase 
software licenses for three of the same online courses. Through cross-
component discussion and collaboration, these courses have been 
established as important elements of safety training for agents of all 
three components.
    Components utilize co-located training facilities at Quantico and 
Federal Law Enforcement Training Center (FLETC) and agents train using 
driving and firearms ranges as well as simulators. FBI has traveled to 
other law enforcement component training sites to establish liaison 
contacts and share best practices.
    Furthermore, BJA and Community Oriented Policing Services (COPS) 
have established the National Officer Safety and Wellness Group. This 
group brings together law enforcement thought leaders, criminal justice 
practitioners, and colleagues to share their knowledge and perspectives 
on improving officer safety and wellness. The group's mission is to 
contribute to the improvement of officer safety and wellness in the 
United States by convening a forum for thoughtful, proactive discussion 
and debate around relevant programs and policies within the law 
enforcement field. Information and insight gained and shared will help 
enhance programs, policies, and initiatives related to officer safety 
and wellness.

              NATIONAL ACADEMY OF SCIENCES FORENSICS STUDY

    Question. Prior to becoming ranking member, this subcommittee 
commissioned the National Academy of Science (NAS) Forensics Study. The 
intent was to show where DOJ lacked in supporting crime labs and how it 
could provide more support to the forensics community. Unfortunately, 
it evolved from a narrowly focused nonbinding study into a more far-
reaching study than what the Congress intended.
    While the NAS study did produce some positive results, there are 
questionable and unrealistic ones, such as creating an independent 
bureaucracy responsible for oversight of forensics, excluding DOJ from 
oversight.
    Some special interest groups have even used a few of the individual 
bad cases in the NAS study to attack the credibility of all crime labs 
and law enforcement, resulting in impulsive and knee-jerk legislative 
proposals.
    I would also note that some of these same organizations were also 
at the forefront of support for the Webb Crime Commission, which is an 
example of another ``non-binding'' study to go bad and result in 
overreaching and unnecessary legislative proposals.
    Does the Department have a position on the NAS forensics study?
    Answer. DOJ believes the report from the National Research Council, 
``Strengthening Forensic Science in the United States: A Path 
Forward'', is a helpful addition to the public discourse on the state 
of the forensic science community. The report recommends many useful 
steps to strengthen the community and enables it to continue to 
contribute to an effective criminal justice system. The report did 
conclude, ``that forensic science, as a whole, produces valuable 
evidence contributing to the successful prosecution and conviction of 
criminals, as well as to the exoneration of the innocent.'' However, 
the report does not, and was never intended to:
  --comprehensively assess the forensic science disciplines;
  --undermine the use of forensic science in the courtroom;
  --offer any judgments on any cases currently in the judicial system; 
        or
  --recommend any rule or law changes in the area of evidentiary 
        admissibility.
    Question. Does DOJ support creating an independent agency 
responsible for having jurisdiction over forensics?
    Answer. The Department concurs with the need for a concerted 
national investment to advance forensic science and its utility, which 
underlies all recommendations cited in the NAS report. However, the 
Department does not believe that a new forensics agency is necessarily 
needed to serve the interests of the criminal justice community at the 
Federal, State, and local levels.
  discrepancies between department of justice and president's requests
    Question. Attorney General Holder, there are a number of 
discrepancies between your fiscal year 2013 budget request and the 
President's fiscal year 2013 budget request in the Office of Management 
and Budget's (OMB) appendix. This can only mean that OMB littered DOJ's 
request with programs and funding proposals up until the last minute 
before releasing the budget.
    This is evidence of part of the budget process that is not 
transparent and should be made public. OMB and the White House are able 
to adjust program funding levels and direct agencies through 
``passback'' communications that they refuse to publicly disclose, 
hiding behind the veil of ``executive privilege''.
    The White House and OMB insert unrequested programs into an 
agency's budget request, forcing the agency to cut their own priorities 
to make room for it. A perfect example of this is the White House 
inserting $600 million for COPS Hiring into DOJ's budget last year. We 
know you did not request that funding level and it forced you to cut 
other programs to make room for it.
    OMB has authored numerous memos promoting transparency. Since 
agencies are already required to postcongressional communications 
online, I hope that the chairwoman and my other colleagues will work 
with me in helping OMB close the circle of transparency by requiring 
all Federal agencies to post their OMB passback communications online.
    During these tough fiscal times, taxpayers, the media and watchdog 
groups deserve to have full transparency and understand how the White 
House and OMB influence the budget process and sometimes override what 
agencies request.
    Would you be supportive of being transparent and all OMB budget-
related communications being available for the taxpayers to see?
    Answer. While DOJ supports transparency, the process involved in 
the formulation of the President's budget request requires unimpeded, 
back-and-forth dialog within the executive branch. These discussions 
are considered ``pre-decisional'' and allow the frank and open 
consultation and discussion that is necessary to reach the most cost-
effective and efficient resourcing decisions for the American taxpayer. 
These internal confidential discussions are not intended to shield 
dialog, but rather allow the consideration of a wide range of possible 
options and alternatives. This is based on section 22 of the OMB 
Circular No. A-11 (2011) ``Communications with the Congress and the 
Public and Clearance Requirements''. The executive branch's internal 
deliberations regarding the various issues and options that were 
considered in the process leading to the President's decisions, we 
believe, should remain a matter of internal record. This deliberative 
process is intended to promote free discussion between agencies and the 
President and is supported by the doctrine of the separation of powers. 
It also ensures policy consistency between the President's budget and 
budget-related materials given to the Congress.
    Question. What are the discrepancies between the DOJ request and 
the President's budget in the appendix?
    Answer. There are several small discrepancies between the 
Department's budget materials, including the fiscal year 2013 budget 
and performance summary and the individual congressional 
justifications, and the President's budget appendix; these 
discrepancies have been footnoted where appropriate in the DOJ's budget 
materials.
    The cancellation language proposed for USMS, FBI, DEA, and ATF 
included in DOJ's budget materials differs from the language included 
in the budget appendix regarding the types of balances proposed for 
cancellation. DOJ's budget materials reflect the correct language.
    The language included in DOJ's budget materials for OJP, State and 
Local Law Enforcement Assistance, differs slightly from the language 
included in the Budget Appendix regarding funding levels for certain 
programs (i.e., National Criminal History Improvement Program, National 
Instant Criminal Background Check System Improvement Act Grants, and 
Prison Rape Prevention and Response). The Department's budget materials 
reflect the correct language.
    The number of full-time equivalent (FTE) reported in the DOJ budget 
summary varies slightly from the numbers reported in the President's 
budget appendix due to a difference in the methodology used to 
calculate the base FTE levels.
    While the DOJ chapter of the President's budget states that a task 
force offset is proposed in fiscal year 2013, DOJ is just now 
finalizing its review of task force operations and an offset is instead 
anticipated for fiscal year 2014.
    Question. What do you attribute these discrepancies to?
    Answer. The majority of these discrepancies can be attributed to 
timing constraints during production of these separate documents, as it 
is the intent of both the language proposed in the Budget Appendix and 
the language proposed in the Department's budget materials to 
accurately report the same information.
    The difference in FTE between the DOJ congressional budget 
submission and the President's Budget Appendix can be attributed to a 
difference in the methodology used to calculate the base FTE levels. 
The DOJ congressional budget submission used the authorized FTE level 
to calculate the base for the enacted FTE in fiscal year 2011 and 
fiscal year 2012 and the request in fiscal year 2013. The President's 
Budget Appendix used the actual fiscal year 2011 FTE level as a 
baseline for developing the fiscal year 2012 and fiscal year 2013 FTE 
levels, as opposed to using the authorized FTE levels. This leads to a 
slight discrepancy in the reported FTE level, as footnoted in the 
Department's budget and performance summary.

                         DANGER PAY FOR MEXICO

    Question. DOJ has given the subcommittee its word that it would be 
advocating danger pay for USMS and ATF. What is the status of DOJ's 
negotiations on this? Why is OMB opposed to supporting law enforcement 
in Mexico receiving danger pay?
    Answer. DOJ is continuing to monitor the issue of differential 
rates of pay for DOJ agents and employees working in danger posts. We 
are actively engaged in discussions with the Department of State, which 
has jurisdiction over danger post determinations. The Department of 
State is acutely aware of our concern and has assured us that it is 
closely monitoring the situation in Mexico and will add additional 
danger posts as necessary.

                   DEPARTMENT OF JUSTICE TASK FORCES

    Question. Task forces play a major role in the DEA, USMS, FBI, and 
ATF missions. I support the consolidation of duplicative efforts, but I 
am concerned that there may be confusion on the part of the 
administration in past proposals to consolidate task forces.
    Specifically, the USMS Fugitive Task Forces come to mind. USMS have 
made three times the arrests of all other Federal law enforcement 
agencies combined.
    Can you tell us about the uniqueness of USMS's fugitive task forces 
and other task forces?
    Answer. USMS plays a unique role in implementing DOJ's violent 
crime reduction strategy as USMS is the Federal Government's primary 
agency for conducting fugitive investigations, and it apprehends more 
Federal fugitives than all other law enforcement agencies combined. 
USMS has also been named the lead DOJ component to investigate and 
prosecute crimes involving the noncompliance of sex offenders. While 
USMS is responsible for investigating and apprehending individuals 
wanted for escaping from Federal prison and for Federal parole and 
probation violations, it has a long and distinguished history of 
providing assistance and expertise to other Federal, State, and local 
law enforcement agencies in support of fugitive investigations. This 
support is coordinated though the USMS's Domestic Investigations and 
Sex Offender Investigations Branches, 75 district-based task forces, 
and 7 regional fugitive task forces, supplemented by three foreign 
field offices and a wide range of technical surveillance and criminal 
intelligence capabilities. USMS also participates on Organized Crime 
Drug Enforcement Task Forces (OCDETF); the OCDETF program has reported 
that its operations are substantially more effective when supported by 
USMS.
    The 75 district fugitive task forces operate areas not covered by 
the regional fugitive task forces. The seven regional fugitive task 
forces operate in the National Capital region, gulf coast region, Great 
Lakes region, New York-New Jersey region, Pacific-Southwest region, 
Southeastern U.S. region, and Florida. The combined regional fugitive 
task force has proven to be a vital tool in ensuring the safety of 
communities by arresting violent fugitives who prey on society.
    USMS's task forces combine the efforts of Federal, State, and local 
law enforcement agencies to locate and arrest the most dangerous 
fugitives. All USMS task forces are designed and managed to ensure the 
highest levels of cooperation, coordination, and deconfliction among 
participating agencies. While some of this coordination is informal in 
nature, in other cases, task forces use formal national and local 
information sharing and deconfliction systems to coordinate 
investigations and protect officer safety.
    USMS locates and apprehends Federal, State, and local fugitives 
both within and outside the United States. The warrants include but are 
not limited to:
  --homicide;
  --rape;
  --aggravated assault; and
  --robbery; or
  --if there was an arrest or conviction in the fugitive's record for 
        any of these offenses; or
  --for any sex offense as defined in the Adam Walsh Child Protection 
        and Safety Act.
    In fiscal year 2011, USMS task forces:
  --arrested 36,268 Federal fugitives;
  --arrested 86,449 State and local fugitives;
  --cleared 39,398 Federal warrants;
  --cleared 113,287 State and local warrants;
  --arrested 3,867 homicide suspects;
  --arrested 5,005 gang members;
  --arrested 12,144 sex offenders;
  --arrested 299 fugitives in Mexico; and
  --the seven regional fugitive task forces made 41,654 arrests and 
        cleared 52,078 warrants.
    DOJ's other primary task forces include DEA's regional task forces, 
ATF's violent crime impact teams, and FBI's Safe Streets task forces. 
As these task forces act as the primary investigative and operational 
arm for their respective agencies, they each leverage unique expertise 
in fulfilling their missions. For example, DEA's regional task forces 
have unparalleled knowledge and experience related to identifying, 
investigating, and ultimately dismantling drug trafficking 
organizations, which DEA brings to bear in cases throughout the 
country.
    Question. Are there any task forces that you feel may be considered 
for consolidation or elimination?
    Answer. The fiscal year 2013 President's budget does not contain 
plans to consolidate or eliminate additional task forces. Currently, 
DOJ is finalizing its comprehensive assessment of task force 
performance in coordination with ATF, DEA, FBI, USMS, the National 
Institute of Justice and the Executive Office for U.S. Attorneys. The 
review will also take into account the extent to which there is overlap 
or duplication between DOJ-led task forces and those led by other 
departments and agencies or State, local, or tribal led task forces. 
This assessment will review all violent crime, drug, gang, and fugitive 
task forces to determine their effectiveness and will culminate in 
recommendations to maximize performance and reduce duplication and 
overlap. The Department anticipates that the assessment will result in 
the elimination or consolidation of some task force operations.

           FAST AND FURIOUS LANGUAGE REMOVED FROM THE REQUEST

    Question. As I mentioned in my opening statement regarding Fast and 
Furious, language was included on the floor in last year's bill that 
would prohibit Federal law enforcement agencies from selling operable 
weapons to cartels. The fiscal year 2013 request removes that language 
saying it's unnecessary. The amendment passed 99-0.
    This budget proposes to eliminate a provision that prohibits 
facilitating the transfer of operable firearms to agents of drug 
cartels unless those firearms are continuously monitored. The budget 
request's justification for removing this language only says this ``is 
not necessary.'' That's hard to explain to the families of the Federal 
agents killed by those weapons.
    Can you elaborate on why the administration doesn't think it's 
necessary?
    Answer. In the fiscal year 2013 President's budget, consistent with 
past practice of removing prohibitive language that limits executive 
branch discretion, we proposed not to continue the Fast and Furious 
provision, which was enacted in fiscal year 2012 with the intention of 
preventing future ``gun walking'' operations. The Fast and Furious 
provision does not need to be continued because, as stated on several 
occasions, the Department does not intend to engage in any such 
operations in the future.
    Question. Doesn't the fact that it happened in the past suggest 
that legislation to block it in the future may well be necessary?
    Answer. The Attorney General has stated on several occasions that 
the Department has no intention of engaging in such operations in the 
future. Indeed, appropriate steps have been implemented to ensure that 
this type of operation does not occur again. However, given the 
sensitive nature of this issue, and in recognition of congressional 
intent to ensure appropriate oversight, DOJ would not object to this 
language being reinstated in the fiscal year 2013 bill.

             CARTELS RECRUITING COLLEGE STUDENTS AND MINORS

    Question. There have been reports that cartels are attempting to 
recruit college students to smuggle drugs into the country, and college 
campuses could serve as an easy recruiting ground. It's understandable 
how young students could be enticed by large sums of cash. The reports 
say that minors are more appealing because criminal penalties are 
lighter for them. One of the bright spots in your budget request is 
$312 million for Juvenile Justice Prevention programs. It's imperative 
that we educate our children and students on the potential dangers of 
being involved in cartels.
    Are you aware of these threats to college students and Southwest 
Border youth?
    Answer. DOJ has become aware of the threats posed by drug cartels 
to both college students and students in elementary and high schools 
along the Southwest border through those who attend and conduct AMBER 
Alert Southern Border Initiative trainings.
    Question. Are any Juvenile Justice Prevention dollars being focused 
toward education and awareness programs for the Southwest Border youth 
to understand the dangers of cartels and the drug trade?
    Answer. The Office of Juvenile Justice and Delinquency Prevention 
(OJJDP) has not focused Juvenile Justice Prevention dollars toward 
education and awareness programs for the Southwest Border youth. 
However, OJJDP's AMBER Alert Training and Technical Assistance program 
has developed a partnership with the Boys & Girls Clubs of America, a 
national nonprofit organization which provides expansion and 
development of sustainable Boys & Girls Clubs within tribal communities 
and other communities across the Nation. While OJP does not fund Boys & 
Girls Clubs activities directly through the AMBER Alert Training and TA 
program, we have awarded funding to a training and technical assistance 
provider that has a formal, established partnership with Boys & Girls 
Clubs of America. Through that partnership, Boys & Girls Clubs have 
been the conduit for information about gang and drug resistance 
education to youth who participate in Boys & Girls Clubs activities, 
and this may include education and awareness about the dangers of 
cartels and the drug trade for youth along the Southwest Border.
    OJJDP also has supported Boys and Girls Clubs. Boys & Girls Clubs 
provide a variety of prevention programs and activities for youth that 
help them develop character, education, social, and leadership skills. 
In addition, the Boys & Girls Clubs provide the Delinquency and Gang 
Prevention/Intervention Initiative. This community-based initiative 
targets young people ages 6 to 18 that are at high risk for involvement 
or are already involved with delinquency and gangs. These youth and 
teens are directed to positive alternatives and learn about violence 
prevention.
    OJJDP supports gang prevention education in schools. The Gang 
Resistance Education and Training (G.R.E.A.T.) Program, funded under 
title V, is a school-based, law enforcement officer-instructed, 
classroom curriculum administered by OJP's BJA and OJJDP. The delivery 
and support of the G.R.E.A.T. Program is coordinated through the four 
Regional Training Centers, the National Policy Board (NPB), a National 
Training Team and two Federal agency partners:
  --FLETC;
  --DHS; and
  --ATF.
    The goal of the G.R.E.A.T. Program is to help youth develop 
positive life skills that will help them avoid gang involvement and 
violent behavior. G.R.E.A.T. uses a communitywide approach to combat 
the risk factors associated with youth involvement in gang-related 
behaviors. The curricula was developed through the collaborative 
efforts of experienced law enforcement officers and specialists in 
criminology, sociology, psychology, education, health, and curriculum 
design and are designed to reinforce each other. The lessons included 
in each curriculum are interactive and designed to allow students to 
practice positive behaviors that will remain with them during the 
remainder of their developmental years. There are 495 law enforcement 
agencies in California, New Mexico, Arizona, and Texas that are 
teaching G.R.E.A.T and 151 of those agencies are within 150 miles of 
the border of Mexico.

                                BIG BEND

    Question. Attorney General Holder, as I mentioned in the statement, 
I'm concerned about opening an unmanned border crossing in Big Bend 
National Park. The negative and unknown variables seem to outweigh the 
few and minimal benefits. Not to mention that during these tough fiscal 
times, these funds could be used more wisely elsewhere. It seems to me 
that if terrorists were to smuggle weapons across the border, they 
would do so in place that have easily accessible roads with the fewest 
amount of border officials.
    Although it's not under DOJ's jurisdiction, an incident involving 
criminal activity after the fact very well would be. What is DOJ's 
position on an unmanned border crossing in this area or any other area?
    Answer. DOJ does not administer day-to-day activities regarding 
U.S. border patrol and defers to DHS in making determinations regarding 
the installation of border crossings. However, DOJ law enforcement 
components collaborate daily with Federal, State, and local law 
enforcement via field offices located throughout the country, including 
the Southwest Border, to combat crime and deter, detect, and disrupt 
any national security threats to the United States. DOJ stands ready to 
work with DHS to address any security concerns regarding border 
crossings or any other issue involving national security.

                           SWB COMMUNICATIONS

    Question. Big Bend Telephone Company (BBTC) is applying to the 
Federal Communication Commission (FCC) for a waiver from new rules that 
would lower the amount of Universal Service Fund (USF) subsidies that 
BBTC receives. BBTC is located in far West Texas, serves an area the 
size of Massachusetts, and covers 25 percent of the United States-
Mexico border. Without a waiver, we believe that BBTC may go out of 
business, with no other companies likely to serve the region because 
the area is so rugged and sparsely populated. Because BBTC provides 
network transport for the cell phone providers in the area, if BBTC 
goes dark, so too do the cell phones. Furthermore, BBTC provides 
critical communications service to numerous DHS facilities along and 
near the border (including two ports of entry) and to many State and 
local law enforcement agencies in the area. Without a waiver, these 
facilities would be at risk of losing their critical phone and 
broadband capabilities.
    If a waiver is not granted by the FCC to BBTC, and if BBTC goes out 
of business and thus its customers lose service, what would the impact 
be on national security and public safety if Federal, State, and local 
law enforcement agencies in the Trans-Pecos region lost its voice and 
broadband Internet capabilities? Without such critical communications, 
would these agencies be able to maintain their effectiveness in 
patrolling and securing nearly 500 mountainous miles of the border? 
More specifically, how would this impact the safety of Texas 
communities in the border region? What impact would this have on any 
DOJ entities or communications?
    Answer. Should BTTC go out of business, DOJ would work closely with 
stakeholders, including DHS, to ensure that any negative impacts on 
public safety and national security are appropriately addressed.

                          SENATOR STEVENS CASE

    Question. Attorney General Holder, first, I want to compliment you 
for dismissing the case, and cooperating with the investigation of 
misconduct and mishandling of evidence in the Government's case against 
former Senator Ted Stevens.
    After your request that the case be dismissed in April 2009, U.S. 
District Judge Emmett G. Sullivan appointed a team to investigate and 
report on the misconduct. Henry F. Schuelke III, who was appointed by 
Judge Sullivan to investigate the case, concluded in a 500-page report 
DOJ hid evidence that would have helped the Alaska Republican prove his 
innocence. Most notably, it was called a ``systematic concealment'' of 
evidence that could have helped Senator Stevens defend himself.
    Despite findings of widespread and intentional misconduct, Schuelke 
recommended against contempt charges because prosecutors did not 
disobey a ``clear and equivocal'' order by the judge, as required under 
law--which I question.
    Four of the six prosecutors who were investigated for their role in 
the case opposed releasing the report and their names were redacted.
    Since Judge Sullivan has ordered that the investigative report in 
the disgraceful prosecution of Senator Stevens be made public, can you 
promise this subcommittee that the report by Justice's Office of 
Professional Responsibility (OPR) will also be made public?
    Answer. As DOJ's disciplinary review process has not yet been 
completed, and due to limitations on public disclosure contained in the 
Privacy Act, DOJ is unable to release the relevant OPR report at this 
time. As I have stated previously, the Department will release as much 
as we can of the OPR report and DOJ findings, at the appropriate time 
and in a manner consistent with law and due process.
    Question. Are any of the prosecutors who engaged in ``systematic 
concealment'' of evidence in the Stevens case still in prosecutorial 
roles?
    Answer. Mr. Schuelke's report examined the conduct of a number of 
current and former DOJ attorneys and found evidence of willful 
nondisclosure of Brady and Giglio materials involving two of those 
attorneys, Assistant United States Attorneys (AUSAs) Joseph Bottini and 
James Goeke. Mr. Bottini is an AUSA in District of Alaska and handles 
criminal prosecutions. Mr. Goeke is an AUSA in the Eastern District of 
Washington and likewise handles criminal prosecutions.
    Question. Are any of their legal bills also being paid by the 
taxpayers? If so, please explain how much and the legal justification.
    Answer. It is DOJ's long-standing policy to provide representation 
to Federal employees for conduct performed within the scope of their 
employment. The purpose for providing representation is to protect the 
interests of the Government by assuring adequate representation with 
respect to legal issues in which the United States has a concern and by 
freeing its employees from the fear that proper and vigorous 
performance of their duties may result in substantial personal legal 
expenses. This may be so even where the employee has erred or where, 
regardless of the lawfulness of the conduct, there is concern that 
failure to provide representation may result in the establishment of a 
legal principle that compromises the Government's ability to perform 
its functions in a proper and lawful manner in the future. Moreover, 
where there are disputed facts regarding the conduct giving rise to the 
claim--or where the facts are under investigation--the employee is 
afforded the benefit of the doubt to the extent it is reasonable to do 
so. In all cases, the decision of whether or not to provide 
representation is based upon the currently available information.
    Consistent with this long-standing practice, 28 CFR 50.15 and 
50.16, and Civil Division Directive 2120A, DOJ received representation 
requests from six individuals with respect to two matters. At the time 
representation was needed for the matters referenced below, the facts 
that it took the Special Counsel several years to gather were not 
available. In accordance with the usual processes available to Federal 
executive, legislative, and judicial branch employees, DOJ determined 
at that time that the prosecutors were acting within the scope of their 
employment and representation was in the interest of the United States. 
Private counsel was authorized because direct DOJ representation was 
not appropriate.
    DOJ utilized standard retention agreements that the Department 
commonly uses in its representation of other Federal employees. Those 
retention agreements imposed caps on the number of hours of work for 
which, absent unusual circumstances, counsel would be reimbursed. Those 
agreements also set hourly rates that are based on the attorney's 
experience and are well below--and in some cases less than 50 percent 
of--the rates that DOJ uses when determining rates to pay prevailing 
parties against it in Washington, DC, under the Equal Access to Justice 
Act. With respect to the six individuals for whom representation was 
authorized, to date DOJ has spent $282,982.51 in connection with the 
contempt order entered by U.S. District Judge Emmet G. Sullivan on 
February 8, 2009, in United States v. Stevens, No. 08-cr-0231 (D.D.C.), 
and $1,633,298.29 in connection with the subsequent investigation by 
Special Counsel Henry F. Schuelke III, who was appointed by Judge 
Sullivan on April 9, 2009, and who ultimately produced a 500-page 
report regarding the investigation.
    Question. Does it concern you that the only reason these 
prosecutors escaped criminal charges is that the judge in the Stevens 
case did not file an order telling the prosecutors to follow the law?
    Answer. Yes. DOJ expects its prosecutors to fully comply with their 
discovery obligations in every case regardless of the existence of a 
court order directing such compliance. As a result, when the nature of 
the undisclosed information was brought to my attention in 2009, I 
authorized DOJ to move to vacate Senator Stevens' conviction and to 
dismiss the indictment.
    DOJ takes its discovery obligations seriously as evidenced by the 
policies and training requirements that have been implemented since the 
dismissal of the Stevens case. While DOJ continues to review the 
Schuelke report, and all of the facts and circumstances surrounding the 
discovery violations that occurred in the Stevens prosecution, DOJ 
prosecutors are expected to comply with their discovery obligations 
regardless of the existence of a court order.
    Question. What are the names of these individuals? Please list what 
positions and where these individuals have worked since this came to 
light--to present.
    Answer. The publicly filed version of the report identifies all of 
the subjects in the report. As noted, Mr. Schuelke found evidence that 
2 of the 6 subjects willfully withheld discoverable evidence. DOJ 
understands this series of questions to pertain only to those two 
individuals. AUSA Joseph Bottini has continued to prosecute cases in 
the District of Alaska since the Stevens trial. After the Stevens 
trial, AUSA Goeke continued as an AUSA in the District of Alaska until 
May 2009, when he assumed the same position in the Eastern District of 
Washington.
    Question. Please list the cases that these individuals have 
participated in and the results. For example, one participated in the 
Alabama Bingo case which resulted in acquittals. Another involved the 
National Security Agency. Please list each case, the outcome, the 
individuals' names, and what their roles in the cases are.
    Answer. We do not think it would be appropriate or useful to list 
every case on which each attorney has worked. We can tell you that 
since the Stevens trial, AUSA Joseph Bottini has handled a varied 
criminal caseload, and there have been no findings of prosecutorial 
misconduct in any of the cases that he has prosecuted. Similarly, AUSA 
Goeke has continued to handle a routine criminal caseload, and there 
have been no findings of prosecutorial misconduct in any cases that Mr. 
Goeke has prosecuted since the Stevens trial. If you can identify a 
specific need for additional information, we will be happy to consider 
it.
    Question. Will any investigation occur if the pending OPR 
recommends further action?
    Answer. No further investigation will occur, but OPR findings are 
part and parcel of the Federal disciplinary process. Whenever OPR 
reaches findings of misconduct involving current DOJ employees, 
imposition of any disciplinary action as a result of those findings 
must comport with the requirements of Federal law. Federal law requires 
generally that employees receive at least 30 days' notice of any 
proposed disciplinary action and that they have an opportunity to 
respond both orally and in writing to the proposed action. After 
considering the response, the designated deciding official would 
determine whether the evidence supports the misconduct charge or 
charges in the proposal and, if so, whether the recommended discipline 
is appropriate. If a deciding official determines to suspend the 
employee for more than 14 days, the employee can appeal that suspension 
to the Merit Systems Protection Board. If the employee is suspended for 
14 days or less, then the employee can file a grievance of the 
suspension with the agency. If the disciplinary process results in the 
affirmation of OPR's findings of misconduct, then OPR would ordinarily 
refer the matter to the appropriate State bar disciplinary authorities 
for any action they deem appropriate.
                                 ______
                                 
             Questions Submitted by Senator Lamar Alexander

                      METHAMPHETAMINE IN TENNESSEE

    Question. Tennessee had the second-highest number of 
methamphetamine lab seizures in the country in 2011 (1,687 labs), 
second only to Missouri. In 2010, Tennessee had the highest number of 
methamphetamine lab seizures in the Nation with 2,082 seizures. The 
average cost to clean up a methamphetamine lab is $2,300, and these 
costs are putting tremendous strain on State and local law enforcement.
    Last November, the Department of Justice (DOJ) helped Tennessee and 
other States by providing $12.5 million to address methamphetamine lab 
cleanup costs. However, this funding will run out in October 2012 
according to the statewide Tennessee Methamphetamine Task Force. 
Without cleanup funds, there is a real incentive to avoid seizing these 
labs.
    Given that this is one of the most urgent drug problems, especially 
in rural communities with limited resources, DOJ should find a way to 
help address this problem. In this year's budget will DOJ continue to 
support methamphetamine lab cleanup efforts in Tennessee?
    Answer. DOJ's budget includes $12.5 million in funding to continue 
to support methamphetamine lab cleanups in Tennessee and other States. 
Funding will be prioritized for States, like Tennessee, that have 
established container programs because these container programs allows 
DOJ and its State and local partners to complete cleanups in a more 
cost-effective manner.
    In fiscal year 2013, the Office of Community Oriented Policing 
Services (COPS) requests $12.5 million to provide assistance to help 
stem clandestine methamphetamine manufacturing and its consequences, 
including the cleanup of clandestine laboratories. As in previous 
years, DOJ assumes that these funds will provide for meth lab cleanup 
activities.
    Question. What is DOJ doing to help State and local law enforcement 
deal with mobile methamphetamine labs, which account for a growing 
number of lab seizures?
    Answer. Over the past several years, Drug Enforcement 
Administration (DEA) has developed a container-based cleanup program. 
Under this program, DEA trains and certifies law enforcement officers 
to remove gross contaminates from labs (including mobile labs) and 
dumpsites; secure and package the waste pursuant to State and Federal 
laws and regulations; and transport the waste to a centrally located, 
secure container for storage. In States participating in the container 
program, hazardous waste contractors travel periodically to a central 
location to remove meth lab contaminates from across the State. In 
noncontainer States, hazardous waste contractors must travel to each 
individual lab or dumpsite to secure, package, and remove meth lab 
contaminates.
    DEA will be supporting cleanups in container and noncontainer 
States in fiscal year 2012 through its various hazardous waste 
contracts. Currently, eight States have operational container programs 
(Alabama, Arkansas, Illinois, Indiana, Kentucky, Nebraska, Oklahoma, 
and Tennessee), and DEA is working with five other States (Michigan, 
Mississippi, North Carolina, Ohio, and Virginia) to implement the 
container program during fiscal year 2012. DEA expects these additional 
five States to have operational container programs in fiscal year 2013. 
Thus far, the program has resulted in significant cost savings per lab 
in States that have the containers deployed; a contractor cleanup 
averages $2,230 while a container cleanup averages $320.
    As container programs are more cost efficient and more States have 
operational container programs in fiscal year 2013, $12.5 million in 
funding, requested in the fiscal year 2013 President's budget in the 
COPS appropriation, will continue to be sufficient in fiscal year 2013. 
DEA has also contacted an additional eight States for potential 
container program expansion. For those States without container 
programs, DEA assesses whether or not the program is a cost-effective 
option. If the state has only limited cleanups, the upfront equipment 
and training costs can exceed potential container program savings. In 
these cases, DEA will provide cleanup services through its hazardous 
waste contractors.

             JUSTICE DEPARTMENT ENFORCEMENT AND WIND FARMS

    Question. In 2009, Exxon admitted to killing approximately 85 
protected birds, including waterfowl, hawks, and owls. The company paid 
a $600,000 fine and was required to implement an environmental 
compliance plan.
    The U.S. Fish and Wildlife Service (FWS) has referred similar cases 
to the Department involving wind farms. I am concerned that wind farms 
are not being treated the same as oil and gas companies with respect to 
enforcement of the Migratory Bird Treaty Act (MBTA).
    What concerns me the most is that the Justice Department's lack of 
enforcement betrays a willingness to prosecute certain disfavored 
groups while giving others a pass. This kind of selective prosecution 
contradicts the Department's promise of ``equal justice under law''.
    Since it is a criminal violation to kill birds protected by the 
MBTA and we know that wind mills kills hundreds of thousands of birds 
each year, including protected bald eagles, why hasn't DOJ taken 
action? Will DOJ step up enforcement for wind producers in the same way 
it has oil and gas companies?
    Answer. FWS's Office of Law Enforcement (OLE) has primary 
responsibility for investigating potential criminal violations of MBTA, 
and refers appropriate matters to DOJ for prosecution. FWS's OLE has 
stated publicly that, in the context of industrial takings of migratory 
birds, it focuses its resources on investigating and prosecuting those 
who take migratory birds without identifying and implementing 
reasonable and effective measures to avoid the take.
    In the context of the electric and oil and gas industries, 
reasonable and effective measures to avoid the taking of migratory 
birds have long been identified, and referrals have been made and legal 
action has been taken when companies knowingly fail to use such 
measures for avoiding bird mortality. Guidance on preventing bird 
deaths in the wind energy context has been more recent. However, some 
reasonable and effective measures for avoiding taking in this industry 
have been identified. The Department of the Interior released interim 
guidelines in 2003, and in March 2012, released final Land-Based Wind 
Energy Guidelines designed to help wind energy project developers avoid 
and minimize impacts of land-based wind projects on wildlife and their 
habitat.
    DOJ reviews each referral from OLE carefully, and determines 
whether to initiate a prosecution based on the principles set forth in 
DOJ's Principles of Federal Prosecution. DOJ is committed to the fair 
and evenhanded administration of the MBTA and other criminal wildlife 
protection laws.

           NATIONAL FORENSIC ACADEMY--UNIVERSITY OF TENNESSEE

    Question. The National Forensic Academy (NFA), which is located at 
the University of Tennessee in Knoxville, has been providing hands on 
forensic training since 2001 at one of the Nation's only training 
centers where officers and investigators can practice forensic 
techniques in the classroom and in the field.
    NFA works closely with the Bureau of Justice Assistance (BJA) and 
the National Institute of Justice (NIJ) to provide training courses to 
Federal, State, and local law enforcement and crime scene 
investigators, and this cooperation needs to continue.
    In 2009, the National Academy of Sciences released a comprehensive 
report on the needs of the forensic sciences community and concluded 
that we are not doing enough to support forensics. The report 
recommended new training and certification initiatives, among others.
    At a time when we are trying to control Federal spending, doesn't 
it make sense to support programs with a proven track record, like 
those at NFA, instead of creating new Federal training programs to 
support our forensic training needs?
    Answer. NIJ is not creating any new Federal training programs to 
support the forensic science community. Providing high-quality 
educational opportunities for forensic science practitioners continues 
to be a critical goal to maintain high-quality forensic services. In 
order to increase the number of forensic science training opportunities 
available to the forensic science, law enforcement, medical, and legal 
communities, NIJ invested approximately $12 million in fiscal year 2010 
and $5 million in fiscal year 2011.
    In 2011, NIJ's Forensic Science Training and Delivery Program 
released a solicitation that sought proposals in two major areas: 
``Delivery of Training'' and ``Targeted Research on Forensic Science 
Training Programs.''
    One goal of the solicitation was to increase the number of no-cost 
educational opportunities for public crime laboratory personnel and 
practitioners in forensic science disciplines and provide forensic 
science training to other relevant criminal justice partners and 
professionals involved in treating victims of sexual assault. NIJ 
sought to fund grant awards for the delivery of courses leveraging 
existing forensic science training curricula or courses developed under 
a previous NIJ award. Forensic disciplines supported by the program 
include, DNA, pattern evidence (e.g., fingerprints and firearms), trace 
evidence, digital evidence, and medicolegal death investigation.
    The solicitation conveyed the importance of cost-effectively 
leveraging existing curricula. For example, the 2011 training 
solicitation delineated that proposals should not include costs 
associated with further curricula development or modification.
    The University of Tennessee's NFA received one award for $450,000 
for ``Specialized Crime Scene Investigator Training in Forensic Digital 
Photography and Crime Scene Mapping'' in fiscal year 2011 (2011-DN-BX-
K567. NIJ has competitively funded numerous trainings geared toward 
crime scene investigators, forensic scientists, prosecutors, defense 
attorneys, law enforcement officers, and judges. Additionally, the 
University of Tennessee's NFA, with grant funding from BJA, has 
produced successful and popular training courses for many years. The 
University of Tennessee's Law Enforcement Innovation Center and its 
instructors do an excellent job training crime scene investigators 
during an intensive 10-week in house course.
    NIJ will not be offering a targeted solicitation for training in 
fiscal year 2012 in order to evaluate the various training programs, 
and it will conduct a gap analysis of critical needs. We hope to 
initiate this evaluation during fiscal year 2012 to determine how best 
to proceed with training in the future. However, there are still 
various training opportunities available through the ongoing training 
grants from past years. Moreover, there are various Federal grants that 
may be used for the purpose of training individuals at State and local 
agencies, such as the DNA Backlog Reduction and Coverdell Forensic 
Science Improvement programs. For example, Paul Coverdell funds may be 
used to bring in a trainer to provide specialized training in-house or 
funds may be used to attend trainings/meetings related to improving the 
timeliness and quality of forensic and/or medical examiner services.
    In the fiscal year 2011 proposal from the State of Tennessee, one 
of the goals of the Office of the Acting State Chief Medical Examiner 
(OCME) is to educate county medical examiners, medical investigators, 
and/or regional forensic center nonphysician employees who serve as 
death investigators in basic death scene investigation techniques. 
Priority would go to individuals without any formal training in death 
investigation. While each grand division of Tennessee is included, this 
grant focuses on the smallest offices in the eastern division, because 
of a recognized need for very basic training in those regions. The OCME 
intends to send seven participants from across the State to either the 
winter or spring session of the Medicolegal Death Investigation Course 
in St. Louis, Missouri.

                           BUREAU OF PRISONS

    Question. The Federal Bureau of Prisons (BOP) is estimated to be 
operating at 43 percent more than rated capacity by the end of fiscal 
year 2013, and overcrowding at high- and medium-security facilities is 
projected to be 52 percent and 63 percent, respectively. DOJ's fiscal 
year 2013 budget submission states:

    ``In light of overcrowding and stresses on prison staffing, BOP's 
ability to safely manage the increasing Federal inmate population is 
one of the Department's top 10 management and performance challenges 
identified by the Office of the Inspector General in the DOJ 
[Performance and Accountability Report].''

    Additionally, the Inspector General Performance and Accountability 
Report states:

    ``In sum, the Department continues to face difficult challenges in 
providing adequate prison and detention space for the increasing 
prisoner and detainee populations and in maintaining the safety and 
security of prisons.''

    I recognize the fiscal year 2013 budget submission includes funding 
for an additional 3,496 beds (2,496 beds in Federal facilities and 
1,000 new beds in contract facilities). However, BOP is projecting its 
population will grow by 6,500 inmates during that time, which means 
crowding will only get worse.
    What additional resources are needed to provide the beds required 
to meet capacity?
    Answer. Continuing increases in the inmate population pose ongoing 
challenges for BOP. The administration has taken several actions to 
control Federal prison crowding including expanding capacity and 
supporting legislation that will control prison population growth.
    The fiscal year 2013 budget requests $81.4 million in program 
enhancements to acquire 1,000 private contract beds and to begin 
activating two institutions, the United States Penitentiary at Yazoo 
City, Mississippi and the Federal Correctional Institution at Hazelton, 
West Virginia. These new contract beds and the two prisons will 
increase BOP's capacity by 3,496 beds once fully activated. (Exhibit O, 
Status of Construction, in the fiscal year 2013 President's budget 
request for buildings and facilities gives additional information on 
pending construction projects.)
    In addition, the administration supports two prisoner re-entry 
provisions included in the Second Chance Reauthorization Act of 2011 
(S. 1231), which was voted favorably out of the Judiciary Committee but 
has not yet been scheduled for Senate floor action. The bill contains 
provisions to increase inmate good conduct time by 7 days per year and 
to provide a 60-day per year incentive for participation in recidivism-
reducing programs. If enacted, these legislative proposals will help 
control the long-term prison population growth and result in an 
estimated cost avoidance of $41 million; the President's budget assumes 
enactment of these proposals and the corresponding savings.
    Question. Is contract confinement a cost-effective solution for 
housing low to minimum security offenders? Given current costs at 
contractor and BOP facilities, is contract confinement a cost-effective 
way to deal with overcrowding issues?
    Answer. Contract confinement can be cost-effective when used for 
housing low-security male criminal aliens. These inmates are 
particularly well-suited for contract confinement because their 
typically short sentence lengths and alien status generally preclude 
them from participating in sentence and recidivism reducing programs. 
Adding low-security private contract beds increases total system 
capacity and helps control overcrowding in low-security BOP facilities. 
At the end of fiscal year 2011, low-security overcrowding was 39 
percent, which equates to about 80 percent of low-security inmates 
being triple bunked, and in some cases regularly being housed in 
television rooms, open bays, program space, etc.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski

     INDEMNIFICATION OF LEGAL FEES INCURRED BY STEVENS PROSECUTORS

    Question. How much money was in fact spent defending the 
prosecutors, what the money was spent defending the prosecutors from, 
and why did the Justice Department spent the money?
    Answer. It is the Department of Justice's (DOJ) long-standing 
policy to provide representation to Federal employees for conduct 
performed within the scope of their employment. The purpose for 
providing representation is to protect the interests of the Government 
by assuring adequate representation with respect to legal issues in 
which the United States has a concern and by freeing its employees from 
the fear that proper and vigorous performance of their duties may 
result in substantial personal legal expenses. This may be so even 
where the employee has erred or where, regardless of the lawfulness of 
the conduct, there is concern that failure to provide representation 
may result in the establishment of a legal principle that compromises 
the Government's ability to perform its functions in a proper and 
lawful manner in the future. Moreover, where there are disputed facts 
regarding the conduct giving rise to the claim--or where the facts are 
under investigation--the employee is afforded the benefit of the doubt 
to the extent it is reasonable to do so. In all cases, the decision of 
whether or not to provide representation is based upon the currently 
available information. Those facts revealed that in the referenced 
matters the prosecutors were acting within the scope of their 
employment and representation was in the interest of the United States. 
Private counsel was authorized because direct Department representation 
was not appropriate.
    DOJ authorized representation of six individuals with respect to 
two matters and used standard retention agreements that the Department 
commonly uses in its representation of other Federal employees. Those 
retention agreements imposed caps on the number of hours of work for 
which, absent unusual circumstances, counsel would be reimbursed. Those 
agreements also set hourly rates that are based on the attorney's 
experience and are well below--and in some cases less than 50 percent 
of--the rates that DOJ uses when determining rates to pay prevailing 
parties against it in Washington, DC, under the Equal Access to Justice 
Act. With respect to the six individuals for whom representation was 
authorized, to date DOJ has spent $282,982.51 in connection with the 
contempt order entered by U.S. District Judge Emmet G. Sullivan on 
February 8, 2009, in United States v. Stevens, No. 08-cr-0231 (D.D.C.), 
and $1,633,298.29 in connection with the subsequent investigation by 
Special Counsel Henry F. Schuelke III, who was appointed by Judge 
Sullivan on April 9, 2009.
    Question. Did DOJ enter into any agreement with the prosecutors or 
their counsel prior to expending these funds? If so, please provide 
copies of all such agreements.
    Answer. DOJ did not enter into any agreement with the prosecutors. 
In accordance with our usual practice, we sent our standard retention 
letter to the private counsel retained to represent the prosecutors and 
received back DOJ's standard retention agreement signed by private 
counsel. As noted above, the retention agreements imposed caps on the 
number of hours of work for which, absent unusual circumstances, 
counsel would be reimbursed. The agreements also set hourly rates that 
are based on the attorney's experience and are well below--and in some 
cases less than 50 percent of--the rates that the Department uses when 
determining rates to pay prevailing parties against it in Washington, 
DC, under the Equal Access to Justice Act. Copies of the retention 
letters and executed agreements are attached. (see Attachment 1)

                             Attachment #1
                                    Civil Division,
                                U.S. Department of Justice,
                              Washington, DC 20530, April 21, 2009.

Kenneth L. Wainstein,
O'Melveny & Myers, 1625 Eye St., NW, Washington, DC 20006.

RE: Special Counsel Criminal Contempt Investigation Arising from United 
        States v. Stevens, 08-cr-0231 (D.D.C.)

    Dear Mr. Wainstein: The Department of Justice has concluded that it 
reasonably appears at this time that representation of Joseph Bottini 
in connection with a Special Counsel criminal contempt investigation in 
the above-referenced action is in the interest of the United States. It 
also appears at this time, however, that representation of Mr. Bottini 
by attorneys employed by the Department of Justice is inappropriate. 
Mr. Bottini has requested that the Department agree to reimburse you 
for his representation in this matter. Pursuant to 28 C.F.R. 
Sec. 50.16(c)(1), your reimbursement will be subject to the applicable 
statutes, regulations, and the terms and conditions set forth in the 
enclosed addendum, which is incorporated into and made a part of this 
agreement.
    You and Mr. Bottini should be aware that, by entering into this 
agreement, the Department of Justice in no way assumes responsibility 
on the part of the United States Government for any monetary liability 
that might be imposed against Mr. Bottini in connection with this 
matter. Although the Department of Justice has assumed responsibility 
for remunerating you in the course of representing him to the extent 
specified in the addendum, your responsibility, of course, is solely to 
your client.
    Should you have any questions concerning the terms of this 
agreement, including the enclosed addendum, please contact Attorney 
Advisor Virginia G. Lago at (202) 616-4328.
    If you find the provisions of the agreement acceptable, please 
return the signed addendum, along with your firm's tax identification 
number, to the following address:
      Virginia G. Lago, Esq.
      Torts Branch, Civil Division
      U.S. Department of Justice
      P.O. Box 7146
      Washington, DC, 20044
    The Department of Justice is continuing to experience delays in its 
mail delivery, as mail addressed to the Department continues to be 
forwarded to out-of-State facilities for irradiation. Therefore, please 
e-mail the signature page of the retention agreement to the attention 
of Ms. Lago at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1f69766d787671767e31737e78705f6a6c7b70753178706931">[email&#160;protected]</a> In addition, please e-mail your 
invoices to <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3a5e5550144a48534c5b4e5f1759554f54495f56174a48555d485b577a4f495e5550145d554c">[email&#160;protected]</a>, or you may mail them 
to Ms. Lago's attention at P.O. Box 7146, Washington, DC 20044. 
Reimbursement of allowable fees and expenses will become available on 
the Civil Division's receipt of the signed addendum.
    In addition, enclosed you will find a copy of the ACH VENDOR Direct 
Deposit Form. Please fill out the blank areas on the form and fax the 
completed form to:
      Accounts Maintenance Unit
      Attn: Gina McLaughlin
      FAX: (202) 616-2207
    The Debt Collection Improvement Act of 1996 requires that most 
payments by the Federal Government, including vendor payments, be made 
by electronic funds transfer. If you have any questions regarding the 
delivery of remittance information, please contact the financial 
institution where your account is held. If you have any questions 
regarding completion of this form, please contact Ms. McLaughlin at 
(202) 616-8103.
    Thank you for your assistance in this matter.
            Very truly yours,
                                         Timothy P. Garren,
                                            Director, Torts Branch.

 CONDITIONS OF PRIVATE COUNSEL RETENTION BY THE DEPARTMENT OF JUSTICE 
       FOR REPRESENTATION OF CURRENT AND FORMER FEDERAL EMPLOYEES

    The following items and conditions shall apply to the retention of 
a private attorney's legal services by the Department of Justice to 
represent current and former Federal employees in civil, congressional, 
or criminal proceedings.

1. NATURE OF RETENTION
    Subject to the availability of funds, the Department of Justice 
agrees to pay an attorney, or other members of his or her firm, for 
those legal services reasonably necessitated by the defense of a 
current or former Federal employee (hereinafter ``client'') in civil, 
congressional, or criminal proceedings.
    The Department will not honor bills for services that the 
Department determines were not directly related to the defense of 
issues presented by such matters. Examples of services for which the 
Department will not pay include, but are not limited to:
    a. administrative claims, civil actions, or any indemnification 
proceedings against the United States on behalf of the client for any 
adverse monetary judgment, whether before or after the entry of such an 
adverse judgment;
    b. cross claims against co-defendants or counterclaims against 
plaintiff, unless the Department of Justice determines in advance of 
its filing that a counterclaim is essential to the defense of the 
employee and the employee agrees that any recovery on the counterclaim 
will be paid to the United States as a reimbursement for the costs of 
the defense of the employee;
    c. requests made under the Freedom of Information or Privacy Acts 
or civil suits against the United States under the Freedom of 
Information or Privacy Acts, or on any other basis, to secure documents 
for use in the defense of the client;
    d. any legal work that advances only the individual interests of 
the employee; and
    e. certain administrative expenses noted in paragraph number 4 
below.
    The retained attorney is free to undertake such actions as set 
forth above, but must negotiate any charges with the client and may not 
pass those charges on to the Department of Justice.
    THE ABOVE LIST IS NOT EXHAUSTIVE. The Department of Justice will 
not reimburse services deemed reasonably necessary to the defense of an 
employee if they are not in the interests of the United States.
    To avoid confusion over whether the retained attorney may bill the 
Department for a particular service under this retention agreement, the 
retained attorney should consult the Justice Department attorney 
assigned to the case, mentioned in the accompanying letter before 
undertaking the service.

2. BILLABLE HOURS
    The Department of Justice agrees to pay the retained attorney for 
any amount of time not exceeding 120 billable hours per month for 
services performed in the defense of the client. The retained attorney 
may use the services of any number of attorneys, paralegals, or legal 
assistants in his or her firm so long as the aggregate number of 
billable hours in any given month does not exceed 120 hours. The client 
is free, however, to retain the attorney, or members of the firm, to 
perform work in excess of 120 hours per month so long as the firm does 
not bill the excess charge to the Department of Justice.
    The Department will consider paying for services in excess of 120 
hours in any given month if the press of litigation (e.g., trial 
preparation) clearly necessitates the expenditure of more time. The 
retained attorney must make requests for additional compensation to the 
Department in writing in advance of such expenditures.

3. LEGAL FEES
    The Department agrees to pay the retained attorney up to $200.00 
per lawyer hour, plus expenses as described in paragraph 4 below. The 
charge for any services should not exceed the retained attorney's 
ordinary and customary charge for such services. This fee is based on 
the consideration that the retained attorney has been practicing law in 
excess of 5 years.
    In the event the retained attorney uses the services of other 
lawyers in his or her firm, or the services of a paralegal or legal 
assistant, the Department agrees to pay the following fees.
    a. Lawyer with more than 5 years practicing experience: $200.00 per 
lawyer hour
    b. Lawyer with 3-5 years of practicing experience: $160.00 per 
lawyer hour
    c. Lawyer with 0-3 years of practicing experience: $133.00 per 
lawyer hour
    d. Paralegal or legal assistant (or equivalent): $78.00 per hour.
    The Department of Justice periodically reviews the hourly rates 
paid to attorneys retained to defend Federal employees under 28 C.F.R. 
Sec. 50.16. If, during the period of this agreement, the Department 
revises the schedule of hourly rates payable in such cases, the 
Department will pay revised rates for services rendered after the 
effective date of the revision in rates.

4. EXPENSES
    While the Department will pay normal overhead expenses actually 
incurred (e.g., postage, telephone tolls, travel, transcripts), the 
retained attorney must itemize these charges. The Department will not 
accept for payment a bill that shows only a standard fee or percentage 
as ``overhead''. The retained attorney must describe, justify, and 
clear IN ADVANCE unusual or exceptionally high expenses.
    In addition, the retained attorney must describe, justify, and 
clear in advance any consultations with or retention of experts or 
expert witnesses.
    The retained attorney must secure advance approval to use computer-
assisted research that involves charges in excess of $500.00 in a given 
month.
    The retained attorney must separately justify and obtain advance 
approval for services such as printing, graphic reproduction, or 
preparation of demonstrative evidence or explanatory exhibits.
    The retained attorney must itemize and justify in-house copying 
costs exceeding $150.00 in a given month. The Department will pay up to 
a per page copying cost of $.15 per page.
    The retained attorney must itemize and justify facsimile 
transmission costs exceeding $150.00 in a given month.
    The Department will pay expenses such as secretarial overtime or 
the purchase of books only in exceptional situations. The retained 
attorney must obtain advance approval for such expenditures.
    Travel expenses may not include first class service or deluxe 
accommodations. The retained attorney may not bill time spent in travel 
unless it is used to accomplish tasks related to the litigation. The 
retained attorney must specifically identify such tasks.
    The Department will not pay for meal charges not related to out-of-
town travel. The Department will not provide compensation for client or 
other entertainment. The Department will not pay expenses for meals 
incidental to overtime.
    The Department will not pay for expenses that can normally be 
absorbed as clerical overhead, such as time spent in preparing legal 
bills and filing papers with the Court. The retained attorney must 
separately list and justify messenger services.
    The retained attorney must enumerate the expenses incurred for 
hiring local counsel by rate, hour, and kind of service. These hours 
must fall within the 120-hour monthly maximum. The hourly rates paid to 
local counsel may not exceed the rates listed in paragraph 3 above.

5. FORMAT OF BILLS
    The retained attorney must submit bills on a monthly basis, stating 
the date of each service performed; the name of the attorney or legal 
assistant performing the service; a description of the service; and the 
time in tenths, sixths, or quarters of an hour, required to perform the 
service. Because of the limitation on reimbursable hours, a bill must 
include all services rendered in a given month. The Department will not 
consider subsequent bills for services rendered in a month for which it 
has already received a bill.
    In describing the nature of the service performed, the itemization 
must reflect each litigation activity for which reimbursement is 
claimed.
    The retained attorney must attach copies of airline tickets, hotel 
bills, and bills for deposition and hearing transcripts to the billing 
statement.
    The retained attorney must itemize local mileage costs (e.g., 
purpose of travel and number of miles). The Department will pay the 
standard government cost per mile rate for the use of privately owned 
vehicles.
    Before the Department of Justice will pay a bill, Department 
attorneys with substantive knowledge of the litigation will review it. 
If the retained attorney believes that the detail of the legal bill 
would compromise litigation tactics if disclosed to Department 
attorneys assigned to the case, the retained attorney should list those 
particular billing items on a separate sheet of paper with an 
indication of the specific concern. Department attorneys uninvolved 
with this case will independently review the separated, sensitive 
portion of the bill solely to determine if payment is appropriate under 
applicable standards. The individuals reviewing the bills will not 
discuss these items with the Department of Justice attorneys having 
responsibility for the case, nor will those responsible attorneys 
review the items in question.
    After Department attorneys complete the review of a bill, the 
Department will notify the billing counsel if the Department deems any 
item or items nonreimbursable or if any item or items require further 
explanation. When further information or explanation is needed, the 
Department will hold the entire bill until the retained attorney 
responds. Only after the Department receives and reviews the response 
will the Department certify the bill in whole or in part for payment. 
For that reason, the retained attorney must respond promptly.
    Should the Department determine that any items are not reimbursable 
under this agreement, the billing counsel may request further review of 
the Department's determination. The retained attorney shall make such a 
written request to the appropriate Branch director at the address 
indicated in the forwarding letter. The billing counsel must submit 
such requests for further review within 30 days, unless additional time 
is specifically requested and approved. Thereafter, the Department will 
not reconsider its determination.

6. BILLING ADDRESS
    The retained attorney should submit all bills to:
    Director, Office of Planning, Budget and Evaluation
    Civil Division
    United States Department of Justice
    Washington, D.C. 20530
    Attn: Room 9042, L Street Building

7. PROMPT PAYMENT
    The Prompt Payment Act is applicable to payments under this 
agreement and requires the payment of interest on overdue payments. 
Determinations of interest due will be made in accordance with 
provisions of the Prompt Payment Act and Office of Management and 
Budget Circular A-125.

8. GAO REVIEW
    Periodically, the Department of Justice may ask the retained 
attorney to submit copies of time sheets to the General Accounting 
Office (GAO) for purposes of auditing the accuracy of corresponding 
monthly bills, copies of which the Department will forward directly to 
GAO.

9. TERMINATION
    The Department of Justice reserves the right to terminate its 
retention agreement with the retained attorney at any time for reasons 
set forth in 28 C.F.R. Sec. 50.16.

                               ACCEPTANCE

    I agree that my retention by the Department of Justice to represent 
Joseph Bottini, in connection with a Special Counsel criminal contempt 
investigation in United States v. Stevens, 08-cr-0231 (D.D.C.) will be 
in accordance with the applicable statutes, regulations, and the 
foregoing terms and conditions. This written instrument, together with 
the applicable statutes and regulations, represents the entire 
agreement between the Department of Justice and the undersigned, any 
past or future oral agreements notwithstanding.

     Signature: Kenneth L. Wainstein

     Date: April 23, 2009

     Tax Identification Number: __________
                                 ______
                                 
                                    Civil Division,
                                U.S. Department of Justice,
                               Washington, DC 20530, June 16, 2009.
Matthew I. Menchel,
Kobre & Kim, 800 Third Avenue, New York, NY 10022.

RE: Special Counsel Criminal Contempt Investigation Arising from United 
        States v. Stevens, 08-cr-0231 (D.D.C.)

    Dear Mr. Menchel: The Department of Justice has concluded that it 
reasonably appears at this time that representation of James Goeke in 
connection with a Special Counsel criminal contempt investigation in 
the above-referenced action is in the interest of the United States. It 
also appears at this time, however, that representation of Mr. Goeke by 
attorneys employed by the Department of Justice is inappropriate. Mr. 
Goeke has requested that the Department agree to reimburse you for his 
representation in this matter. Pursuant to 28 C.F.R. Sec. 50.16(c)(1), 
your reimbursement will be subject to the applicable statutes, 
regulations, and the terms and conditions set forth in the enclosed 
addendum, which is incorporated into and made a part of this agreement.
    You and Mr. Goeke should be aware that, by entering into this 
agreement, the Department of Justice in no way assumes responsibility 
on the part of the United States Government for any monetary liability 
that might be imposed against Mr. Goeke in connection with this matter. 
Although the Department of Justice has assumed responsibility for 
remunerating you in the course of representing him to the extent 
specified in the addendum, your responsibility, of course, is solely to 
your client.
    Should you have any questions concerning the terms of this 
agreement, including the enclosed addendum, please contact Attorney 
Advisor Virginia G. Lago at (202) 616-4328.
    If you find the provisions of the agreement acceptable, please 
return the signed addendum, along with your firm's tax identification 
number, to the following address:
      Virginia G. Lago, Esq.
      Torts Branch, Civil Division
      U.S. Department of Justice
      P.O. Box 7146
      Washington, DC, 20044
    In addition, enclosed you will find a copy of the ACH VENDOR Direct 
Deposit Form. Please fill out the blank areas on the form and fax the 
completed form to:
      Accounts Maintenance Unit
      Attn: Gina McLaughlin
      FAX: (202) 616-2207
    The Debt Collection Improvement Act of 1996 requires that most 
payments by the Federal Government, including vendor payments, be made 
by electronic funds transfer. If you have any questions regarding the 
delivery of remittance information, please contact the financial 
institution where your account is held. If you have any questions 
regarding completion of this form, please contact Ms. McLaughlin at 
(202) 616-8103.
    Thank you for your assistance in this matter.
            Very truly yours,
                                         Timothy P. Garren,
                                            Director, Torts Branch.

 CONDITIONS OF PRIVATE COUNSEL RETENTION BY THE DEPARTMENT OF JUSTICE 
       FOR REPRESENTATION OF CURRENT AND FORMER FEDERAL EMPLOYEES

    The following items and conditions shall apply to the retention of 
a private attorney's legal services by the Department of Justice to 
represent current and former Federal employees in civil, congressional, 
or criminal proceedings.

1. NATURE OF RETENTION
    Subject to the availability of funds, the Department of Justice 
agrees to pay an attorney, or other members of his or her firm, for 
those legal services reasonably necessitated by the defense of a 
current or former Federal employee (hereinafter ``client'') in civil, 
congressional, or criminal proceedings.
    The Department will not honor bills for services that the 
Department determines were not directly related to the defense of 
issues presented by such matters. Examples of services for which the 
Department will not pay include, but are not limited to:
    a. administrative claims, civil actions, or any indemnification 
proceedings against the United States on behalf of the client for any 
adverse monetary judgment, whether before or after the entry of such an 
adverse judgment;
    b. cross claims against co-defendants or counterclaims against 
plaintiff, unless the Department of Justice determines in advance of 
its filing that a counterclaim is essential to the defense of the 
employee and the employee agrees that any recovery on the counterclaim 
will be paid to the United States as a reimbursement for the costs of 
the defense of the employee;
    c. requests made under the Freedom of Information or Privacy Acts 
or civil suits against the United States under the Freedom of 
Information or Privacy Acts, or on any other basis, to secure documents 
for use in the defense of the client;
    d. any legal work that advances only the individual interests of 
the employee; and
    e. certain administrative expenses noted in paragraph number 4 
below.
    The retained attorney is free to undertake such actions as set 
forth above, but must negotiate any charges with the client and may not 
pass those charges on to the Department of Justice.
    THE ABOVE LIST IS NOT EXHAUSTIVE. The Department of Justice will 
not reimburse services deemed reasonably necessary to the defense of an 
employee if they are not in the interests of the United States.
    To avoid confusion over whether the retained attorney may bill the 
Department for a particular service under this retention agreement, the 
retained attorney should consult the Justice Department attorney 
assigned to the case, mentioned in the accompanying letter before 
undertaking the service.

2. BILLABLE HOURS
    The Department of Justice agrees to pay the retained attorney for 
any amount of time not exceeding 120 billable hours per month for 
services performed in the defense of the client. The retained attorney 
may use the services of any number of attorneys, paralegals, or legal 
assistants in his or her firm so long as the aggregate number of 
billable hours in any given month does not exceed 120 hours. The client 
is free, however, to retain the attorney, or members of the firm, to 
perform work in excess of 120 hours per month so long as the firm does 
not bill the excess charge to the Department of Justice.
    The Department will consider paying for services in excess of 120 
hours in any given month if the press of litigation (e.g., trial 
preparation) clearly necessitates the expenditure of more time. The 
retained attorney must make requests for additional compensation to the 
Department in writing in advance of such expenditures.

3. LEGAL FEES
    The Department agrees to pay the retained attorney up to $200.00 
per lawyer hour, plus expenses as described in paragraph 4 below. The 
charge for any services should not exceed the retained attorney's 
ordinary and customary charge for such services. This fee is based on 
the consideration that the retained attorney has been practicing law in 
excess of 5 years.
    In the event the retained attorney uses the services of other 
lawyers in his or her firm, or the services of a paralegal or legal 
assistant, the Department agrees to pay the following fees.
    a. Lawyer with more than 5 years practicing experience: $200.00 per 
lawyer hour
    b. Lawyer with 3-5 years of practicing experience: $160.00 per 
lawyer hour
    c. Lawyer with 0-3 years of practicing experience: $133.00 per 
lawyer hour
    d. Paralegal or legal assistant (or equivalent): $78.00 per hour.
    The Department of Justice periodically reviews the hourly rates 
paid to attorneys retained to defend Federal employees under 28 C.F.R. 
Sec. 50.16. If, during the period of this agreement, the Department 
revises the schedule of hourly rates payable in such cases, the 
Department will pay revised rates for services rendered after the 
effective date of the revision in rates.

4. EXPENSES
    While the Department will pay normal overhead expenses actually 
incurred (e.g., postage, telephone tolls, travel, transcripts), the 
retained attorney must itemize these charges. The Department will not 
accept for payment a bill that shows only a standard fee or percentage 
as ``overhead''. The retained attorney must describe, justify, and 
clear IN ADVANCE unusual or exceptionally high expenses.
    In addition, the retained attorney must describe, justify, and 
clear in advance any consultations with or retention of experts or 
expert witnesses.
    The retained attorney must secure advance approval to use computer-
assisted research that involves charges in excess of $500.00 in a given 
month.
    The retained attorney must separately justify and obtain advance 
approval for services such as printing, graphic reproduction, or 
preparation of demonstrative evidence or explanatory exhibits.
    The retained attorney must itemize and justify in-house copying 
costs exceeding $150.00 in a given month. The Department will pay up to 
a per page copying cost of $.15 per page.
    The retained attorney must itemize and justify facsimile 
transmission costs exceeding $150.00 in a given month.
    The Department will pay expenses such as secretarial overtime or 
the purchase of books only in exceptional situations. The retained 
attorney must obtain advance approval for such expenditures.
    Travel expenses may not include first class service or deluxe 
accommodations. The retained attorney may not bill time spent in travel 
unless it is used to accomplish tasks related to the litigation. The 
retained attorney must specifically identify such tasks.
    The Department will not pay for meal charges not related to out-of-
town travel. The Department will not provide compensation for client or 
other entertainment. The Department will not pay expenses for meals 
incidental to overtime.
    The Department will not pay for expenses that can normally be 
absorbed as clerical overhead, such as time spent in preparing legal 
bills and filing papers with the Court. The retained attorney must 
separately list and justify messenger services.
    The retained attorney must enumerate the expenses incurred for 
hiring local counsel by rate, hour, and kind of service. These hours 
must fall within the 120-hour monthly maximum. The hourly rates paid to 
local counsel may not exceed the rates listed in paragraph 3 above.

5. FORMAT OF BILLS
    The retained attorney must submit bills on a monthly basis, stating 
the date of each service performed; the name of the attorney or legal 
assistant performing the service; a description of the service; and the 
time in tenths, sixths, or quarters of an hour, required to perform the 
service. Because of the limitation on reimbursable hours, a bill must 
include all services rendered in a given month. The Department will not 
consider subsequent bills for services rendered in a month for which it 
has already received a bill.
    In describing the nature of the service performed, the itemization 
must reflect each litigation activity for which reimbursement is 
claimed.
    The retained attorney must attach copies of airline tickets, hotel 
bills, and bills for deposition and hearing transcripts to the billing 
statement.
    The retained attorney must itemize local mileage costs (e.g., 
purpose of travel and number of miles). The Department will pay the 
standard government cost per mile rate for the use of privately owned 
vehicles.
    Before the Department of Justice will pay a bill, Department 
attorneys with substantive knowledge of the litigation will review it. 
If the retained attorney believes that the detail of the legal bill 
would compromise litigation tactics if disclosed to Department 
attorneys assigned to the case, the retained attorney should list those 
particular billing items on a separate sheet of paper with an 
indication of the specific concern. Department attorneys uninvolved 
with this case will independently review the separated, sensitive 
portion of the bill solely to determine if payment is appropriate under 
applicable standards. The individuals reviewing the bills will not 
discuss these items with the Department of Justice attorneys having 
responsibility for the case, nor will those responsible attorneys 
review the items in question.
    After Department attorneys complete the review of a bill, the 
Department will notify the billing counsel if the Department deems any 
item or items nonreimbursable or if any item or items require further 
explanation. When further information or explanation is needed, the 
Department will hold the entire bill until the retained attorney 
responds. Only after the Department receives and reviews the response 
will the Department certify the bill in whole or in part for payment. 
For that reason, the retained attorney must respond promptly.
    Should the Department determine that any items are not reimbursable 
under this agreement, the billing counsel may request further review of 
the Department's determination. The retained attorney shall make such a 
written request to the appropriate Branch director at the address 
indicated in the forwarding letter. The billing counsel must submit 
such requests for further review within 30 days, unless additional time 
is specifically requested and approved. Thereafter, the Department will 
not reconsider its determination.

6. BILLING ADDRESS
    The retained attorney should submit all bills to:
    Director, Office of Planning, Budget and Evaluation
    Civil Division
    United States Department of Justice
    Washington, D.C. 20530
    Attn: Room 9042, L Street Building

7. PROMPT PAYMENT
    The Prompt Payment Act is applicable to payments under this 
agreement and requires the payment of interest on overdue payments. 
Determinations of interest due will be made in accordance with 
provisions of the Prompt Payment Act and Office of Management and 
Budget Circular A-125.

8. GAO REVIEW
    Periodically, the Department of Justice may ask the retained 
attorney to submit copies of time sheets to the General Accounting 
Office (GAO) for purposes of auditing the accuracy of corresponding 
monthly bills, copies of which the Department will forward directly to 
GAO.

9. TERMINATION
    The Department of Justice reserves the right to terminate its 
retention agreement with the retained attorney at any time for reasons 
set forth in 28 C.F.R. Sec. 50.16.

                               ACCEPTANCE

    I agree that my retention by the Department of Justice to represent 
James Goeke, in connection with a Special Counsel. investigation in 
United States v. Stevens, 08-cr-0231 (D.D.C.) will be in accordance 
with the applicable statutes, regulations, and the foregoing terms and 
conditions. This written instrument, together with the applicable 
statutes and regulations, represents the entire agreement between the 
Department of Justice and the undersigned, any past or future oral 
agreements notwithstanding.

     Signature: Matthew L. Menchel

     Date: September 18, 2009

     Tax Identification Number: __________
                                 ______
                                 
                                    Civil Division,
                                U.S. Department of Justice,
                                Washington, DC 20530, May 19, 2009.
Robert D. Luskin, Esq.,
Patton Boggs, 2550 M St., NW, Washington, DC 20037.

RE: Special Counsel Criminal Contempt Investigation Arising from United 
        States v. Stevens, 08-cr-0231 (D.D.C.)

    Dear Mr. Luskin: The Department of Justice has concluded that it 
reasonably appears at this time that representation of Nicholas Marsh 
in connection with a Special Counsel criminal contempt investigation in 
the above-referenced action is in the interest of the United States. It 
also appears at this time, however, that representation of Mr. Marsh by 
attorneys employed by the Department of Justice is inappropriate. Mr. 
Marsh has requested that the Department agree to reimburse you for his 
representation in this matter. Pursuant to 28 C.F.R. Sec. 50.16(c)(1), 
your reimbursement will be subject to the applicable statutes, 
regulations, and the terms and conditions set forth in the enclosed 
addendum, which is incorporated into and made a part of this agreement.
    You and Mr. Marsh should be aware that, by entering into this 
agreement, the Department of Justice in no way assumes responsibility 
on the part of the United States Government for any monetary liability 
that might be imposed against Mr. Marsh in connection with this matter. 
Although the Department of Justice has assumed responsibility for 
remunerating you in the course of representing him to the extent 
specified in the addendum, your responsibility, of course, is solely to 
your client.
    Should you have any questions concerning the terms of this 
agreement, including the enclosed addendum, please contact Attorney 
Advisor Virginia G. Lago at (202) 616-4328.
    If you find the provisions of the agreement acceptable, please 
return the signed addendum, along with your firm's tax identification 
number, to the following address:
      Virginia G. Lago, Esq.
      Torts Branch, Civil Division
      U.S. Department of Justice
      P.O. Box 7146
      Washington, DC, 20044
    In addition, enclosed you will find a copy of the ACH VENDOR Direct 
Deposit Form. Please fill out the blank areas on the form and fax the 
completed form to:
      Accounts Maintenance Unit
      Attn: Gina McLaughlin
      FAX: (202) 616-2207
    The Debt Collection Improvement Act of 1996 requires that most 
payments by the Federal Government, including vendor payments, be made 
by electronic funds transfer. If you have any questions regarding the 
delivery of remittance information, please contact the financial 
institution where your account is held. If you have any questions 
regarding completion of this form, please contact Ms. McLaughlin at 
(202) 616-8103.
    Thank you for your assistance in this matter.
            Very truly yours,
                                         Timothy P. Garren,
                                            Director, Torts Branch.

 CONDITIONS OF PRIVATE COUNSEL RETENTION BY THE DEPARTMENT OF JUSTICE 
       FOR REPRESENTATION OF CURRENT AND FORMER FEDERAL EMPLOYEES

    The following items and conditions shall apply to the retention of 
a private attorney's legal services by the Department of Justice to 
represent current and former Federal employees in civil, congressional, 
or criminal proceedings.

1. NATURE OF RETENTION
    Subject to the availability of funds, the Department of Justice 
agrees to pay an attorney, or other members of his or her firm, for 
those legal services reasonably necessitated by the defense of a 
current or former Federal employee (hereinafter ``client'') in civil, 
congressional, or criminal proceedings.
    The Department will not honor bills for services that the 
Department determines were not directly related to the defense of 
issues presented by such matters. Examples of services for which the 
Department will not pay include, but are not limited to:
    a. administrative claims, civil actions, or any indemnification 
proceedings against the United States on behalf of the client for any 
adverse monetary judgment, whether before or after the entry of such an 
adverse judgment;
    b. cross claims against co-defendants or counterclaims against 
plaintiff, unless the Department of Justice determines in advance of 
its filing that a counterclaim is essential to the defense of the 
employee and the employee agrees that any recovery on the counterclaim 
will be paid to the United States as a reimbursement for the costs of 
the defense of the employee;
    c. requests made under the Freedom of Information or Privacy Acts 
or civil suits against the United States under the Freedom of 
Information or Privacy Acts, or on any other basis, to secure documents 
for use in the defense of the client;
    d. any legal work that advances only the individual interests of 
the employee; and
    e. certain administrative expenses noted in paragraph number 4 
below.
    The retained attorney is free to undertake such actions as set 
forth above, but must negotiate any charges with the client and may not 
pass those charges on to the Department of Justice.
    THE ABOVE LIST IS NOT EXHAUSTIVE. The Department of Justice will 
not reimburse services deemed reasonably necessary to the defense of an 
employee if they are not in the interests of the United States.
    To avoid confusion over whether the retained attorney may bill the 
Department for a particular service under this retention agreement, the 
retained attorney should consult the Justice Department attorney 
assigned to the case, mentioned in the accompanying letter before 
undertaking the service.

2. BILLABLE HOURS
    The Department of Justice agrees to pay the retained attorney for 
any amount of time not exceeding 120 billable hours per month for 
services performed in the defense of the client. The retained attorney 
may use the services of any number of attorneys, paralegals, or legal 
assistants in his or her firm so long as the aggregate number of 
billable hours in any given month does not exceed 120 hours. The client 
is free, however, to retain the attorney, or members of the firm, to 
perform work in excess of 120 hours per month so long as the firm does 
not bill the excess charge to the Department of Justice.
    The Department will consider paying for services in excess of 120 
hours in any given month if the press of litigation (e.g., trial 
preparation) clearly necessitates the expenditure of more time. The 
retained attorney must make requests for additional compensation to the 
Department in writing in advance of such expenditures.

3. LEGAL FEES
    The Department agrees to pay the retained attorney up to $200.00 
per lawyer hour, plus expenses as described in paragraph 4 below. The 
charge for any services should not exceed the retained attorney's 
ordinary and customary charge for such services. This fee is based on 
the consideration that the retained attorney has been practicing law in 
excess of 5 years.
    In the event the retained attorney uses the services of other 
lawyers in his or her firm, or the services of a paralegal or legal 
assistant, the Department agrees to pay the following fees.
    a. Lawyer with more than 5 years practicing experience: $200.00 per 
lawyer hour
    b. Lawyer with 3-5 years of practicing experience: $160.00 per 
lawyer hour
    c. Lawyer with 0-3 years of practicing experience: $133.00 per 
lawyer hour
    d. Paralegal or legal assistant (or equivalent): $78.00 per hour.
    The Department of Justice periodically reviews the hourly rates 
paid to attorneys retained to defend Federal employees under 28 C.F.R. 
Sec. 50.16. If, during the period of this agreement, the Department 
revises the schedule of hourly rates payable in such cases, the 
Department will pay revised rates for services rendered after the 
effective date of the revision in rates.

4. EXPENSES
    While the Department will pay normal overhead expenses actually 
incurred (e.g., postage, telephone tolls, travel, transcripts), the 
retained attorney must itemize these charges. The Department will not 
accept for payment a bill that shows only a standard fee or percentage 
as ``overhead''. The retained attorney must describe, justify, and 
clear IN ADVANCE unusual or exceptionally high expenses.
    In addition, the retained attorney must describe, justify, and 
clear in advance any consultations with or retention of experts or 
expert witnesses.
    The retained attorney must secure advance approval to use computer-
assisted research that involves charges in excess of $500.00 in a given 
month.
    The retained attorney must separately justify and obtain advance 
approval for services such as printing, graphic reproduction, or 
preparation of demonstrative evidence or explanatory exhibits.
    The retained attorney must itemize and justify in-house copying 
costs exceeding $150.00 in a given month. The Department will pay up to 
a per page copying cost of $.15 per page.
    The retained attorney must itemize and justify facsimile 
transmission costs exceeding $150.00 in a given month.
    The Department will pay expenses such as secretarial overtime or 
the purchase of books only in exceptional situations. The retained 
attorney must obtain advance approval for such expenditures.
    Travel expenses may not include first class service or deluxe 
accommodations. The retained attorney may not bill time spent in travel 
unless it is used to accomplish tasks related to the litigation. The 
retained attorney must specifically identify such tasks.
    The Department will not pay for meal charges not related to out-of-
town travel. The Department will not provide compensation for client or 
other entertainment. The Department will not pay expenses for meals 
incidental to overtime.
    The Department will not pay for expenses that can normally be 
absorbed as clerical overhead, such as time spent in preparing legal 
bills and filing papers with the Court. The retained attorney must 
separately list and justify messenger services.
    The retained attorney must enumerate the expenses incurred for 
hiring local counsel by rate, hour, and kind of service. These hours 
must fall within the 120-hour monthly maximum. The hourly rates paid to 
local counsel may not exceed the rates listed in paragraph 3 above.

5. FORMAT OF BILLS
    The retained attorney must submit bills on a monthly basis, stating 
the date of each service performed; the name of the attorney or legal 
assistant performing the service; a description of the service; and the 
time in tenths, sixths, or quarters of an hour, required to perform the 
service. Because of the limitation on reimbursable hours, a bill must 
include all services rendered in a given month. The Department will not 
consider subsequent bills for services rendered in a month for which it 
has already received a bill.
    In describing the nature of the service performed, the itemization 
must reflect each litigation activity for which reimbursement is 
claimed.
    The retained attorney must attach copies of airline tickets, hotel 
bills, and bills for deposition and hearing transcripts to the billing 
statement.
    The retained attorney must itemize local mileage costs (e.g., 
purpose of travel and number of miles). The Department will pay the 
standard government cost per mile rate for the use of privately owned 
vehicles.
    Before the Department of Justice will pay a bill, Department 
attorneys with substantive knowledge of the litigation will review it. 
If the retained attorney believes that the detail of the legal bill 
would compromise litigation tactics if disclosed to Department 
attorneys assigned to the case, the retained attorney should list those 
particular billing items on a separate sheet of paper with an 
indication of the specific concern. Department attorneys uninvolved 
with this case will independently review the separated, sensitive 
portion of the bill solely to determine if payment is appropriate under 
applicable standards. The individuals reviewing the bills will not 
discuss these items with the Department of Justice attorneys having 
responsibility for the case, nor will those responsible attorneys 
review the items in question.
    After Department attorneys complete the review of a bill, the 
Department will notify the billing counsel if the Department deems any 
item or items nonreimbursable or if any item or items require further 
explanation. When further information or explanation is needed, the 
Department will hold the entire bill until the retained attorney 
responds. Only after the Department receives and reviews the response 
will the Department certify the bill in whole or in part for payment. 
For that reason, the retained attorney must respond promptly.
    Should the Department determine that any items are not reimbursable 
under this agreement, the billing counsel may request further review of 
the Department's determination. The retained attorney shall make such a 
written request to the appropriate Branch director at the address 
indicated in the forwarding letter. The billing counsel must submit 
such requests for further review within 30 days, unless additional time 
is specifically requested and approved. Thereafter, the Department will 
not reconsider its determination.

6. BILLING ADDRESS
    The retained attorney should submit all bills to:
    Director, Office of Planning, Budget and Evaluation
    Civil Division
    United States Department of Justice
    Washington, D.C. 20530
    Attn: Room 9042, L Street Building

7. PROMPT PAYMENT
    The Prompt Payment Act is applicable to payments under this 
agreement and requires the payment of interest on overdue payments. 
Determinations of interest due will be made in accordance with 
provisions of the Prompt Payment Act and Office of Management and 
Budget Circular A-125.

8. GAO REVIEW
    Periodically, the Department of Justice may ask the retained 
attorney to submit copies of time sheets to the General Accounting 
Office (GAO) for purposes of auditing the accuracy of corresponding 
monthly bills, copies of which the Department will forward directly to 
GAO.

9. TERMINATION
    The Department of Justice reserves the right to terminate its 
retention agreement with the retained attorney at any time for reasons 
set forth in 28 C.F.R. Sec. 50.16.

                               ACCEPTANCE

    I agree that my retention by the Department of Justice to represent 
Nicholas Marsh in connection with a Special Counsel criminal contempt 
investigation in United States v. Stevens, 08-cr-0231 (D.D.C.) will be 
in accordance with the applicable statutes, regulations, and the 
foregoing terms and conditions. This written instrument, together with 
the applicable statutes and regulations, represents the entire 
agreement between the Department of Justice and the undersigned, any 
past or future oral agreements notwithstanding.

     Signature: Robert D. Luskin

     Date: May 26, 2009

     Tax Identification Number: __________
                                 ______
                                 
                                    Civil Division,
                                U.S. Department of Justice,
                              Washington, DC 20530, April 21, 2009.
Chuck Rosenberg, Esq.,
Hogan & Hanson LLP, 555 Thirteenth Street, NW, Washington, DC 20004.

RE: Special Counsel Criminal Contempt Investigation Arising from United 
        States v. Stevens, 08-cr-0231 (D.D.C.)

    Dear Mr. Rosenberg: The Department of Justice has concluded that it 
reasonably appears at this time that representation of Brenda Morris in 
connection with a Special Counsel criminal contempt investigation in 
the above-referenced action is in the interest of the United States. It 
also appears at this time, however, that representation of Ms. Morris 
by attorneys employed by the Department of Justice is inappropriate. 
Ms. Morris has requested that the Department agree to reimburse you for 
her representation in this matter. Pursuant to 28 C.F.R. 
Sec. 50.16(c)(1), your reimbursement will be subject to the applicable 
statutes, regulations, and the terms and conditions set forth in the 
enclosed addendum, which is incorporated into and made a part of this 
agreement.
    You and Ms. Morris should be aware that, by entering into this 
agreement, the Department of Justice in no way assumes responsibility 
on the part of the United States Government for any monetary liability 
that might be imposed against Ms. Morris in connection with this 
matter. Although the Department of Justice has assumed responsibility 
for remunerating you in the course of representing her to the extent 
specified in the addendum, your responsibility, of course, is solely to 
your client.
    Should you have any questions concerning the terms of this 
agreement, including the enclosed addendum, please contact Attorney 
Advisor Virginia G. Lago at (202) 616-4328.
    If you find the provisions of the agreement acceptable, please 
return the signed addendum, along with your firm's tax identification 
number, to the following address:
      Virginia G. Lago, Esq.
      Torts Branch, Civil Division
      U.S. Department of Justice
      P.O. Box 7146
      Washington, DC, 20044
    In addition, enclosed you will find a copy of the ACH VENDOR Direct 
Deposit Form. Please fill out the blank areas on the form and fax the 
completed form to:
      Accounts Maintenance Unit
      Attn: Gina McLaughlin
      FAX: (202) 616-2207
    The Debt Collection Improvement Act of 1996 requires that most 
payments by the Federal Government, including vendor payments, be made 
by electronic funds transfer. If you have any questions regarding the 
delivery of remittance information, please contact the financial 
institution where your account is held. If you have any questions 
regarding completion of this form, please contact Ms. McLaughlin at 
(202) 616-8103.
    Thank you for your assistance in this matter.
            Very truly yours,
                                         Timothy P. Garren,
                                            Director, Torts Branch.

 CONDITIONS OF PRIVATE COUNSEL RETENTION BY THE DEPARTMENT OF JUSTICE 
       FOR REPRESENTATION OF CURRENT AND FORMER FEDERAL EMPLOYEES

    The following items and conditions shall apply to the retention of 
a private attorney's legal services by the Department of Justice to 
represent current and former Federal employees in civil, congressional, 
or criminal proceedings.

1. NATURE OF RETENTION
    Subject to the availability of funds, the Department of Justice 
agrees to pay an attorney, or other members of his or her firm, for 
those legal services reasonably necessitated by the defense of a 
current or former Federal employee (hereinafter ``client'') in civil, 
congressional, or criminal proceedings.
    The Department will not honor bills for services that the 
Department determines were not directly related to the defense of 
issues presented by such matters. Examples of services for which the 
Department will not pay include, but are not limited to:
    a. administrative claims, civil actions, or any indemnification 
proceedings against the United States on behalf of the client for any 
adverse monetary judgment, whether before or after the entry of such an 
adverse judgment;
    b. cross claims against co-defendants or counterclaims against 
plaintiff, unless the Department of Justice determines in advance of 
its filing that a counterclaim is essential to the defense of the 
employee and the employee agrees that any recovery on the counterclaim 
will be paid to the United States as a reimbursement for the costs of 
the defense of the employee;
    c. requests made under the Freedom of Information or Privacy Acts 
or civil suits against the United States under the Freedom of 
Information or Privacy Acts, or on any other basis, to secure documents 
for use in the defense of the client;
    d. any legal work that advances only the individual interests of 
the employee; and
    e. certain administrative expenses noted in paragraph number 4 
below.
    The retained attorney is free to undertake such actions as set 
forth above, but must negotiate any charges with the client and may not 
pass those charges on to the Department of Justice.
    THE ABOVE LIST IS NOT EXHAUSTIVE. The Department of Justice will 
not reimburse services deemed reasonably necessary to the defense of an 
employee if they are not in the interests of the United States.
    To avoid confusion over whether the retained attorney may bill the 
Department for a particular service under this retention agreement, the 
retained attorney should consult the Justice Department attorney 
assigned to the case, mentioned in the accompanying letter before 
undertaking the service.

2. BILLABLE HOURS
    The Department of Justice agrees to pay the retained attorney for 
any amount of time not exceeding 120 billable hours per month for 
services performed in the defense of the client. The retained attorney 
may use the services of any number of attorneys, paralegals, or legal 
assistants in his or her firm so long as the aggregate number of 
billable hours in any given month does not exceed 120 hours. The client 
is free, however, to retain the attorney, or members of the firm, to 
perform work in excess of 120 hours per month so long as the firm does 
not bill the excess charge to the Department of Justice.
    The Department will consider paying for services in excess of 120 
hours in any given month if the press of litigation (e.g., trial 
preparation) clearly necessitates the expenditure of more time. The 
retained attorney must make requests for additional compensation to the 
Department in writing in advance of such expenditures.

3. LEGAL FEES
    The Department agrees to pay the retained attorney up to $200.00 
per lawyer hour, plus expenses as described in paragraph 4 below. The 
charge for any services should not exceed the retained attorney's 
ordinary and customary charge for such services. This fee is based on 
the consideration that the retained attorney has been practicing law in 
excess of 5 years.
    In the event the retained attorney uses the services of other 
lawyers in his or her firm, or the services of a paralegal or legal 
assistant, the Department agrees to pay the following fees.
    a. Lawyer with more than 5 years practicing experience: $200.00 per 
lawyer hour
    b. Lawyer with 3-5 years of practicing experience: $160.00 per 
lawyer hour
    c. Lawyer with 0-3 years of practicing experience: $133.00 per 
lawyer hour
    d. Paralegal or legal assistant (or equivalent): $78.00 per hour.
    The Department of Justice periodically reviews the hourly rates 
paid to attorneys retained to defend Federal employees under 28 C.F.R. 
Sec. 50.16. If, during the period of this agreement, the Department 
revises the schedule of hourly rates payable in such cases, the 
Department will pay revised rates for services rendered after the 
effective date of the revision in rates.

4. EXPENSES
    While the Department will pay normal overhead expenses actually 
incurred (e.g., postage, telephone tolls, travel, transcripts), the 
retained attorney must itemize these charges. The Department will not 
accept for payment a bill that shows only a standard fee or percentage 
as ``overhead''. The retained attorney must describe, justify, and 
clear IN ADVANCE unusual or exceptionally high expenses.
    In addition, the retained attorney must describe, justify, and 
clear in advance any consultations with or retention of experts or 
expert witnesses.
    The retained attorney must secure advance approval to use computer-
assisted research that involves charges in excess of $500.00 in a given 
month.
    The retained attorney must separately justify and obtain advance 
approval for services such as printing, graphic reproduction, or 
preparation of demonstrative evidence or explanatory exhibits.
    The retained attorney must itemize and justify in-house copying 
costs exceeding $150.00 in a given month. The Department will pay up to 
a per page copying cost of $.15 per page.
    The retained attorney must itemize and justify facsimile 
transmission costs exceeding $150.00 in a given month.
    The Department will pay expenses such as secretarial overtime or 
the purchase of books only in exceptional situations. The retained 
attorney must obtain advance approval for such expenditures.
    Travel expenses may not include first class service or deluxe 
accommodations. The retained attorney may not bill time spent in travel 
unless it is used to accomplish tasks related to the litigation. The 
retained attorney must specifically identify such tasks.
    The Department will not pay for meal charges not related to out-of-
town travel. The Department will not provide compensation for client or 
other entertainment. The Department will not pay expenses for meals 
incidental to overtime.
    The Department will not pay for expenses that can normally be 
absorbed as clerical overhead, such as time spent in preparing legal 
bills and filing papers with the Court. The retained attorney must 
separately list and justify messenger services.
    The retained attorney must enumerate the expenses incurred for 
hiring local counsel by rate, hour, and kind of service. These hours 
must fall within the 120-hour monthly maximum. The hourly rates paid to 
local counsel may not exceed the rates listed in paragraph 3 above.

5. FORMAT OF BILLS
    The retained attorney must submit bills on a monthly basis, stating 
the date of each service performed; the name of the attorney or legal 
assistant performing the service; a description of the service; and the 
time in tenths, sixths, or quarters of an hour, required to perform the 
service. Because of the limitation on reimbursable hours, a bill must 
include all services rendered in a given month. The Department will not 
consider subsequent bills for services rendered in a month for which it 
has already received a bill.
    In describing the nature of the service performed, the itemization 
must reflect each litigation activity for which reimbursement is 
claimed.
    The retained attorney must attach copies of airline tickets, hotel 
bills, and bills for deposition and hearing transcripts to the billing 
statement.
    The retained attorney must itemize local mileage costs (e.g., 
purpose of travel and number of miles). The Department will pay the 
standard government cost per mile rate for the use of privately owned 
vehicles.
    Before the Department of Justice will pay a bill, Department 
attorneys with substantive knowledge of the litigation will review it. 
If the retained attorney believes that the detail of the legal bill 
would compromise litigation tactics if disclosed to Department 
attorneys assigned to the case, the retained attorney should list those 
particular billing items on a separate sheet of paper with an 
indication of the specific concern. Department attorneys uninvolved 
with this case will independently review the separated, sensitive 
portion of the bill solely to determine if payment is appropriate under 
applicable standards. The individuals reviewing the bills will not 
discuss these items with the Department of Justice attorneys having 
responsibility for the case, nor will those responsible attorneys 
review the items in question.
    After Department attorneys complete the review of a bill, the 
Department will notify the billing counsel if the Department deems any 
item or items nonreimbursable or if any item or items require further 
explanation. When further information or explanation is needed, the 
Department will hold the entire bill until the retained attorney 
responds. Only after the Department receives and reviews the response 
will the Department certify the bill in whole or in part for payment. 
For that reason, the retained attorney must respond promptly.
    Should the Department determine that any items are not reimbursable 
under this agreement, the billing counsel may request further review of 
the Department's determination. The retained attorney shall make such a 
written request to the appropriate Branch director at the address 
indicated in the forwarding letter. The billing counsel must submit 
such requests for further review within 30 days, unless additional time 
is specifically requested and approved. Thereafter, the Department will 
not reconsider its determination.

6. BILLING ADDRESS
    The retained attorney should submit all bills to:
    Director, Office of Planning, Budget and Evaluation
    Civil Division
    United States Department of Justice
    Washington, D.C. 20530
    Attn: Room 9042, L Street Building

7. PROMPT PAYMENT
    The Prompt Payment Act is applicable to payments under this 
agreement and requires the payment of interest on overdue payments. 
Determinations of interest due will be made in accordance with 
provisions of the Prompt Payment Act and Office of Management and 
Budget Circular A-125.

8. GAO REVIEW
    Periodically, the Department of Justice may ask the retained 
attorney to submit copies of time sheets to the General Accounting 
Office (GAO) for purposes of auditing the accuracy of corresponding 
monthly bills, copies of which the Department will forward directly to 
GAO.

9. TERMINATION
    The Department of Justice reserves the right to terminate its 
retention agreement with the retained attorney at any time for reasons 
set forth in 28 C.F.R. Sec. 50.16.

                               ACCEPTANCE

    I agree that my retention by the Department of Justice to represent 
Brenda Morris in connection with Special Counsel criminal contempt 
investigation in United States v. Stevens, 08-cr-0231 (D.D.C.) will be 
in accordance with the applicable statutes, regulations, and the 
foregoing terms and conditions. This written instrument, together with 
the applicable statutes and regulations, represents the entire 
agreement between the Department of Justice and the undersigned, any 
past or future oral agreements notwithstanding.

     Signature: Chuck Rosenberg

     Date: April 30, 2009

     Tax Identification Number: __________
                                 ______
                                 
                                    Civil Division,
                                U.S. Department of Justice,
                              Washington, DC 20530, April 22, 2009.
Brian M. Heberlig,
Steptoe & Johnson, 1330 Connecticut Ave., NW, Washington, DC 20036.

RE: Special Counsel Criminal Contempt Investigation Arising from United 
        States v. Stevens, 08-cr-0231 (D.D.C.)

    Dear Mr. Heberlig: The Department of Justice has concluded that it 
reasonably appears at this time that representation of Edward Sullivan 
in connection with a Special Counsel criminal contempt investigation in 
the above-referenced action is in the interest of the United States. It 
also appears at this time, however, that representation of Mr. Sullivan 
by attorneys employed by the Department of Justice is inappropriate. 
Mr. Sullivan has requested that the Department agree to reimburse you 
for his representation in this matter. Pursuant to 28 C.F.R. 
Sec. 50.16(c)(1), your reimbursement will be subject to the applicable 
statutes, regulations, and the terms and conditions set forth in the 
enclosed addendum, which is incorporated into and made a part of this 
agreement.
    You and Mr. Sullivan should be aware that, by entering into this 
agreement, the Department of Justice in no way assumes responsibility 
on the part of the United States Government for any monetary liability 
that might be imposed against Mr. Sullivan in connection with this 
matter. Although the Department of Justice has assumed responsibility 
for remunerating you in the course of representing him to the extent 
specified in the addendum, your responsibility, of course, is solely to 
your client.
    Should you have any questions concerning the terms of this 
agreement, including the enclosed addendum, please contact Attorney 
Advisor Virginia G. Lago at (202) 616-4328.
    If you find the provisions of the agreement acceptable, please 
return the signed addendum, along with your firm's tax identification 
number, to the following address:
      Virginia G. Lago, Esq.
      Torts Branch, Civil Division
      U.S. Department of Justice
      P.O. Box 7146
      Washington, DC, 20044
    In addition, enclosed you will find a copy of the ACH VENDOR Direct 
Deposit Form. Please fill out the blank areas on the form and fax the 
completed form to:
      Accounts Maintenance Unit
      Attn: Gina McLaughlin
      FAX: (202) 616-2207
    The Debt Collection Improvement Act of 1996 requires that most 
payments by the Federal Government, including vendor payments, be made 
by electronic funds transfer. If you have any questions regarding the 
delivery of remittance information, please contact the financial 
institution where your account is held. If you have any questions 
regarding completion of this form, please contact Ms. McLaughlin at 
(202) 616-8103.
    Thank you for your assistance in this matter.
            Very truly yours,
                                         Timothy P. Garren,
                                            Director, Torts Branch.

 CONDITIONS OF PRIVATE COUNSEL RETENTION BY THE DEPARTMENT OF JUSTICE 
       FOR REPRESENTATION OF CURRENT AND FORMER FEDERAL EMPLOYEES

    The following items and conditions shall apply to the retention of 
a private attorney's legal services by the Department of Justice to 
represent current and former Federal employees in civil, congressional, 
or criminal proceedings.

1. NATURE OF RETENTION
    Subject to the availability of funds, the Department of Justice 
agrees to pay an attorney, or other members of his or her firm, for 
those legal services reasonably necessitated by the defense of a 
current or former Federal employee (hereinafter ``client'') in civil, 
congressional, or criminal proceedings.
    The Department will not honor bills for services that the 
Department determines were not directly related to the defense of 
issues presented by such matters. Examples of services for which the 
Department will not pay include, but are not limited to:
    a. administrative claims, civil actions, or any indemnification 
proceedings against the United States on behalf of the client for any 
adverse monetary judgment, whether before or after the entry of such an 
adverse judgment;
    b. cross claims against co-defendants or counterclaims against 
plaintiff, unless the Department of Justice determines in advance of 
its filing that a counterclaim is essential to the defense of the 
employee and the employee agrees that any recovery on the counterclaim 
will be paid to the United States as a reimbursement for the costs of 
the defense of the employee;
    c. requests made under the Freedom of Information or Privacy Acts 
or civil suits against the United States under the Freedom of 
Information or Privacy Acts, or on any other basis, to secure documents 
for use in the defense of the client;
    d. any legal work that advances only the individual interests of 
the employee; and
    e. certain administrative expenses noted in paragraph number 4 
below.
    The retained attorney is free to undertake such actions as set 
forth above, but must negotiate any charges with the client and may not 
pass those charges on to the Department of Justice.
    THE ABOVE LIST IS NOT EXHAUSTIVE. The Department of Justice will 
not reimburse services deemed reasonably necessary to the defense of an 
employee if they are not in the interests of the United States.
    To avoid confusion over whether the retained attorney may bill the 
Department for a particular service under this retention agreement, the 
retained attorney should consult the Justice Department attorney 
assigned to the case, mentioned in the accompanying letter before 
undertaking the service.

2. BILLABLE HOURS
    The Department of Justice agrees to pay the retained attorney for 
any amount of time not exceeding 120 billable hours per month for 
services performed in the defense of the client. The retained attorney 
may use the services of any number of attorneys, paralegals, or legal 
assistants in his or her firm so long as the aggregate number of 
billable hours in any given month does not exceed 120 hours. The client 
is free, however, to retain the attorney, or members of the firm, to 
perform work in excess of 120 hours per month so long as the firm does 
not bill the excess charge to the Department of Justice.
    The Department will consider paying for services in excess of 120 
hours in any given month if the press of litigation (e.g., trial 
preparation) clearly necessitates the expenditure of more time. The 
retained attorney must make requests for additional compensation to the 
Department in writing in advance of such expenditures.

3. LEGAL FEES
    The Department agrees to pay the retained attorney up to $200.00 
per lawyer hour, plus expenses as described in paragraph 4 below. The 
charge for any services should not exceed the retained attorney's 
ordinary and customary charge for such services. This fee is based on 
the consideration that the retained attorney has been practicing law in 
excess of 5 years.
    In the event the retained attorney uses the services of other 
lawyers in his or her firm, or the services of a paralegal or legal 
assistant, the Department agrees to pay the following fees.
    a. Lawyer with more than 5 years practicing experience: $200.00 per 
lawyer hour
    b. Lawyer with 3-5 years of practicing experience: $160.00 per 
lawyer hour
    c. Lawyer with 0-3 years of practicing experience: $133.00 per 
lawyer hour
    d. Paralegal or legal assistant (or equivalent): $78.00 per hour.
    The Department of Justice periodically reviews the hourly rates 
paid to attorneys retained to defend Federal employees under 28 C.F.R. 
Sec. 50.16. If, during the period of this agreement, the Department 
revises the schedule of hourly rates payable in such cases, the 
Department will pay revised rates for services rendered after the 
effective date of the revision in rates.

4. EXPENSES
    While the Department will pay normal overhead expenses actually 
incurred (e.g., postage, telephone tolls, travel, transcripts), the 
retained attorney must itemize these charges. The Department will not 
accept for payment a bill that shows only a standard fee or percentage 
as ``overhead''. The retained attorney must describe, justify, and 
clear IN ADVANCE unusual or exceptionally high expenses.
    In addition, the retained attorney must describe, justify, and 
clear in advance any consultations with or retention of experts or 
expert witnesses.
    The retained attorney must secure advance approval to use computer-
assisted research that involves charges in excess of $500.00 in a given 
month.
    The retained attorney must separately justify and obtain advance 
approval for services such as printing, graphic reproduction, or 
preparation of demonstrative evidence or explanatory exhibits.
    The retained attorney must itemize and justify in-house copying 
costs exceeding $150.00 in a given month. The Department will pay up to 
a per page copying cost of $.15 per page.
    The retained attorney must itemize and justify facsimile 
transmission costs exceeding $150.00 in a given month.
    The Department will pay expenses such as secretarial overtime or 
the purchase of books only in exceptional situations. The retained 
attorney must obtain advance approval for such expenditures.
    Travel expenses may not include first class service or deluxe 
accommodations. The retained attorney may not bill time spent in travel 
unless it is used to accomplish tasks related to the litigation. The 
retained attorney must specifically identify such tasks.
    The Department will not pay for meal charges not related to out-of-
town travel. The Department will not provide compensation for client or 
other entertainment. The Department will not pay expenses for meals 
incidental to overtime.
    The Department will not pay for expenses that can normally be 
absorbed as clerical overhead, such as time spent in preparing legal 
bills and filing papers with the Court. The retained attorney must 
separately list and justify messenger services.
    The retained attorney must enumerate the expenses incurred for 
hiring local counsel by rate, hour, and kind of service. These hours 
must fall within the 120-hour monthly maximum. The hourly rates paid to 
local counsel may not exceed the rates listed in paragraph 3 above.

5. FORMAT OF BILLS
    The retained attorney must submit bills on a monthly basis, stating 
the date of each service performed; the name of the attorney or legal 
assistant performing the service; a description of the service; and the 
time in tenths, sixths, or quarters of an hour, required to perform the 
service. Because of the limitation on reimbursable hours, a bill must 
include all services rendered in a given month. The Department will not 
consider subsequent bills for services rendered in a month for which it 
has already received a bill.
    In describing the nature of the service performed, the itemization 
must reflect each litigation activity for which reimbursement is 
claimed.
    The retained attorney must attach copies of airline tickets, hotel 
bills, and bills for deposition and hearing transcripts to the billing 
statement.
    The retained attorney must itemize local mileage costs (e.g., 
purpose of travel and number of miles). The Department will pay the 
standard government cost per mile rate for the use of privately owned 
vehicles.
    Before the Department of Justice will pay a bill, Department 
attorneys with substantive knowledge of the litigation will review it. 
If the retained attorney believes that the detail of the legal bill 
would compromise litigation tactics if disclosed to Department 
attorneys assigned to the case, the retained attorney should list those 
particular billing items on a separate sheet of paper with an 
indication of the specific concern. Department attorneys uninvolved 
with this case will independently review the separated, sensitive 
portion of the bill solely to determine if payment is appropriate under 
applicable standards. The individuals reviewing the bills will not 
discuss these items with the Department of Justice attorneys having 
responsibility for the case, nor will those responsible attorneys 
review the items in question.
    After Department attorneys complete the review of a bill, the 
Department will notify the billing counsel if the Department deems any 
item or items nonreimbursable or if any item or items require further 
explanation. When further information or explanation is needed, the 
Department will hold the entire bill until the retained attorney 
responds. Only after the Department receives and reviews the response 
will the Department certify the bill in whole or in part for payment. 
For that reason, the retained attorney must respond promptly.
    Should the Department determine that any items are not reimbursable 
under this agreement, the billing counsel may request further review of 
the Department's determination. The retained attorney shall make such a 
written request to the appropriate Branch director at the address 
indicated in the forwarding letter. The billing counsel must submit 
such requests for further review within 30 days, unless additional time 
is specifically requested and approved. Thereafter, the Department will 
not reconsider its determination.

6. BILLING ADDRESS
    The retained attorney should submit all bills to:
    Director, Office of Planning, Budget and Evaluation
    Civil Division
    United States Department of Justice
    Washington, D.C. 20530
    Attn: Room 9042, L Street Building

7. PROMPT PAYMENT
    The Prompt Payment Act is applicable to payments under this 
agreement and requires the payment of interest on overdue payments. 
Determinations of interest due will be made in accordance with 
provisions of the Prompt Payment Act and Office of Management and 
Budget Circular A-125.

8. GAO REVIEW
    Periodically, the Department of Justice may ask the retained 
attorney to submit copies of time sheets to the General Accounting 
Office (GAO) for purposes of auditing the accuracy of corresponding 
monthly bills, copies of which the Department will forward directly to 
GAO.

9. TERMINATION
    The Department of Justice reserves the right to terminate its 
retention agreement with the retained attorney at any time for reasons 
set forth in 28 C.F.R. Sec. 50.16.

                               ACCEPTANCE

    I agree that my retention by the Department of Justice to represent 
Edward Sullivan in connection with Special Counsel criminal contempt 
investigation in United States v. Stevens, 08-cr-0231 (D.D.C.) will be 
in accordance with the applicable statutes, regulations, and the 
foregoing terms and conditions. This written instrument, together with 
the applicable statutes and regulations, represents the entire 
agreement between the Department of Justice and the undersigned, any 
past or future oral agreements notwithstanding.

     Signature: Brian M. Heberlig

     Date: April 24, 2009

     Tax Identification Number: __________
                                 ______
                                 
                                    Civil Division,
                                U.S. Department of Justice,
                              Washington, DC 20530, April 21, 2009.
William W. Taylor III,
Zuckerman Spaeder, 1800 M Street, NW, Suite 1000, Washington, DC 20036-
        5807.

RE: Special Counsel Criminal Contempt Investigation Arising from United 
        States v. Stevens, 08-cr-0231 (D.D.C.)

    Dear Mr. Taylor: The Department of Justice has concluded that it 
reasonably appears at this time that representation of William Welch in 
connection with a Special Counsel criminal contempt investigation in 
the above-referenced action is in the interest of the United States. It 
also appears at this time, however, that representation of Mr. Welch by 
attorneys employed by the Department of Justice is inappropriate. Mr. 
Welch has requested that the Department agree to reimburse you for his 
representation in this matter. Pursuant to 28 C.F.R. Sec. 50.16(c)(1), 
your reimbursement will be subject to the applicable statutes, 
regulations, and the terms and conditions set forth in the enclosed 
addendum, which is incorporated into and made a part of this agreement,
    You and Mr. Welch should be aware that, by entering into this 
agreement, the Department of Justice in no way assumes responsibility 
on the part of the United States Government for any monetary liability 
that might be imposed against Mr. Welch in connection with this matter. 
Although the Department of Justice has assumed responsibility for 
remunerating you in the course of representing him to the extent 
specified in the addendum, your responsibility, of course, is solely to 
your client.
    Should you have any questions concerning the terms of this 
agreement, including the enclosed addendum, please contact Attorney 
Advisor Virginia G. Lago at (202) 616-4328.
    If you find the provisions of the agreement acceptable, please 
return the signed addendum, along with your firm's tax identification 
number, to the following address:
      Virginia G. Lago, Esq.
      Torts Branch, Civil Division
      U.S. Department of Justice
      P.O. Box 7146
      Washington, DC, 20044
    In addition, enclosed you will find a copy of the ACH VENDOR Direct 
Deposit Form. Please fill out the blank areas on the form and fax the 
completed form to:
      Accounts Maintenance Unit
      Attn: Gina McLaughlin
      FAX: (202) 616-2207
    The Debt Collection Improvement Act of 1996 requires that most 
payments by the Federal Government, including vendor payments, be made 
by electronic funds transfer. If you have any questions regarding the 
delivery of remittance information, please contact the financial 
institution where your account is held. If you have any questions 
regarding completion of this form, please contact Ms. McLaughlin at 
(202) 616-8103.
    Thank you for your assistance in this matter.
            Very truly yours,
                                         Timothy P. Garren,
                                            Director, Torts Branch.

 CONDITIONS OF PRIVATE COUNSEL RETENTION BY THE DEPARTMENT OF JUSTICE 
       FOR REPRESENTATION OF CURRENT AND FORMER FEDERAL EMPLOYEES

    The following items and conditions shall apply to the retention of 
a private attorney's legal services by the Department of Justice to 
represent current and former Federal employees in civil, congressional, 
or criminal proceedings.

1. NATURE OF RETENTION
    Subject to the availability of funds, the Department of Justice 
agrees to pay an attorney, or other members of his or her firm, for 
those legal services reasonably necessitated by the defense of a 
current or former Federal employee (hereinafter ``client'') in civil, 
congressional, or criminal proceedings.
    The Department will not honor bills for services that the 
Department determines were not directly related to the defense of 
issues presented by such matters. Examples of services for which the 
Department will not pay include, but are not limited to:
    a. administrative claims, civil actions, or any indemnification 
proceedings against the United States on behalf of the client for any 
adverse monetary judgment, whether before or after the entry of such an 
adverse judgment;
    b. cross claims against co-defendants or counterclaims against 
plaintiff, unless the Department of Justice determines in advance of 
its filing that a counterclaim is essential to the defense of the 
employee and the employee agrees that any recovery on the counterclaim 
will be paid to the United States as a reimbursement for the costs of 
the defense of the employee;
    c. requests made under the Freedom of Information or Privacy Acts 
or civil suits against the United States under the Freedom of 
Information or Privacy Acts, or on any other basis, to secure documents 
for use in the defense of the client;
    d. any legal work that advances only the individual interests of 
the employee; and
    e. certain administrative expenses noted in paragraph number 4 
below.
    The retained attorney is free to undertake such actions as set 
forth above, but must negotiate any charges with the client and may not 
pass those charges on to the Department of Justice.
    THE ABOVE LIST IS NOT EXHAUSTIVE. The Department of Justice will 
not reimburse services deemed reasonably necessary to the defense of an 
employee if they are not in the interests of the United States.
    To avoid confusion over whether the retained attorney may bill the 
Department for a particular service under this retention agreement, the 
retained attorney should consult the Justice Department attorney 
assigned to the case, mentioned in the accompanying letter before 
undertaking the service.

2. BILLABLE HOURS
    The Department of Justice agrees to pay the retained attorney for 
any amount of time not exceeding 120 billable hours per month for 
services performed in the defense of the client. The retained attorney 
may use the services of any number of attorneys, paralegals, or legal 
assistants in his or her firm so long as the aggregate number of 
billable hours in any given month does not exceed 120 hours. The client 
is free, however, to retain the attorney, or members of the firm, to 
perform work in excess of 120 hours per month so long as the firm does 
not bill the excess charge to the Department of Justice.
    The Department will consider paying for services in excess of 120 
hours in any given month if the press of litigation (e.g., trial 
preparation) clearly necessitates the expenditure of more time. The 
retained attorney must make requests for additional compensation to the 
Department in writing in advance of such expenditures.

3. LEGAL FEES
    The Department agrees to pay the retained attorney up to $200.00 
per lawyer hour, plus expenses as described in paragraph 4 below. The 
charge for any services should not exceed the retained attorney's 
ordinary and customary charge for such services. This fee is based on 
the consideration that the retained attorney has been practicing law in 
excess of 5 years.
    In the event the retained attorney uses the services of other 
lawyers in his or her firm, or the services of a paralegal or legal 
assistant, the Department agrees to pay the following fees.
    a. Lawyer with more than 5 years practicing experience: $200.00 per 
lawyer hour
    b. Lawyer with 3-5 years of practicing experience: $160.00 per 
lawyer hour
    c. Lawyer with 0-3 years of practicing experience: $133.00 per 
lawyer hour
    d. Paralegal or legal assistant (or equivalent): $78.00 per hour.
    The Department of Justice periodically reviews the hourly rates 
paid to attorneys retained to defend Federal employees under 28 C.F.R. 
Sec. 50.16. If, during the period of this agreement, the Department 
revises the schedule of hourly rates payable in such cases, the 
Department will pay revised rates for services rendered after the 
effective date of the revision in rates.

4. EXPENSES
    While the Department will pay normal overhead expenses actually 
incurred (e.g., postage, telephone tolls, travel, transcripts), the 
retained attorney must itemize these charges. The Department will not 
accept for payment a bill that shows only a standard fee or percentage 
as ``overhead''. The retained attorney must describe, justify, and 
clear IN ADVANCE unusual or exceptionally high expenses.
    In addition, the retained attorney must describe, justify, and 
clear in advance any consultations with or retention of experts or 
expert witnesses.
    The retained attorney must secure advance approval to use computer-
assisted research that involves charges in excess of $500.00 in a given 
month.
    The retained attorney must separately justify and obtain advance 
approval for services such as printing, graphic reproduction, or 
preparation of demonstrative evidence or explanatory exhibits.
    The retained attorney must itemize and justify in-house copying 
costs exceeding $150.00 in a given month. The Department will pay up to 
a per page copying cost of $.15 per page.
    The retained attorney must itemize and justify facsimile 
transmission costs exceeding $150.00 in a given month.
    The Department will pay expenses such as secretarial overtime or 
the purchase of books only in exceptional situations. The retained 
attorney must obtain advance approval for such expenditures.
    Travel expenses may not include first class service or deluxe 
accommodations. The retained attorney may not bill time spent in travel 
unless it is used to accomplish tasks related to the litigation. The 
retained attorney must specifically identify such tasks.
    The Department will not pay for meal charges not related to out-of-
town travel. The Department will not provide compensation for client or 
other entertainment. The Department will not pay expenses for meals 
incidental to overtime.
    The Department will not pay for expenses that can normally be 
absorbed as clerical overhead, such as time spent in preparing legal 
bills and filing papers with the Court. The retained attorney must 
separately list and justify messenger services.
    The retained attorney must enumerate the expenses incurred for 
hiring local counsel by rate, hour, and kind of service. These hours 
must fall within the 120-hour monthly maximum. The hourly rates paid to 
local counsel may not exceed the rates listed in paragraph 3 above.

5. FORMAT OF BILLS
    The retained attorney must submit bills on a monthly basis, stating 
the date of each service performed; the name of the attorney or legal 
assistant performing the service; a description of the service; and the 
time in tenths, sixths, or quarters of an hour, required to perform the 
service. Because of the limitation on reimbursable hours, a bill must 
include all services rendered in a given month. The Department will not 
consider subsequent bills for services rendered in a month for which it 
has already received a bill.
    In describing the nature of the service performed, the itemization 
must reflect each litigation activity for which reimbursement is 
claimed.
    The retained attorney must attach copies of airline tickets, hotel 
bills, and bills for deposition and hearing transcripts to the billing 
statement.
    The retained attorney must itemize local mileage costs (e.g., 
purpose of travel and number of miles). The Department will pay the 
standard government cost per mile rate for the use of privately owned 
vehicles.
    Before the Department of Justice will pay a bill, Department 
attorneys with substantive knowledge of the litigation will review it. 
If the retained attorney believes that the detail of the legal bill 
would compromise litigation tactics if disclosed to Department 
attorneys assigned to the case, the retained attorney should list those 
particular billing items on a separate sheet of paper with an 
indication of the specific concern. Department attorneys uninvolved 
with this case will independently review the separated, sensitive 
portion of the bill solely to determine if payment is appropriate under 
applicable standards. The individuals reviewing the bills will not 
discuss these items with the Department of Justice attorneys having 
responsibility for the case, nor will those responsible attorneys 
review the items in question.
    After Department attorneys complete the review of a bill, the 
Department will notify the billing counsel if the Department deems any 
item or items nonreimbursable or if any item or items require further 
explanation. When further information or explanation is needed, the 
Department will hold the entire bill until the retained attorney 
responds. Only after the Department receives and reviews the response 
will the Department certify the bill in whole or in part for payment. 
For that reason, the retained attorney must respond promptly.
    Should the Department determine that any items are not reimbursable 
under this agreement, the billing counsel may request further review of 
the Department's determination. The retained attorney shall make such a 
written request to the appropriate Branch director at the address 
indicated in the forwarding letter. The billing counsel must submit 
such requests for further review within 30 days, unless additional time 
is specifically requested and approved. Thereafter, the Department will 
not reconsider its determination.

6. BILLING ADDRESS
    The retained attorney should submit all bills to:
    Director, Office of Planning, Budget and Evaluation
    Civil Division
    United States Department of Justice
    Washington, D.C. 20530
    Attn: Room 9042, L Street Building

7. PROMPT PAYMENT
    The Prompt Payment Act is applicable to payments under this 
agreement and requires the payment of interest on overdue payments. 
Determinations of interest due will be made in accordance with 
provisions of the Prompt Payment Act and Office of Management and 
Budget Circular A-125.

8. GAO REVIEW
    Periodically, the Department of Justice may ask the retained 
attorney to submit copies of time sheets to the General Accounting 
Office (GAO) for purposes of auditing the accuracy of corresponding 
monthly bills, copies of which the Department will forward directly to 
GAO.

9. TERMINATION
    The Department of Justice reserves the right to terminate its 
retention agreement with the retained attorney at any time for reasons 
set forth in 28 C.F.R. Sec. 50.16.
                               acceptance
    I agree that my retention by the Department of Justice to represent 
William Welch in connection with Special Counsel criminal contempt 
investigation in United States v. Stevens, 08-cr-0231 (D.D.C.) will be 
in accordance with the applicable statutes, regulations, and the 
foregoing terms and conditions. This written instrument, together with 
the applicable statutes and regulations, represents the entire 
agreement between the Department of Justice and the undersigned, any 
past or future oral agreements notwithstanding.

     Signature: William W. Taylor III

     Date: May 8, 2009

     Tax Identification Number: __________
                                 ______
                                 
                                    Civil Division,
                                U.S. Department of Justice,
                           Washington, DC 20530, February 27, 2009.
Chuck Rosenberg, Esq.,
Hogan & Hartson LLP, 555 Thirteenth Street, NW, Washington, DC 20004.

RE: Special Counsel Criminal Contempt Investigation Arising from United 
        States v. Stevens, 08-cr-0231 (D.D.C.)

    Dear Mr. Rosenberg: The Department of Justice has concluded that it 
reasonably appears at this time that representation of Brenda Morris in 
connection with a contempt proceeding in the above-referenced action is 
in the interest of the United States, It also appears at this time, 
however, that representation of Ms. Morris by attorneys employed by the 
Department of Justice is inappropriate. Ms. Morris has requested that 
the Department agree to reimburse you for her representation in this 
matter. Pursuant to 28 C.F.R. Sec. 50.16(c)(1), your reimbursement will 
be subject to the applicable statutes, regulations, and the terms and 
conditions set forth in the enclosed addendum, which is incorporated 
into and made a part of this agreement.
    You and Ms. Morris should be aware that, by entering into this 
agreement, the Department of Justice in no way assumes responsibility 
on the part of the United States Government for any monetary liability 
that might be imposed against Ms. Morris in connection with this 
matter. Although the Department of Justice has assumed responsibility 
for remunerating you in the course of representing her to the extent 
specified in the addendum, your responsibility, of course, is solely to 
your client.
    Should you have any questions concerning the terms of this 
agreement, including the enclosed addendum, please contact Attorney 
Advisor Virginia G. Lago at (202) 616-4328.
    If you find the provisions of the agreement acceptable, please 
return the signed addendum, along with your firm's tax identification 
number, to the following address:
      Virginia G. Lago, Esq.
      Torts Branch, Civil Division
      U.S. Department of Justice
      P.O. Box 7146
      Washington, DC, 20044
    In addition, enclosed you will find a copy of the ACH VENDOR Direct 
Deposit Form. Please fill out the blank areas on the form and fax the 
completed form to:
      Accounts Maintenance Unit
      Attn: Gina McLaughlin
      FAX: (202) 616-2207
    The Debt Collection Improvement Act of 1996 requires that most 
payments by the Federal Government, including vendor payments, be made 
by electronic funds transfer. If you have any questions regarding the 
delivery of remittance information, please contact the financial 
institution where your account is held. If you have any questions 
regarding completion of this form, please contact Ms. McLaughlin at 
(202) 616-8103.
    Thank you for your assistance in this matter.
            Very truly yours,
                                         Timothy P. Garren,
                                            Director, Torts Branch.

 CONDITIONS OF PRIVATE COUNSEL RETENTION BY THE DEPARTMENT OF JUSTICE 
       FOR REPRESENTATION OF CURRENT AND FORMER FEDERAL EMPLOYEES

    The following items and conditions shall apply to the retention of 
a private attorney's legal services by the Department of Justice to 
represent current and former Federal employees in civil, congressional, 
or criminal proceedings.

1. NATURE OF RETENTION
    Subject to the availability of funds, the Department of Justice 
agrees to pay an attorney, or other members of his or her firm, for 
those legal services reasonably necessitated by the defense of a 
current or former Federal employee (hereinafter ``client'') in civil, 
congressional, or criminal proceedings.
    The Department will not honor bills for services that the 
Department determines were not directly related to the defense of 
issues presented by such matters. Examples of services for which the 
Department will not pay include, but are not limited to:
    a. administrative claims, civil actions, or any indemnification 
proceedings against the United States on behalf of the client for any 
adverse monetary judgment, whether before or after the entry of such an 
adverse judgment;
    b. cross claims against co-defendants or counterclaims against 
plaintiff, unless the Department of Justice determines in advance of 
its filing that a counterclaim is essential to the defense of the 
employee and the employee agrees that any recovery on the counterclaim 
will be paid to the United States as a reimbursement for the costs of 
the defense of the employee;
    c. requests made under the Freedom of Information or Privacy Acts 
or civil suits against the United States under the Freedom of 
Information or Privacy Acts, or on any other basis, to secure documents 
for use in the defense of the client;
    d. any legal work that advances only the individual interests of 
the employee; and
    e. certain administrative expenses noted in paragraph number 4 
below.
    The retained attorney is free to undertake such actions as set 
forth above, but must negotiate any charges with the client and may not 
pass those charges on to the Department of Justice.
    THE ABOVE LIST IS NOT EXHAUSTIVE. The Department of Justice will 
not reimburse services deemed reasonably necessary to the defense of an 
employee if they are not in the interests of the United States.
    To avoid confusion over whether the retained attorney may bill the 
Department for a particular service under this retention agreement, the 
retained attorney should consult the Justice Department attorney 
assigned to the case, mentioned in the accompanying letter before 
undertaking the service.

2. BILLABLE HOURS
    The Department of Justice agrees to pay the retained attorney for 
any amount of time not exceeding 120 billable hours per month for 
services performed in the defense of the client. The retained attorney 
may use the services of any number of attorneys, paralegals, or legal 
assistants in his or her firm so long as the aggregate number of 
billable hours in any given month does not exceed 120 hours. The client 
is free, however, to retain the attorney, or members of the firm, to 
perform work in excess of 120 hours per month so long as the firm does 
not bill the excess charge to the Department of Justice.
    The Department will consider paying for services in excess of 120 
hours in any given month if the press of litigation (e.g., trial 
preparation) clearly necessitates the expenditure of more time. The 
retained attorney must make requests for additional compensation to the 
Department in writing in advance of such expenditures.

3. LEGAL FEES
    The Department agrees to pay the retained attorney up to $200.00 
per lawyer hour, plus expenses as described in paragraph 4 below. The 
charge for any services should not exceed the retained attorney's 
ordinary and customary charge for such services. This fee is based on 
the consideration that the retained attorney has been practicing law in 
excess of 5 years.
    In the event the retained attorney uses the services of other 
lawyers in his or her firm, or the services of a paralegal or legal 
assistant, the Department agrees to pay the following fees.
    a. Lawyer with more than 5 years practicing experience: $200.00 per 
lawyer hour
    b. Lawyer with 3-5 years of practicing experience: $160.00 per 
lawyer hour
    c. Lawyer with 0-3 years of practicing experience: $133.00 per 
lawyer hour
    d. Paralegal or legal assistant (or equivalent): $78.00 per hour.
    The Department of Justice periodically reviews the hourly rates 
paid to attorneys retained to defend Federal employees under 28 C.F.R. 
Sec. 50.16. If, during the period of this agreement, the Department 
revises the schedule of hourly rates payable in such cases, the 
Department will pay revised rates for services rendered after the 
effective date of the revision in rates.

4. EXPENSES
    While the Department will pay normal overhead expenses actually 
incurred (e.g., postage, telephone tolls, travel, transcripts), the 
retained attorney must itemize these charges. The Department will not 
accept for payment a bill that shows only a standard fee or percentage 
as ``overhead''. The retained attorney must describe, justify, and 
clear IN ADVANCE unusual or exceptionally high expenses.
    In addition, the retained attorney must describe, justify, and 
clear in advance any consultations with or retention of experts or 
expert witnesses.
    The retained attorney must secure advance approval to use computer-
assisted research that involves charges in excess of $500.00 in a given 
month.
    The retained attorney must separately justify and obtain advance 
approval for services such as printing, graphic reproduction, or 
preparation of demonstrative evidence or explanatory exhibits.
    The retained attorney must itemize and justify in-house copying 
costs exceeding $150.00 in a given month. The Department will pay up to 
a per page copying cost of $.15 per page.
    The retained attorney must itemize and justify facsimile 
transmission costs exceeding $150.00 in a given month.
    The Department will pay expenses such as secretarial overtime or 
the purchase of books only in exceptional situations. The retained 
attorney must obtain advance approval for such expenditures.
    Travel expenses may not include first class service or deluxe 
accommodations. The retained attorney may not bill time spent in travel 
unless it is used to accomplish tasks related to the litigation. The 
retained attorney must specifically identify such tasks.
    The Department will not pay for meal charges not related to out-of-
town travel. The Department will not provide compensation for client or 
other entertainment. The Department will not pay expenses for meals 
incidental to overtime.
    The Department will not pay for expenses that can normally be 
absorbed as clerical overhead, such as time spent in preparing legal 
bills and filing papers with the Court. The retained attorney must 
separately list and justify messenger services.
    The retained attorney must enumerate the expenses incurred for 
hiring local counsel by rate, hour, and kind of service. These hours 
must fall within the 120-hour monthly maximum. The hourly rates paid to 
local counsel may not exceed the rates listed in paragraph 3 above.

5. FORMAT OF BILLS
    The retained attorney must submit bills on a monthly basis, stating 
the date of each service performed; the name of the attorney or legal 
assistant performing the service; a description of the service; and the 
time in tenths, sixths, or quarters of an hour, required to perform the 
service. Because of the limitation on reimbursable hours, a bill must 
include all services rendered in a given month. The Department will not 
consider subsequent bills for services rendered in a month for which it 
has already received a bill.
    In describing the nature of the service performed, the itemization 
must reflect each litigation activity for which reimbursement is 
claimed.
    The retained attorney must attach copies of airline tickets, hotel 
bills, and bills for deposition and hearing transcripts to the billing 
statement.
    The retained attorney must itemize local mileage costs (e.g., 
purpose of travel and number of miles). The Department will pay the 
standard government cost per mile rate for the use of privately owned 
vehicles.
    Before the Department of Justice will pay a bill, Department 
attorneys with substantive knowledge of the litigation will review it. 
If the retained attorney believes that the detail of the legal bill 
would compromise litigation tactics if disclosed to Department 
attorneys assigned to the case, the retained attorney should list those 
particular billing items on a separate sheet of paper with an 
indication of the specific concern. Department attorneys uninvolved 
with this case will independently review the separated, sensitive 
portion of the bill solely to determine if payment is appropriate under 
applicable standards. The individuals reviewing the bills will not 
discuss these items with the Department of Justice attorneys having 
responsibility for the case, nor will those responsible attorneys 
review the items in question.
    After Department attorneys complete the review of a bill, the 
Department will notify the billing counsel if the Department deems any 
item or items nonreimbursable or if any item or items require further 
explanation. When further information or explanation is needed, the 
Department will hold the entire bill until the retained attorney 
responds. Only after the Department receives and reviews the response 
will the Department certify the bill in whole or in part for payment. 
For that reason, the retained attorney must respond promptly.
    Should the Department determine that any items are not reimbursable 
under this agreement, the billing counsel may request further review of 
the Department's determination. The retained attorney shall make such a 
written request to the appropriate Branch director at the address 
indicated in the forwarding letter. The billing counsel must submit 
such requests for further review within 30 days, unless additional time 
is specifically requested and approved. Thereafter, the Department will 
not reconsider its determination.

6. BILLING ADDRESS
    The retained attorney should submit all bills to:
    Director, Office of Planning, Budget and Evaluation
    Civil Division
    United States Department of Justice
    Washington, D.C. 20530
    Attn: Room 9042, L Street Building

7. PROMPT PAYMENT
    The Prompt Payment Act is applicable to payments under this 
agreement and requires the payment of interest on overdue payments. 
Determinations of interest due will be made in accordance with 
provisions of the Prompt Payment Act and Office of Management and 
Budget Circular A-125.

8. GAO REVIEW
    Periodically, the Department of Justice may ask the retained 
attorney to submit copies of time sheets to the General Accounting 
Office (GAO) for purposes of auditing the accuracy of corresponding 
monthly bills, copies of which the Department will forward directly to 
GAO.

9. TERMINATION
    The Department of Justice reserves the right to terminate its 
retention agreement with the retained attorney at any time for reasons 
set forth in 28 C.F.R. Sec. 50.16.
                               acceptance
    I agree that my retention by the Department of Justice to represent 
Brenda Morris in connection with Special Counsel criminal contempt 
investigation in United States v. Stevens, 08-cr-0231 (D.D.C.) will be 
in accordance with the applicable statutes, regulations, and the 
foregoing terms and conditions. This written instrument, together with 
the applicable statutes and regulations, represents the entire 
agreement between the Department of Justice and the undersigned, any 
past or future oral agreements notwithstanding.

     Signature: Chuck Rosenberg

     Date: March 3, 2009

     Tax Identification Number: __________
                                 ______
                                 
                                    Civil Division,
                                U.S. Department of Justice,
                           Washington, DC 20530, February 18, 2009.
Howard M. Shapiro, Esq.,
Wilmer Hale, 1875 Pennsylvania Ave., NW, Washington, DC 20006.

RE: Special Counsel Criminal Contempt Investigation Arising from United 
        States v. Stevens, 08-cr-0231 (D.D.C.)

    Dear Mr. Shapiro: The Department of Justice has concluded that it 
reasonably appears at this time that representation of Patty Merkamp 
Stemler in connection with a contempt proceeding in the above-
referenced action is in the interest of the United States. It also 
appears at this time, however, that representation of Ms. Stemler by 
attorneys employed by the Department of Justice is inappropriate. Ms. 
Stemler has requested that the Department agree to reimburse you for 
her representation in this matter. Pursuant to 28 C.F.R. 
Sec. 50.16(c)(1), your reimbursement will be subject to the applicable 
statutes, regulations, and the terms and conditions set forth in the 
enclosed addendum, which is incorporated into and made a part of this 
agreement.
    You and Ms. Stemler should be aware that, by entering into this 
agreement, the Department of Justice in no way assumes responsibility 
on the part of the United States Government for any monetary liability 
that might be imposed against Ms. Stemler in connection with this 
matter. Although the Department of Justice has assumed responsibility 
for remunerating you in the course of representing her to the extent 
specified in the addendum, your responsibility, of course, is solely to 
your client.
    Should you have any questions concerning the terms of this 
agreement, including the enclosed addendum, please contact Attorney 
Advisor Virginia G. Lago at (202) 616-4328.
    If you find the provisions of the agreement acceptable, please 
return the signed addendum, along with your firm's tax identification 
number, to the following address:
      Virginia G. Lago, Esq.
      Torts Branch, Civil Division
      U.S. Department of Justice
      P.O. Box 7146
      Washington, DC, 20044
    In addition, enclosed you will find a copy of the ACH VENDOR Direct 
Deposit Form. Please fill out the blank areas on the form and fax the 
completed form to:
      Accounts Maintenance Unit
      Attn: Gina McLaughlin
      FAX: (202) 616-2207
    The Debt Collection Improvement Act of 1996 requires that most 
payments by the Federal Government, including vendor payments, be made 
by electronic funds transfer. If you have any questions regarding the 
delivery of remittance information, please contact the financial 
institution where your account is held. If you have any questions 
regarding completion of this form, please contact Ms. McLaughlin at 
(202) 616-8103.
    Thank you for your assistance in this matter.
            Very truly yours,
                                         Timothy P. Garren,
                                            Director, Torts Branch.

 CONDITIONS OF PRIVATE COUNSEL RETENTION BY THE DEPARTMENT OF JUSTICE 
       FOR REPRESENTATION OF CURRENT AND FORMER FEDERAL EMPLOYEES

    The following items and conditions shall apply to the retention of 
a private attorney's legal services by the Department of Justice to 
represent current and former Federal employees in civil, congressional, 
or criminal proceedings.

1. NATURE OF RETENTION
    Subject to the availability of funds, the Department of Justice 
agrees to pay an attorney, or other members of his or her firm, for 
those legal services reasonably necessitated by the defense of a 
current or former Federal employee (hereinafter ``client'') in civil, 
congressional, or criminal proceedings.
    The Department will not honor bills for services that the 
Department determines were not directly related to the defense of 
issues presented by such matters. Examples of services for which the 
Department will not pay include, but are not limited to:
    a. administrative claims, civil actions, or any indemnification 
proceedings against the United States on behalf of the client for any 
adverse monetary judgment, whether before or after the entry of such an 
adverse judgment;
    b. cross claims against co-defendants or counterclaims against 
plaintiff, unless the Department of Justice determines in advance of 
its filing that a counterclaim is essential to the defense of the 
employee and the employee agrees that any recovery on the counterclaim 
will be paid to the United States as a reimbursement for the costs of 
the defense of the employee;
    c. requests made under the Freedom of Information or Privacy Acts 
or civil suits against the United States under the Freedom of 
Information or Privacy Acts, or on any other basis, to secure documents 
for use in the defense of the client;
    d. any legal work that advances only the individual interests of 
the employee; and
    e. certain administrative expenses noted in paragraph number 4 
below.
    The retained attorney is free to undertake such actions as set 
forth above, but must negotiate any charges with the client and may not 
pass those charges on to the Department of Justice.
    THE ABOVE LIST IS NOT EXHAUSTIVE. The Department of Justice will 
not reimburse services deemed reasonably necessary to the defense of an 
employee if they are not in the interests of the United States.
    To avoid confusion over whether the retained attorney may bill the 
Department for a particular service under this retention agreement, the 
retained attorney should consult the Justice Department attorney 
assigned to the case, mentioned in the accompanying letter before 
undertaking the service.

2. BILLABLE HOURS
    The Department of Justice agrees to pay the retained attorney for 
any amount of time not exceeding 120 billable hours per month for 
services performed in the defense of the client. The retained attorney 
may use the services of any number of attorneys, paralegals, or legal 
assistants in his or her firm so long as the aggregate number of 
billable hours in any given month does not exceed 120 hours. The client 
is free, however, to retain the attorney, or members of the firm, to 
perform work in excess of 120 hours per month so long as the firm does 
not bill the excess charge to the Department of Justice.
    The Department will consider paying for services in excess of 120 
hours in any given month if the press of litigation (e.g., trial 
preparation) clearly necessitates the expenditure of more time. The 
retained attorney must make requests for additional compensation to the 
Department in writing in advance of such expenditures.

3. LEGAL FEES
    The Department agrees to pay the retained attorney up to $200.00 
per lawyer hour, plus expenses as described in paragraph 4 below. The 
charge for any services should not exceed the retained attorney's 
ordinary and customary charge for such services. This fee is based on 
the consideration that the retained attorney has been practicing law in 
excess of 5 years.
    In the event the retained attorney uses the services of other 
lawyers in his or her firm, or the services of a paralegal or legal 
assistant, the Department agrees to pay the following fees.
    a. Lawyer with more than 5 years practicing experience: $200.00 per 
lawyer hour
    b. Lawyer with 3-5 years of practicing experience: $160.00 per 
lawyer hour
    c. Lawyer with 0-3 years of practicing experience: $133.00 per 
lawyer hour
    d. Paralegal or legal assistant (or equivalent): $78.00 per hour.
    The Department of Justice periodically reviews the hourly rates 
paid to attorneys retained to defend Federal employees under 28 C.F.R. 
Sec. 50.16. If, during the period of this agreement, the Department 
revises the schedule of hourly rates payable in such cases, the 
Department will pay revised rates for services rendered after the 
effective date of the revision in rates.

4. EXPENSES
    While the Department will pay normal overhead expenses actually 
incurred (e.g., postage, telephone tolls, travel, transcripts), the 
retained attorney must itemize these charges. The Department will not 
accept for payment a bill that shows only a standard fee or percentage 
as ``overhead''. The retained attorney must describe, justify, and 
clear IN ADVANCE unusual or exceptionally high expenses.
    In addition, the retained attorney must describe, justify, and 
clear in advance any consultations with or retention of experts or 
expert witnesses.
    The retained attorney must secure advance approval to use computer-
assisted research that involves charges in excess of $500.00 in a given 
month.
    The retained attorney must separately justify and obtain advance 
approval for services such as printing, graphic reproduction, or 
preparation of demonstrative evidence or explanatory exhibits.
    The retained attorney must itemize and justify in-house copying 
costs exceeding $150.00 in a given month. The Department will pay up to 
a per page copying cost of $.15 per page.
    The retained attorney must itemize and justify facsimile 
transmission costs exceeding $150.00 in a given month.
    The Department will pay expenses such as secretarial overtime or 
the purchase of books only in exceptional situations. The retained 
attorney must obtain advance approval for such expenditures.
    Travel expenses may not include first class service or deluxe 
accommodations. The retained attorney may not bill time spent in travel 
unless it is used to accomplish tasks related to the litigation. The 
retained attorney must specifically identify such tasks.
    The Department will not pay for meal charges not related to out-of-
town travel. The Department will not provide compensation for client or 
other entertainment. The Department will not pay expenses for meals 
incidental to overtime.
    The Department will not pay for expenses that can normally be 
absorbed as clerical overhead, such as time spent in preparing legal 
bills and filing papers with the Court. The retained attorney must 
separately list and justify messenger services.
    The retained attorney must enumerate the expenses incurred for 
hiring local counsel by rate, hour, and kind of service. These hours 
must fall within the 120-hour monthly maximum. The hourly rates paid to 
local counsel may not exceed the rates listed in paragraph 3 above.

5. FORMAT OF BILLS
    The retained attorney must submit bills on a monthly basis, stating 
the date of each service performed; the name of the attorney or legal 
assistant performing the service; a description of the service; and the 
time in tenths, sixths, or quarters of an hour, required to perform the 
service. Because of the limitation on reimbursable hours, a bill must 
include all services rendered in a given month. The Department will not 
consider subsequent bills for services rendered in a month for which it 
has already received a bill.
    In describing the nature of the service performed, the itemization 
must reflect each litigation activity for which reimbursement is 
claimed.
    The retained attorney must attach copies of airline tickets, hotel 
bills, and bills for deposition and hearing transcripts to the billing 
statement.
    The retained attorney must itemize local mileage costs (e.g., 
purpose of travel and number of miles). The Department will pay the 
standard government cost per mile rate for the use of privately owned 
vehicles.
    Before the Department of Justice will pay a bill, Department 
attorneys with substantive knowledge of the litigation will review it. 
If the retained attorney believes that the detail of the legal bill 
would compromise litigation tactics if disclosed to Department 
attorneys assigned to the case, the retained attorney should list those 
particular billing items on a separate sheet of paper with an 
indication of the specific concern. Department attorneys uninvolved 
with this case will independently review the separated, sensitive 
portion of the bill solely to determine if payment is appropriate under 
applicable standards. The individuals reviewing the bills will not 
discuss these items with the Department of Justice attorneys having 
responsibility for the case, nor will those responsible attorneys 
review the items in question.
    After Department attorneys complete the review of a bill, the 
Department will notify the billing counsel if the Department deems any 
item or items nonreimbursable or if any item or items require further 
explanation. When further information or explanation is needed, the 
Department will hold the entire bill until the retained attorney 
responds. Only after the Department receives and reviews the response 
will the Department certify the bill in whole or in part for payment. 
For that reason, the retained attorney must respond promptly.
    Should the Department determine that any items are not reimbursable 
under this agreement, the billing counsel may request further review of 
the Department's determination. The retained attorney shall make such a 
written request to the appropriate Branch director at the address 
indicated in the forwarding letter. The billing counsel must submit 
such requests for further review within 30 days, unless additional time 
is specifically requested and approved. Thereafter, the Department will 
not reconsider its determination.

6. BILLING ADDRESS
    The retained attorney should submit all bills to:
    Director, Office of Planning, Budget and Evaluation
    Civil Division
    United States Department of Justice
    Washington, D.C. 20530
    Attn: Room 9042, L Street Building

7. PROMPT PAYMENT
    The Prompt Payment Act is applicable to payments under this 
agreement and requires the payment of interest on overdue payments. 
Determinations of interest due will be made in accordance with 
provisions of the Prompt Payment Act and Office of Management and 
Budget Circular A-125.

8. GAO REVIEW
    Periodically, the Department of Justice may ask the retained 
attorney to submit copies of time sheets to the General Accounting 
Office (GAO) for purposes of auditing the accuracy of corresponding 
monthly bills, copies of which the Department will forward directly to 
GAO.

9. TERMINATION
    The Department of Justice reserves the right to terminate its 
retention agreement with the retained attorney at any time for reasons 
set forth in 28 C.F.R. Sec. 50.16.
                               acceptance
    I agree that my retention by the Department of Justice to represent 
Patty Merkamp Stemler in connection with Special Counsel criminal 
contempt investigation in United States v. Stevens, 08-cr-0231 (D.D.C.) 
will be in accordance with the applicable statutes, regulations, and 
the foregoing terms and conditions. This written instrument, together 
with the applicable statutes and regulations, represents the entire 
agreement between the Department of Justice and the undersigned, any 
past or future oral agreements notwithstanding.

     Signature: Howard M. Shapiro

     Date: February 19, 2009

     Tax Identification Number: __________
                                 ______
                                 
                                    Civil Division,
                                U.S. Department of Justice,
                           Washington, DC 20530, February 18, 2009.
Mark H. Lynch, Esq.,
Covington & Burling, 1201 Pennsylvania Ave., NW, Washington, DC 20004.

RE: Special Counsel Criminal Contempt Investigation Arising from United 
        States v. Stevens, 08-cr-0231 (D.D.C.)

    Dear Mr. Lynch: The Department of Justice has concluded that it 
reasonably appears at this time that representation of William Welch in 
connection with a contempt proceeding in the above-referenced action is 
in the interest of the United States. It also appears at this time, 
however, that representation of Mr. Welch by attorneys employed by the 
Department of Justice is inappropriate. Mr. Welch has requested that 
the Department agree to reimburse you for his representation in this 
matter. Pursuant to 28 C.F.R. Sec. 50.16(c)(1), your reimbursement will 
be subject to the applicable statutes, regulations, and the terms and 
conditions set forth in the enclosed addendum, which is incorporated 
into and made a part of this agreement.
    You and Mr. Welch should be aware that, by entering into this 
agreement, the Department of Justice in no way assumes responsibility 
on the part of the United States Government for any monetary liability 
that might be imposed against Mr. Welch in connection with this matter. 
Although the Department of Justice has assumed responsibility for 
remunerating you in the course of representing him to the extent 
specified in the addendum, your responsibility, of course, is solely to 
your client.
    Should you have any questions concerning the terms of this 
agreement, including the enclosed addendum, please contact Attorney 
Advisor Virginia G. Lago at (202) 616-4328.
    If you find the provisions of the agreement acceptable, please 
return the signed addendum, along with your firm's tax identification 
number, to the following address:
      Virginia G. Lago, Esq.
      Torts Branch, Civil Division
      U.S. Department of Justice
      P.O. Box 7146
      Washington, DC, 20044
    In addition, enclosed you will find a copy of the ACH VENDOR Direct 
Deposit Form. Please fill out the blank areas on the form and fax the 
completed form to:
      Accounts Maintenance Unit
      Attn: Gina McLaughlin
      FAX: (202) 616-2207
    The Debt Collection Improvement Act of 1996 requires that most 
payments by the Federal Government, including vendor payments, be made 
by electronic funds transfer. If you have any questions regarding the 
delivery of remittance information, please contact the financial 
institution where your account is held. If you have any questions 
regarding completion of this form, please contact Ms. McLaughlin at 
(202) 616-8103.
    Thank you for your assistance in this matter.
            Very truly yours,
                                         Timothy P. Garren,
                                            Director, Torts Branch.

 CONDITIONS OF PRIVATE COUNSEL RETENTION BY THE DEPARTMENT OF JUSTICE 
       FOR REPRESENTATION OF CURRENT AND FORMER FEDERAL EMPLOYEES

    The following items and conditions shall apply to the retention of 
a private attorney's legal services by the Department of Justice to 
represent current and former Federal employees in civil, congressional, 
or criminal proceedings.

1. NATURE OF RETENTION
    Subject to the availability of funds, the Department of Justice 
agrees to pay an attorney, or other members of his or her firm, for 
those legal services reasonably necessitated by the defense of a 
current or former Federal employee (hereinafter ``client'') in civil, 
congressional, or criminal proceedings.
    The Department will not honor bills for services that the 
Department determines were not directly related to the defense of 
issues presented by such matters. Examples of services for which the 
Department will not pay include, but are not limited to:
    a. administrative claims, civil actions, or any indemnification 
proceedings against the United States on behalf of the client for any 
adverse monetary judgment, whether before or after the entry of such an 
adverse judgment;
    b. cross claims against co-defendants or counterclaims against 
plaintiff, unless the Department of Justice determines in advance of 
its filing that a counterclaim is essential to the defense of the 
employee and the employee agrees that any recovery on the counterclaim 
will be paid to the United States as a reimbursement for the costs of 
the defense of the employee;
    c. requests made under the Freedom of Information or Privacy Acts 
or civil suits against the United States under the Freedom of 
Information or Privacy Acts, or on any other basis, to secure documents 
for use in the defense of the client;
    d. any legal work that advances only the individual interests of 
the employee; and
    e. certain administrative expenses noted in paragraph number 4 
below.
    The retained attorney is free to undertake such actions as set 
forth above, but must negotiate any charges with the client and may not 
pass those charges on to the Department of Justice.
    THE ABOVE LIST IS NOT EXHAUSTIVE. The Department of Justice will 
not reimburse services deemed reasonably necessary to the defense of an 
employee if they are not in the interests of the United States.
    To avoid confusion over whether the retained attorney may bill the 
Department for a particular service under this retention agreement, the 
retained attorney should consult the Justice Department attorney 
assigned to the case, mentioned in the accompanying letter before 
undertaking the service.

2. BILLABLE HOURS
    The Department of Justice agrees to pay the retained attorney for 
any amount of time not exceeding 120 billable hours per month for 
services performed in the defense of the client. The retained attorney 
may use the services of any number of attorneys, paralegals, or legal 
assistants in his or her firm so long as the aggregate number of 
billable hours in any given month does not exceed 120 hours. The client 
is free, however, to retain the attorney, or members of the firm, to 
perform work in excess of 120 hours per month so long as the firm does 
not bill the excess charge to the Department of Justice.
    The Department will consider paying for services in excess of 120 
hours in any given month if the press of litigation (e.g., trial 
preparation) clearly necessitates the expenditure of more time. The 
retained attorney must make requests for additional compensation to the 
Department in writing in advance of such expenditures.

3. LEGAL FEES
    The Department agrees to pay the retained attorney up to $200.00 
per lawyer hour, plus expenses as described in paragraph 4 below. The 
charge for any services should not exceed the retained attorney's 
ordinary and customary charge for such services. This fee is based on 
the consideration that the retained attorney has been practicing law in 
excess of 5 years.
    In the event the retained attorney uses the services of other 
lawyers in his or her firm, or the services of a paralegal or legal 
assistant, the Department agrees to pay the following fees.
    a. Lawyer with more than 5 years practicing experience: $200.00 per 
lawyer hour
    b. Lawyer with 3-5 years of practicing experience: $160.00 per 
lawyer hour
    c. Lawyer with 0-3 years of practicing experience: $133.00 per 
lawyer hour
    d. Paralegal or legal assistant (or equivalent): $78.00 per hour.
    The Department of Justice periodically reviews the hourly rates 
paid to attorneys retained to defend Federal employees under 28 C.F.R. 
Sec. 50.16. If, during the period of this agreement, the Department 
revises the schedule of hourly rates payable in such cases, the 
Department will pay revised rates for services rendered after the 
effective date of the revision in rates.

4. EXPENSES
    While the Department will pay normal overhead expenses actually 
incurred (e.g., postage, telephone tolls, travel, transcripts), the 
retained attorney must itemize these charges. The Department will not 
accept for payment a bill that shows only a standard fee or percentage 
as ``overhead''. The retained attorney must describe, justify, and 
clear IN ADVANCE unusual or exceptionally high expenses.
    In addition, the retained attorney must describe, justify, and 
clear in advance any consultations with or retention of experts or 
expert witnesses.
    The retained attorney must secure advance approval to use computer-
assisted research that involves charges in excess of $500.00 in a given 
month.
    The retained attorney must separately justify and obtain advance 
approval for services such as printing, graphic reproduction, or 
preparation of demonstrative evidence or explanatory exhibits.
    The retained attorney must itemize and justify in-house copying 
costs exceeding $150.00 in a given month. The Department will pay up to 
a per page copying cost of $.15 per page.
    The retained attorney must itemize and justify facsimile 
transmission costs exceeding $150.00 in a given month.
    The Department will pay expenses such as secretarial overtime or 
the purchase of books only in exceptional situations. The retained 
attorney must obtain advance approval for such expenditures.
    Travel expenses may not include first class service or deluxe 
accommodations. The retained attorney may not bill time spent in travel 
unless it is used to accomplish tasks related to the litigation. The 
retained attorney must specifically identify such tasks.
    The Department will not pay for meal charges not related to out-of-
town travel. The Department will not provide compensation for client or 
other entertainment. The Department will not pay expenses for meals 
incidental to overtime.
    The Department will not pay for expenses that can normally be 
absorbed as clerical overhead, such as time spent in preparing legal 
bills and filing papers with the Court. The retained attorney must 
separately list and justify messenger services.
    The retained attorney must enumerate the expenses incurred for 
hiring local counsel by rate, hour, and kind of service. These hours 
must fall within the 120-hour monthly maximum. The hourly rates paid to 
local counsel may not exceed the rates listed in paragraph 3 above.

5. FORMAT OF BILLS
    The retained attorney must submit bills on a monthly basis, stating 
the date of each service performed; the name of the attorney or legal 
assistant performing the service; a description of the service; and the 
time in tenths, sixths, or quarters of an hour, required to perform the 
service. Because of the limitation on reimbursable hours, a bill must 
include all services rendered in a given month. The Department will not 
consider subsequent bills for services rendered in a month for which it 
has already received a bill.
    In describing the nature of the service performed, the itemization 
must reflect each litigation activity for which reimbursement is 
claimed.
    The retained attorney must attach copies of airline tickets, hotel 
bills, and bills for deposition and hearing transcripts to the billing 
statement.
    The retained attorney must itemize local mileage costs (e.g., 
purpose of travel and number of miles). The Department will pay the 
standard government cost per mile rate for the use of privately owned 
vehicles.
    Before the Department of Justice will pay a bill, Department 
attorneys with substantive knowledge of the litigation will review it. 
If the retained attorney believes that the detail of the legal bill 
would compromise litigation tactics if disclosed to Department 
attorneys assigned to the case, the retained attorney should list those 
particular billing items on a separate sheet of paper with an 
indication of the specific concern. Department attorneys uninvolved 
with this case will independently review the separated, sensitive 
portion of the bill solely to determine if payment is appropriate under 
applicable standards. The individuals reviewing the bills will not 
discuss these items with the Department of Justice attorneys having 
responsibility for the case, nor will those responsible attorneys 
review the items in question.
    After Department attorneys complete the review of a bill, the 
Department will notify the billing counsel if the Department deems any 
item or items nonreimbursable or if any item or items require further 
explanation. When further information or explanation is needed, the 
Department will hold the entire bill until the retained attorney 
responds. Only after the Department receives and reviews the response 
will the Department certify the bill in whole or in part for payment. 
For that reason, the retained attorney must respond promptly.
    Should the Department determine that any items are not reimbursable 
under this agreement, the billing counsel may request further review of 
the Department's determination. The retained attorney shall make such a 
written request to the appropriate Branch director at the address 
indicated in the forwarding letter. The billing counsel must submit 
such requests for further review within 30 days, unless additional time 
is specifically requested and approved. Thereafter, the Department will 
not reconsider its determination.

6. BILLING ADDRESS
    The retained attorney should submit all bills to:
    Director, Office of Planning, Budget and Evaluation
    Civil Division
    United States Department of Justice
    Washington, D.C. 20530
    Attn: Room 9042, L Street Building

7. PROMPT PAYMENT
    The Prompt Payment Act is applicable to payments under this 
agreement and requires the payment of interest on overdue payments. 
Determinations of interest due will be made in accordance with 
provisions of the Prompt Payment Act and Office of Management and 
Budget Circular A-125.

8. GAO REVIEW
    Periodically, the Department of Justice may ask the retained 
attorney to submit copies of time sheets to the General Accounting 
Office (GAO) for purposes of auditing the accuracy of corresponding 
monthly bills, copies of which the Department will forward directly to 
GAO.

9. TERMINATION
    The Department of Justice reserves the right to terminate its 
retention agreement with the retained attorney at any time for reasons 
set forth in 28 C.F.R. Sec. 50.16.
                               acceptance
    I agree that my retention by the Department of Justice to represent 
William Welch in connection with Special Counsel criminal contempt 
investigation in United States v. Stevens, 08-cr-0231 (D.D.C.) will be 
in accordance with the applicable statutes, regulations, and the 
foregoing terms and conditions. This written instrument, together with 
the applicable statutes and regulations, represents the entire 
agreement between the Department of Justice and the undersigned, any 
past or future oral agreements notwithstanding.

     Signature: Mark H. Lynch

     Date: February 24, 2009

     Tax Identification Number: __________

    Question. Did the Justice Department have any role in the selection 
of private counsel retained to represent its prosecutors? If so, how 
was this role exercised?
    Answer. The Department of Justice, upon determining that private 
counsel should be provided, informs the employees to contact private 
counsel of their choosing. If an employee is having difficulty in doing 
so, the Department will attempt to assist the employee in finding 
counsel. Once the employee selects counsel, the terms of retention as 
outlined in our standard retention letter and agreement are explained 
and, if private counsel agrees to the terms regarding reimbursement, he 
or she signs and returns the retention agreement to the Civil Division.
    Question. What cost controls, if any, were imposed on the private 
counsel retained to represent the Department prosecutors?
    Answer. Cost controls are specified in the retention agreement and 
Civil Division Directive 2120A (see Attachment 2). The retention 
agreement used by the Department requires the submission of detailed 
monthly bills, provides for GAO audit of the private attorney time 
sheets, places a maximum limit on the attorney's billable hours per 
month (however the agreement also provides that we will consider paying 
more if the press of litigation clearly necessitates the expenditure of 
more time), limits the maximum hourly fee that may be charged, and 
limits the services for which the private attorney will be compensated 
to those directly associated with the litigation. As noted above, the 
hourly rates are set based on the attorney's experience and are well 
below--and in some cases less than 50 percent of--the rates that the 
Department uses when determining rates to pay prevailing parties 
against it in Washington, DC, under the Equal Access to Justice Act.

                             Attachment #2

 [U.S. Department of Justice, Civil Division, Administrative Directive 
                               CIV 2120A]

                Retention and Payment of Private Counsel
                                                        May 1, 2002
Subject: Retention and Payment of Private Counsel

1. PURPOSE.
    This directive sets forth the procedures for entering into 
agreements to retain private counsel to represent Federal employees at 
Federal expense and the procedures for paying private counsel fees and 
expenses.

2. SCOPE.
    The provisions of this directive apply to all branches, staffs, and 
offices within the Civil Division.

3. DEFINITIONS.
    a. A Private Counsel is a private attorney with whom the Department 
of Justice has entered into an agreement regarding compensation for the 
representation of a person, persons, or an entity being sued, 
prosecuted, or subpoenaed for acts performed in the service of the 
United States where the Department has determined that such 
representation is in the interest of the United States. The Department 
may enter into such compensation agreements with private counsel in any 
instance described in 28 C.F.R. Sec. 50.15. Under the authority of 28 
U.S.C. Sec. 517, the Department may also enter into such agreements 
with private counsel for the representation of a person, persons, or 
entity in circumstances similar to those described in 28 C.F.R. 
Sec. 50.15.
    b. The Assigned Attorney, or the ``Department attorney assigned,'' 
refers to the Civil Division attorney having assigned responsibility 
for the case and not to the Assistant United States Attorney who may be 
handling the case in the local district.
    c. An ``Employee,'' for the purposes of this directive, is a 
present or former employee of the United States or any other person or 
entity to whom or to which the Civil Division extends representation 
under the authority of 28 U.S.C. Sec. 517.

4. AUTHORITY.
    28 C.F.R. Sec. 50.16(b) gives the Assistant Attorney General of the 
Civil Division the responsibility for establishing procedures for the 
retention of private counsel, including the setting of fee schedules. 
28 C.F.R. Sec. 50.16(a) makes the retention of private counsel subject 
to the availability of funds.

5. POLICY.
    a. Department attorneys responsible for cases involving the 
retention of private counsel will determine from the Civil Division's 
Office of Planning, Budget, and Evaluation if funding is available for 
estimated private counsel costs PRIOR to submitting the formal request 
for authorization to enter into a private counsel retention agreement.
    b. Once the Assistant Attorney General authorizes a private counsel 
representation agreement in accordance with 28 C.F.R. Sec. Sec. 50.15 
and 50.16, the Department of Justice will, SUBJECT TO THE AVAILABILITY 
OF APPROPRIATIONS, pay a private attorney, or other members of the 
attorney's firm, for those legal services reasonably necessary in the 
defense of a current or former Federal employee in civil, 
congressional, or criminal proceedings. The Department will not pay for 
services that it determines are not directly related to the defense of 
issues such matters present. Additionally, the Department will not pay 
for services, even if they are directly related to the defense of those 
issues, if the Department determines that the services are not in the 
best interests of the United States. The Department will not pay for 
services that advance only the interest of the employee.

6. RESPONSIBILITIES.
    a. The Assistant Attorney General, Civil Division, authorizes the 
representation of private counsel and determines what steps the 
Division will take when representation is warranted but funds are not 
available for it. The Assistant Attorney General may delegate these 
responsibilities to another appropriate Division official (a designee).
    b. The Deputy Assistant Attorney General for the Torts Branch 
reviews and authorizes requests for additional private counsel hours 
and unusual private counsel expenses in cases that are the 
responsibility of other litigating divisions within the Department. He 
or she also decides whether the Department will reimburse an employee 
for previously incurred private counsel expenses.
    c. Directors of the Civil Division's branches, offices, and staffs 
(hereinafter ``Directors'') send decision memoranda to the Assistant 
Attorney General (or designee) requesting authority to enter into 
retention agreements with private counsel and forward Memoranda for the 
File authorizing such agreements. They may sign letters presenting 
retention agreements to private counsel when the Assistant Attorney 
General has authorized retention of private counsel. They also review 
and decide routine private counsel billing disputes and requests for 
additional private counsel hours and costs after the assigned case 
reviewer has informed the private counsel of the Department's 
disallowance of a fee or expense. Directors refer such disputes to the 
appropriate Deputy Assistant Attorney General to review and decide the 
issues when the nature or expense of the case suggests the need to do 
so.
    d. Reviewers for cases involving retained private counsel examine 
bills received from those counsel and certify them for payment, after 
review by the assigned attorney. Where the reviewer determines that the 
Department cannot pay for certain items as submitted, the reviewer 
informs the private counsel in writing of the Department's 
determination and of the private counsel's right to seek a 
redetermination from the appropriate Director.
    e. Attorneys assigned to cases involving requests for private 
counsel estimate the costs of private counsel, inquire about the 
availability of funds for private counsel costs, prepare requests to 
enter into private counsel retention agreements, secure the actual 
agreement with private counsel, request the obligation of funds, 
suggest the deobligation of funds, submit all related documentation for 
processing, and review and certify private counsel bills for payment.
    f. The Office of Planning, Budget, and Evaluation (OPBE), Civil 
Division, determines the availability of funds for private counsel, 
obligates and deobligates funds for the payment of private counsel, 
reviews bills for payment from private counsel, and arranges for the 
payment of private counsel from the U.S. Treasury.

7. PROCEDURES.
    a. Obtaining Authorization For Private Counsel Retention 
Agreements.
      (1) Determining the Availability of Funds. Unless the retention 
        of private counsel is clearly unwarranted under 28 C.F.R. 
        Sec. 50.16, attorneys responsible for cases in which the 
        possibility of representation arises must DETERMINE THE 
        AVAILABILITY OF FUNDS for any potential private counsel 
        retention agreement BEFORE SEEKING APPROVAL to enter into any 
        such agreement.
        (a) The attorney must estimate the cost of a private counsel 
            for the fiscal year based on the kind of services needed, 
            the schedule of fees, and the approximate number of hours 
            to be worked.
        (b) The attorney should send a memorandum to the Director of 
            OPBE inquiring about the availability of funds for the 
            estimated private counsel costs.
        (c) OPBE will determine whether sufficient funds are available 
            to enter into a retention agreement and will notify the 
            attorney accordingly in writing. If funds are available, 
            OPBE will commit to the case the amount estimated for the 
            current fiscal year and will simultaneously reduce funding 
            availability by the amount of the estimate. OPBE will 
            obligate funds following the execution of a retention 
            agreement (see section 7.c.). OPBE will establish monthly 
            reports tracking availability, commitments, obligations, 
            and payments by Branch.
      (2) Requesting Authorization for Private Counsel Retention 
        Agreements.
        (a) After the attorney determines the availability of funds 
            from OPBE, the attorney's Director will send a memorandum 
            to the Assistant Attorney General (or designee) to obtain a 
            decision on the retention of private counsel for the case. 
            The memorandum will recommend whether to retain private 
            counsel; will recommend, if appropriate, the private 
            counsel to be retained; and will forward the supporting 
            documentation necessary for the Assistant Attorney General 
            (or designee) to make a decision. THE MEMORANDUM MUST 
            TRANSMIT:
                  1. a written verification from OPBE that the Civil 
                Division either has or does not have sufficient funds 
                to pay for the estimated private counsel costs. In 
                emergency situations, the memorandum may report an oral 
                verification from OPBE, with the written verification 
                for the record submitted later.
                  2. a Memorandum for the File, for the signature of 
                the Assistant Attorney General (or designee), that will 
                authorize the retention of private counsel and will 
                approve the attorney to be retained (see Exhibit 1 for 
                sample Memorandum for the File).
        (b) The Assistant Attorney General (or designee) will consider 
            the availability of funds in determining whether to 
            authorize private counsel pursuant to 28 C.F.R. Sec. 50.16. 
            When private counsel representation is warranted and 
            sufficient funds are not available, the Assistant Attorney 
            General (or designee) may direct the Division to seek 
            additional funding from the Justice Management Division. 
            After signing the Memorandum for the File authorizing the 
            proposed retention of private counsel, the Assistant 
            Attorney General (or designee) will forward it to the 
            originating Director, who will return it to the originating 
            attorney.
    b. Establishing Private Counsel Retention Agreements. Where the 
Assistant Attorney General (or designee) approves the retention of 
private counsel, the private counsel must sign a formal retention 
agreement that sets forth the terms and conditions of the 
representation. This written agreement will describe the legal fees and 
expenses that the government agrees to pay and the format and frequency 
of the bills that the private counsel will submit for payment.
    Once the attorney receives the signed Memorandum for the File 
authorizing the retention of private counsel, the attorney will prepare 
the formal retention agreement, with a transmitting letter for the 
signature of the attorney's Director. After the Director signs the 
forwarding letter, the attorney will send these documents to the 
private counsel for signature. Exhibit 2 is a sample forwarding letter 
with the formal retention agreement.
    THE PRIVATE COUNSEL MUST SIGN AND RETURN THE AGREEMENT TO THE 
DEPARTMENT ATTORNEY ASSIGNED TO THE CASE BEFORE THE GOVERNMENT CAN PAY 
FOR ANY SERVICES.
    c. Establishing an Obligation for Retained Private Counsel. Once 
the assigned attorney receives the signed agreement from the private 
counsel, the attorney will prepare and send a memorandum to OPBE 
requesting the establishment of a financial obligation for the 
estimated costs of the private counsel (see the sample memorandum in 
Exhibit 3). In this memorandum, the attorney will estimate the total 
cost of the legal fees and expenses under the agreement. If the 
attorney anticipates that the case will require the private counsel's 
services longer than the current fiscal year, the memorandum should 
provide an estimate for each fiscal year. The attorney must attach to 
this memorandum:
      (1) a copy of the Memorandum for the File authorizing the 
        retention of private counsel;
      (2) the signed retention agreement and forwarding letter; and
      (3) OPBE's original written certification of the availability of 
        funds for the agreement. After receiving the memorandum 
        requesting an obligation with these supporting documents, OPBE 
        will obligate funds for the payment of private counsel costs.
    d. Deobligating Funds. The assigned attorney will closely monitor 
the progress of the case and will promptly notify OPBE when the case 
concludes or when the need for private counsel ends. Thereupon, OPBE 
and the attorney will assess the total and expected payments, and, if 
surplus funds remain obligated for the case, OPBE will deobligate those 
funds so that they will be available for other requests for private 
counsel representation.
    e. Payment of Private Counsel Bills.
      (1) The retained private counsel must seek Department approval 
        for any additional hours of service or any unusual expenditures 
        not specifically allowed in the retention agreement BEFORE 
        undertaking such services or incurring such expenses. The 
        private counsel will make written request for authorization to 
        the Department attorney assigned to the case. The assigned 
        attorney, in consultation with the assigned case reviewer, will 
        convey the Department's decision by letter to the retained 
        private counsel.
      In cases that are the responsibility of other litigating 
        divisions of the Department, the Deputy Assistant Attorney 
        General for the Torts Branch will review and authorize requests 
        for additional hours or unusual costs.
      (2) Private counsel will submit bills on a monthly basis to the 
        Director of OPBE for processing and payment.
      (3) OPBE will route the bill to appropriate individuals for 
        review prior to payment. OPBE will attach a cover sheet to the 
        bill with delineated spaces or blocks for each individual in 
        the review process and a schedule for processing the bill at 
        each stage of review. Each reviewer will enter the results of 
        his or her review and will endorse the appropriate space on the 
        cover sheet.
      (4) OPBE will examine each bill to ensure its consistency with 
        the financial conditions of the retention agreement (billable 
        hours, legal fees, expenses, etc.) and the accuracy of the 
        mathematical calculations. OPBE will not examine the necessity 
        or reasonableness of any service. OPBE will certify the 
        correctness of the bill for the items within the scope of its 
        review or will note any discrepancies it discovers.
      (5) OPBE will forward the bills, with the above certification or 
        notation of discrepancies, to the assigned attorney for review 
        and certification for payment. OPBE will not forward those 
        billing items that the retained private counsel has indicated 
        might compromise litigation tactics if disclosed to assigned 
        Department attorneys, pursuant to paragraph 5 of the addendum 
        to the retention agreement. In these instances, the Director 
        responsible for the case will identify uninvolved Department 
        attorneys who will independently review those sensitive 
        portions of the bill directly for OPBE.
      On receiving the bill, the attorney will review and then certify, 
        if appropriate, the necessity and reasonableness of the 
        services indicated and will forward the bill to the assigned 
        case reviewer for his or her certification. The assigned case 
        reviewer will then sign the bill, if appropriate, and return it 
        to OPBE for payment.
      (6) Once the appropriate parties have properly reviewed and 
        certified the bill as payable, OPBE will submit it for payment 
        to the U.S. Treasury, through the Justice Management Division.
      (7) Should this review process uncover any discrepancies or 
        nonreimbursable items, the assigned attorney will prepare a 
        letter for the signature of the assigned case reviewer to 
        inform the private counsel of the items not payable as 
        presented and to explain the reasons. The letter should ask the 
        private counsel to submit either a revised bill or an 
        explanation of any item for which information is insufficient 
        to determine if the item is payable. The assigned case reviewer 
        will forward a copy of the signed letter with the disputed bill 
        to OPBE.
      Should the private counsel contest the disallowance of any items 
        that the Department will not pay, the private counsel may 
        submit a request for reconsideration to the appropriate 
        Director, who will decide the matter for the Department and 
        will inform the private counsel of the decision by letter.
      (8) THE PROMPT PAYMENT ACT REQUIRES THE PAYMENT OF PRIVATE 
        COUNSEL BILLS WITHIN 30 DAYS OF RECEIPT AND THE NOTIFICATION OF 
        ANY DEFECTS IN BILLS WITHIN 7 DAYS OF RECEIPT IN THE CIVIL 
        DIVISION. FAILURE TO ADHERE TO THESE TIME REQUIREMENTS MAY 
        RESULT IN THE ASSESSMENT OF INTEREST PENALTIES. To avoid the 
        possible assessment of interest penalties, OPBE will complete 
        its initial review of private counsel bills and will forward 
        them to the assigned attorney within 3 days of their receipt. 
        Within 3 days of receiving the bill from OPBE, the assigned 
        attorney will ensure the complete certification of the bill for 
        payment and will return it to OPBE or will ensure the posting 
        of a letter to the private counsel concerning defects in the 
        bill.
    f. Payment for Previously Incurred Private Counsel Expenses.
      (1) Preparation and Routing of Request. In the event that an 
        employee seeks reimbursement for private counsel expenses 
        incurred in a matter that has already concluded or in which the 
        direct representation by Department of Justice attorneys has 
        become available, the employee or the employee's private 
        attorney may submit a request to the General Counsel of the 
        employee's agency. The employing agency shall forward the 
        request to the Director of the appropriate branch, office, or 
        staff of the Civil Division. The Director will assign the 
        matter to a trial attorney.
      (2) Content of the Request. The request for reimbursement for 
        past representation must include a complete statement of the 
        fees and expenses for which the employee is seeking 
        reimbursement. This statement should follow the format 
        described in the sample reimbursement agreement (see Exhibit 
        2). The request should also include an explanation from both 
        the employee and the employing agency of the reason or reasons 
        why direct representation by the Department of Justice was not 
        sought or was not available.
      (3) Assessment of the Statement of Fees and Expenses. The 
        assigned attorney will forward the statement of fees and 
        expenses to OPBE for a review of computational accuracy and for 
        consistency with the financial terms and conditions of the 
        normal representation agreement. After that review, OPBE will 
        return the bill to the assigned attorney with an explanation of 
        any computational errors and non-conforming items. OPBE will 
        also certify whether funds are available to pay the bill, after 
        allowances for computational errors (no allowance being made 
        for non-conforming items). On receipt of OPBE's assessment, the 
        assigned attorney will review the statement of fees and 
        expenses, including any non-conforming items, and will certify 
        them for payment if they are reasonable in light of all the 
        circumstances. In no case will the Department approve an hourly 
        rate in excess of the rate then applicable for an attorney of 
        the experience level of the billing private counsel.
      (4) Preparation of Recommendation for Approval. The assigned 
        attorney will then prepare a memorandum for the signature of 
        his or her Director requesting that the Deputy Assistant 
        Attorney General for the Torts Branch approve the payment of 
        the private counsel. A request for approval must include:
        (a) the employee's request and the agency's views;
        (b) OPBE's confirmation that appropriated funds are available 
            to pay the bill;
        (c) a recommendation as to the amount the Department should 
            pay; and
        (d) a Memorandum for the File to record the Deputy Assistant 
            Attorney General's decision (see Exhibit 4).
        A retention agreement is not necessary.
      (5) Instituting the Decision. The Deputy Assistant Attorney 
        General will indicate his or her decision on the Memorandum for 
        the File, sign it, and forward it with the requesting 
        memorandum to the Director, who will send them to the assigned 
        attorney. If the decision is favorable, the assigned attorney 
        will send a copy of the Memorandum for the File and the 
        statement of fees and expenses to OPBE, which will then 
        obligate the funds and process the statement for payment. 
        Finally, the assigned attorney will prepare a letter to the 
        employee and the employing agency announcing the Department's 
        decision and indicating, if appropriate, that the Department is 
        now processing the bill for payment.

8. DOCUMENTATION.
    Documents associated with the retention and payment of private 
counsel often reflect the substance of communications between employees 
and their Justice Department counsel. Accordingly, they are entitled to 
the protection of the attorney-client privilege (see 28 C.F.R. 
Sec. 50.15[a][3]). This includes documents related to the authorization 
of private counsel and the payment of their bills.
    The Civil Division will afford special handling to these documents 
in accordance with the instructions contained in the Assistant Attorney 
General's memorandum of July 26, 1983, titled ``Maintenance of 
Attorney-Client Information.'' The Civil Division will treat these 
documents as a part of the official litigation case file for the 
particular matter, but will hold them in special file sections separate 
and apart from the remainder of the official case file. These special 
file sections will contain a cover sheet over the documents that 
proclaims: ``This file contains privileged attorney-client information. 
Access is limited to assigned trial attorneys and their supervisors.'' 
A similar message must appear on the outside of the file section folder 
near the identifying DJ number. Civil Division employees will take 
great care to prevent the unauthorized disclosure of the information in 
these documents, generally treating them as ``Limited Official Use'' 
information (see Civil Division Directive CIV-2620).
    When the case closes, the assigned attorney will promptly retire 
the remainder of the case file, but the Civil Division branch, office, 
or staff will retain the privileged file sections until the Department 
of Justice and the National Archives determine their ultimate 
disposition. A note will go into the official file indicating that the 
Division has retained a privileged portion of the file, and a copy of 
the signed closure form will go into the retained privileged file 
sections.

9. RATES PAID TO PRIVATE COUNSEL.
    OPBE will review rates paid to private counsel at least every 3 
years to ensure that rates are sufficiently competitive to attract 
qualified attorneys. Determinations to change rates will be based on 
market conditions and funding availability.

10. ADDITIONAL INFORMATION.
    Additional information on this subject it available from the 
Director, OPBE (307-0034).

                                    Robert D. McCallum, Jr.
                         Assistant Attorney General Civil Division.

                               EXHIBIT 1
                          MEMORANDUM FOR FILE

Re: Request(s) For Representation By Private Counsel Of [insert name of 
        employee(s)] in [insert case caption]

    The request(s) for representation by private counsel at Department 
of Justice expense in the above referenced matter is hereby granted, 
subject to the terms, conditions and limitation of 28 C.F.R. 
Sec. Sec. 50.15. 50.16 and Civil Division Directive 2120A.

DATE: ___________
                                           ________________
     Assistant Attorney General
     (or designee)
     CIVIL DIVISION

                               EXHIBIT 2
                SAMPLE PRIVATE COUNSEL RETENTION LETTER

[Insert Name of attorney or firm]
[Insert address]

Re: [Insert case name]

Dear [Name]:

    The Department of Justice has concluded that it reasonably appears 
at this time that representation of [insert employee's name] is in the 
interest of the United States. It also appears at this time, however, 
that representation of [insert employee's name] by attorneys employed 
by the Department of Justice is inappropriate. [Employee] has requested 
that the Department agree to reimburse you for [his or her] defense in 
the above referenced matter. Pursuant to 28 C.F.R. Sec. 50.16(c)(1), 
your reimbursement will be subject to the applicable statutes, 
regulations, and the terms and conditions set forth in the enclosed 
addendum, which is incorporated into and made a part of this agreement.
    You and [employee] should be aware that by entering into this 
agreement, the Department of Justice in no way assumes responsibility 
on the part of the United States Government for any monetary damages 
that may be imposed against [him or her] in connection with this 
matter. Although the Department of Justice has assumed responsibility 
for remunerating you in the course of representing [employee] to the 
extent specified in the addendum, your responsibility, of course, is 
solely to your client.
    Should you have any questions concerning the terms of this 
agreement, including the enclosed addendum, please contact [Department 
attorney assigned to the case] at __- ___.
    If you find the provisions of the agreement acceptable, please 
return the signed addendum to [name of assigned attorney] at the 
following address:
    [Name of assigned attorney]
    [Name of branch, office, or staff]
    Civil Division
    U.S. Department of Justice
    Washington, D.C. 20530
    Reimbursement of allowable fees and expenses will become effective 
on the Civil Division's receipt of the signed addendum.
            Very truly yours,

                                           ________________
     Director
     [Branch, office, or staff]
     Civil Division
Enclosure

 CONDITIONS OF PRIVATE COUNSEL RETENTION BY THE DEPARTMENT OF JUSTICE 
       FOR REPRESENTATION OF CURRENT AND FORMER FEDERAL EMPLOYEES

    The following items and conditions shall apply to the retention of 
a private attorney's legal services by the Department of Justice to 
represent current and former Federal employees in civil, congressional, 
or criminal proceedings.

1. NATURE OF RETENTION
    Subject to the availability of funds, the Department of Justice 
agrees to pay an attorney, or other members of his or her firm, for 
those legal services reasonably necessitated by the defense of a 
current or former Federal employee (hereinafter ``client'') in civil, 
congressional, or criminal proceedings.
    The Department will not honor bills for services that the 
Department determines were not directly related to the defense of 
issues presented by such matters. Examples of services for which the 
Department will not pay include, but are not limited to:
    a. administrative claims, civil actions, or any indemnification 
proceedings against the United States on behalf of the client for any 
adverse monetary judgment, whether before or after the entry of such an 
adverse judgment;
    b. cross claims against co-defendants or counterclaims against 
plaintiff, unless the Department of Justice determines in advance of 
its filing that a counterclaim is essential to the defense of the 
employee and the employee agrees that any recovery on the counterclaim 
will be paid to the United States as a reimbursement for the costs of 
the defense of the employee;
    c. requests made under the Freedom of Information or Privacy Acts 
or civil suits against the United States under the Freedom of 
Information or Privacy Acts, or on any other basis, to secure documents 
for use in the defense of the client;
    d. any legal work that advances only the individual interests of 
the employee; and
    e. certain administrative expenses noted in paragraph number 4 
below.
    The retained attorney is free to undertake such actions as set 
forth above, but must negotiate any charges with the client and may not 
pass those charges on to the Department of Justice.
    THE ABOVE LIST IS NOT EXHAUSTIVE. The Department of Justice will 
not reimburse services deemed reasonably necessary to the defense of an 
employee if they are not in the interests of the United States.
    To avoid confusion over whether the retained attorney may bill the 
Department for a particular service under this retention agreement, the 
retained attorney should consult the Justice Department attorney 
assigned to the case, mentioned in the accompanying letter before 
undertaking the service.

2. BILLABLE HOURS
    The Department of Justice agrees to pay the retained attorney for 
any amount of time not exceeding 120 billable hours per month for 
services performed in the defense of the client. The retained attorney 
may use the services of any number of attorneys, paralegals, or legal 
assistants in his or her firm so long as the aggregate number of 
billable hours in any given month does not exceed 120 hours. The client 
is free, however, to retain the attorney, or members of the firm, to 
perform work in excess of 120 hours per month so long as the firm does 
not bill the excess charge to the Department of Justice.
    The Department will consider paying for services in excess of 120 
hours in any given month if the press of litigation (e.g., trial 
preparation) clearly necessitates the expenditure of more time. The 
retained attorney must make requests for additional compensation to the 
Department in writing in advance of such expenditures.

3. LEGAL FEES
    The Department agrees to pay the retained attorney up to $200.00 
per lawyer hour, plus expenses as described in paragraph 4 below. The 
charge for any services should not exceed the retained attorney's 
ordinary and customary charge for such services. This fee is based on 
the consideration that the retained attorney has been practicing law in 
excess of 5 years.
    In the event the retained attorney uses the services of other 
lawyers in his or her firm, or the services of a paralegal or legal 
assistant, the Department agrees to pay the following fees.
    a. Lawyer with more than 5 years practicing experience: $200.00 per 
lawyer hour
    b. Lawyer with 3-5 years of practicing experience: $160.00 per 
lawyer hour
    c. Lawyer with 0-3 years of practicing experience: $133.00 per 
lawyer hour
    d. Paralegal or legal assistant (or equivalent): $78.00 per hour.
    The Department of Justice periodically reviews the hourly rates 
paid to attorneys retained to defend Federal employees under 28 C.F.R. 
Sec. 50.16. If, during the period of this agreement, the Department 
revises the schedule of hourly rates payable in such cases, the 
Department will pay revised rates for services rendered after the 
effective date of the revision in rates.

4. EXPENSES
    While the Department will pay normal overhead expenses actually 
incurred (e.g., postage, telephone tolls, travel, transcripts), the 
retained attorney must itemize these charges. The Department will not 
accept for payment a bill that shows only a standard fee or percentage 
as ``overhead''. The retained attorney must describe, justify, and 
clear IN ADVANCE unusual or exceptionally high expenses.
    In addition, the retained attorney must describe, justify, and 
clear in advance any consultations with or retention of experts or 
expert witnesses.
    The retained attorney must secure advance approval to use computer-
assisted research that involves charges in excess of $500.00 in a given 
month.
    The retained attorney must separately justify and obtain advance 
approval for services such as printing, graphic reproduction, or 
preparation of demonstrative evidence or explanatory exhibits.
    The retained attorney must itemize and justify in-house copying 
costs exceeding $150.00 in a given month. The Department will pay up to 
a per page copying cost of $.15 per page.
    The retained attorney must itemize and justify facsimile 
transmission costs exceeding $150.00 in a given month.
    The Department will pay expenses such as secretarial overtime or 
the purchase of books only in exceptional situations. The retained 
attorney must obtain advance approval for such expenditures.
    Travel expenses may not include first class service or deluxe 
accommodations. The retained attorney may not bill time spent in travel 
unless it is used to accomplish tasks related to the litigation. The 
retained attorney must specifically identify such tasks.
    The Department will not pay for meal charges not related to out-of-
town travel. The Department will not provide compensation for client or 
other entertainment. The Department will not pay expenses for meals 
incidental to overtime.
    The Department will not pay for expenses that can normally be 
absorbed as clerical overhead, such as time spent in preparing legal 
bills and filing papers with the Court. The retained attorney must 
separately list and justify messenger services.
    The retained attorney must enumerate the expenses incurred for 
hiring local counsel by rate, hour, and kind of service. These hours 
must fall within the 120-hour monthly maximum. The hourly rates paid to 
local counsel may not exceed the rates listed in paragraph 3 above.

5. FORMAT OF BILLS
    The retained attorney must submit bills on a monthly basis, stating 
the date of each service performed; the name of the attorney or legal 
assistant performing the service; a description of the service; and the 
time in tenths, sixths, or quarters of an hour, required to perform the 
service. Because of the limitation on reimbursable hours, a bill must 
include all services rendered in a given month. The Department will not 
consider subsequent bills for services rendered in a month for which it 
has already received a bill.
    In describing the nature of the service performed, the itemization 
must reflect each litigation activity for which reimbursement is 
claimed.
    The retained attorney must attach copies of airline tickets, hotel 
bills, and bills for deposition and hearing transcripts to the billing 
statement.
    The retained attorney must itemize local mileage costs (e.g., 
purpose of travel and number of miles). The Department will pay the 
standard government cost per mile rate for the use of privately owned 
vehicles.
    Before the Department of Justice will pay a bill, Department 
attorneys with substantive knowledge of the litigation will review it. 
If the retained attorney believes that the detail of the legal bill 
would compromise litigation tactics if disclosed to Department 
attorneys assigned to the case, the retained attorney should list those 
particular billing items on a separate sheet of paper with an 
indication of the specific concern. Department attorneys uninvolved 
with this case will independently review the separated, sensitive 
portion of the bill solely to determine if payment is appropriate under 
applicable standards. The individuals reviewing the bills will not 
discuss these items with the Department of Justice attorneys having 
responsibility for the case, nor will those responsible attorneys 
review the items in question.
    After Department attorneys complete the review of a bill, the 
Department will notify the billing counsel if the Department deems any 
item or items nonreimbursable or if any item or items require further 
explanation. When further information or explanation is needed, the 
Department will hold the entire bill until the retained attorney 
responds. Only after the Department receives and reviews the response 
will the Department certify the bill in whole or in part for payment. 
For that reason, the retained attorney must respond promptly.
    Should the Department determine that any items are not reimbursable 
under this agreement, the billing counsel may request further review of 
the Department's determination. The retained attorney shall make such a 
written request to the appropriate Branch director at the address 
indicated in the forwarding letter. The billing counsel must submit 
such requests for further review within 30 days, unless additional time 
is specifically requested and approved. Thereafter, the Department will 
not reconsider its determination.

6. BILLING ADDRESS
    The retained attorney should submit all bills to:
    Director, Office of Planning, Budget and Evaluation
    Civil Division
    United States Department of Justice
    Washington, D.C. 20530
    Attn: Room 9042, L Street Building

7. PROMPT PAYMENT
    The Prompt Payment Act is applicable to payments under this 
agreement and requires the payment of interest on overdue payments. 
Determinations of interest due will be made in accordance with 
provisions of the Prompt Payment Act and Office of Management and 
Budget Circular A-125.

8. GAO REVIEW
    Periodically, the Department of Justice may ask the retained 
attorney to submit copies of time sheets to the General Accounting 
Office (GAO) for purposes of auditing the accuracy of corresponding 
monthly bills, copies of which the Department will forward directly to 
GAO.

9. TERMINATION
    The Department of Justice reserves the right to terminate its 
retention agreement with the retained attorney at any time for reasons 
set forth in 28 C.F.R. Sec. 50.16.

                               ACCEPTANCE

    I agree that my retention by the Department of Justice to represent 
_____ in connection with _____ will be in accordance with the 
applicable statutes, regulations, and the foregoing terms and 
conditions. This written instrument, together with the applicable 
statutes and regulations, represents the entire agreement between the 
Department of Justice and the undersigned, any past or future oral 
agreements notwithstanding.

     Signature: ________________

     Date: _________________

     Tax Identification Number: __________

                               EXHIBIT 3

MEMORANDUM

TO: Supervisor, Accounts Maintenance Staff
  Office of Planning, Budget, and Evaluation
 Civil Division

FROM: [Name of Director]
 [Name of Branch, Office, Staff] Civil Division

SUBJECT: Request to Establish Private Counsel Obligation

    A decision was made to reimburse private counsel for representation 
of a Federal employee in connection with [insert case caption].
    It is estimated that [insert dollar amount] is needed for 
reimbursement in fiscal year [insert year]. Please establish the 
following obligation at this time.

Law Firm FY XX
[Name of private counsel] [insert dollar amount]
    (on behalf of [insert employee(s) name])
[Address of private counsel firm]

    The firm's tax identification number is: [insert tax identification 
number]
    If you have any questions, please contact [insert name] of my 
office at [insert telephone number].

Attachments

                               EXHIBIT 4
                          MEMORANDUM FOR FILE

Re: Request For Authorization To Reimburse [insert name of attorney] 
        For The Representation of [insert name of employee] in [insert 
        case caption]

    [Insert name of employee(s)] has requested that the Department of 
Justice bear the cost of representation in this case. It appears that 
representation of [insert name of employee(s)] would have been in the 
interest of the United States and that failure to make a timely request 
for representation is not attributable to any fault on the part of 
[insert name of employee(s)]. Reimbursement of [insert attorney's name] 
in the amount of $______ is hereby authorized.

DATE: ___________
                                           ________________
     Deputy Assistant Attorney General
     Civil Division

    Question. Would you agree with Senator Grassley's characterization 
that ``this is an unseemly high amount of money being spent by the 
taxpayers to defend what appears to be egregious misconduct?'' If you 
disagree, please explain the reason for your disagreement.
    Answer. We respectfully disagree for two reasons. First, only 
reasonable and necessary fees were reimbursed. The amount expended was 
for the legal services for six different prosecutors and for two 
separate but related matters:
  --a contempt proceeding convened by the district judge; and
  --a court-ordered several-years-long investigation, both stemming 
        from a high-profile criminal prosecution which proceeded to 
        trial.
    The breadth of this undertaking is evidenced by the Special 
Prosecutor's investigative report, which exceeded 500 pages. Second, as 
noted in our previous response, employees are given a reasonable 
benefit of the doubt on disputed factual matters and representation is 
provided while the facts are being fully developed. This practice is 
designed to protect the Federal workforce and to ensure that the 
interests of the Government with respect to the legal issues in which 
the United States has a concern are adequately defended.
    Question. On November 21, 2011, Judge Sullivan issued an order 
indicating that the report of his investigative counsel had been 
submitted and seeking the views of certain stakeholders, including the 
prosecutors, on whether the report should be made public. Did DOJ pay 
the legal expenses or associated costs of any of the prosecutors with 
respect to the issues raised in Judge Sullivan's November 21, 2011 
order and if so, what public interest justified the expenditure of 
these funds and how much money was paid?
    Answer. Judge Sullivan's November 21, 2011, order asked DOJ, 
Senator Stevens' attorneys, and the attorneys for the individual 
prosecutors to submit comments and state their positions on its 
release. The proceedings were conducted under seal and the Civil 
Division did not have access to any of the sealed submissions. While 
DOJ's position was unsealed on January 9, 2012, the positions of the 
individuals were not revealed until March 15, 2012, when the Special 
Prosecutor's report was released and Judge Sullivan's February 8, 2012, 
order was made public.
    Pursuant to DOJ's previous determination that representation in 
connection with the investigation by Special Counsel Henry F. Schuelke 
III was in the Government's interest, and prior to the unsealing of the 
prosecutors' submissions on March 15, 2012, DOJ paid certain invoices 
for work that was conducted in connection with the prosecutors' court-
invited comments on Special Counsel Schuelke's report.
    Invoices were submitted by attorneys for Brenda Morris on December 
15, 2011, January 24, 2012, and February 16, 2012, and payment was 
approved on January 6, 2012, February 10, 2012, and March 2, 2012, 
respectively.
    Invoices were submitted by attorneys for James Goeke, on December 
23, 2011, and January 31, 2012, and payment was approved on January 6, 
2012, and February 8, 2012, respectively.
    Invoices were submitted by attorneys for Joseph Bottini on December 
13, 2011, and January 18, 2012, and payment was approved on December 
20, 2011, and February 3, 2012, respectively.
    Invoices were submitted by attorneys for Edward Sullivan, on 
December 15, 2011, January 12, 2012 and February 14, 2012, and payment 
was approved on December 20, 2011, January 20, 2012 and February 24, 
2012, respectively.
    The foregoing payments total approximately $106,000. The time 
billed was used to review and analyze the Special Prosecutor's 500-
plus-page investigative report, formulate the client's position, and 
file a response in accordance with the court's order.
    In light of the Government's decision not to object to the release 
of the report, DOJ has not paid invoices that were received after the 
prosecutors' positions were unsealed on March 15, 2012, and that relate 
to efforts to prevent the release of the report. The Civil Division has 
received, but have not yet processed, an invoice submitted on February 
29, 2012, from attorneys for James Goeke (who opposed release of the 
Special Counsel report). We also received, but have not yet processed, 
three invoices submitted on February 24, 2012, from attorneys for 
William Welch (who did not oppose release of the Special Counsel 
report).
    Question. On February 8, 2012, Judge Sullivan issued an order 
requiring that the investigative report and certain related documents 
in the proceedings be released to the public on March 15, 2012. One of 
DOJ's prosecutors, an Edward Sullivan, filed a motion in the District 
Court to stay that order and when his request was denied filed an 
emergency appeal to the D.C. Circuit to stay the release of the report. 
Does DOJ intend to pay the attorneys fees incurred by Mr. Sullivan in 
requesting the stay or the attorneys fees and/or associated costs he 
incurs in connection with his appeal? If so, what public interest 
justifies the expenditure of these funds?
    Answer. DOJ has received, but not yet processed an invoice related 
to Mr. Sullivan's request for a stay and his emergency appeal. This 
invoice will be reviewed and processed in accordance with the terms of 
our standard retention agreement. As noted in a previous response, that 
agreement, among other things, limits the services for which the 
private attorney will be compensated to those directly associated with 
the litigation. And our practice is to require counsel to seek 
authorization from the Civil Division to take an appeal from an adverse 
ruling stemming from the litigation in which we have authorized 
reimbursement. In this case, we have no record that counsel for Mr. 
Sullivan contacted the Civil Division for authorization to pursue an 
appeal. In addition, the retention agreement provides that DOJ will not 
reimburse services even if deemed reasonably necessary to the defense 
of the employee if it appears those services are not in the interest of 
the United States. In light of the Government's decision not to object 
to the release of the report, the Civil Division has not paid invoices 
that were received after the prosecutors' positions were unsealed on 
March 15, 2012, and that relate to efforts to prevent the release of 
the report.
    Question. Does DOJ believe that the report of Judge Sullivan's 
investigative counsel and related documents should be released on March 
15 as Judge Sullivan has ordered? Does DOJ intend to oppose Mr. 
Sullivan's appeal to the D.C. Circuit?
    Answer. Per the January 6, 2012, submission by DOJ (unsealed on 
January 9, 2012), the Department did not object to the March 15, 2012, 
release of the Special Prosecutor's report. DOJ has not entered an 
appearance in connection with Mr. Sullivan's emergency appeal, but was 
listed by private counsel as an interested party on the docket.
    Question. If DOJ supports Mr. Sullivan's efforts to prevent public 
disclosure of the report and associated documents please state the 
public interest served by the Department's position?
    Answer. See previous response. DOJ did not support Mr. Sullivan's 
efforts to prevent public disclosure of the report and its associated 
documents. As I previously stated at the March 8, 2012 Senate 
appropriations hearing, DOJ does not object to the release of the 
Special Counsel's investigative report.
    Question. In his November 21, 2011 order Judge Emmet Sullivan' 
indicates that his investigative counsel has found that members of the 
Stevens prosecution team engaged in ``significant, widespread and at 
times intentional--misconduct.'' In light of this finding and other 
findings in the investigative report does the Government have any 
recourse to recover attorney's fees and costs expended in the defense 
of its prosecutors' conduct? If so does the Government intend to 
exercise its rights?
    Answer. Pursuant to long-standing policy, a Federal employee who 
has been provided representation either by DOJ or by private counsel is 
afforded the benefit of the doubt and his or her plausible version of 
the facts usually will be credited until a contrary factual 
determination is made by the employee's agency, a DOJ prosecuting 
component, or the appropriate professional responsibility office. 
Representation continues to be provided until DOJ decides to seek an 
indictment against the employee related to the conduct concerning which 
representation was undertaken or the Department determines that 
continued representation of the employee through private counsel is no 
longer in the interest of the United States (28 C.F.R. 50.16 (c)(2)(i) 
and (iv)).
    These rules apply whether the representation is provided by DOJ 
attorneys directly or through the Department's private counsel program. 
Just as there is no provision to recover services already rendered by 
DOJ attorneys directly pursuant to an earlier decision to provide such 
representation, there is no provision under the guidelines for 
recovering fees already expended.

                        PROSECUTORIAL MISCONDUCT

    Question. ``USA Today has reported that its 2010 investigation 
found that the department's internal investigations frequently take a 
long time and that prosecutors faced little risk of losing their jobs 
even when officials documented serious misconduct. Court records show 
that most of the attorneys named in the Stevens case continue to be 
assigned to their official duties.'' Is the USA Today writer's 
observation that prosecutors face little risk of losing their jobs even 
in the face of documented serious misconduct accurate? Please explain.
    Answer. We are aware of the 2010 USA Today investigation. In 
January 2011 we created the Professional Misconduct Review Unit (PMRU) 
to handle disciplinary actions for career attorneys at DOJ that arise 
from Office of Professional Responsibility (OPR) investigations. The 
PMRU is now responsible for reviewing all OPR findings of professional 
misconduct against Assistant U.S. Attorneys (AUSAs) and Criminal 
Division Attorneys. The PMRU also is responsible for imposing 
discipline in those matters in which it upholds OPR's misconduct 
findings. We created the PMRU following a comprehensive review of 
existing disciplinary procedures and processes with the aim of creating 
a more efficient and uniform system to provide consistent, fair, and 
timely resolution of these cases. We believe that the PMRU is 
fulfilling its mandate.
    DOJ is also forthcoming with information concerning OPR's 
performance. OPR provides the Attorney General with an annual report of 
its activities. These reports include statistical information on OPR's 
activities, significant policy changes and developments, and summaries 
of cases completed during the fiscal year. The reports are available to 
the public at http://www.justice.gov/opr/reports.htm. When making a 
finding of misconduct, OPR shares a draft report of its investigation 
with the subjects of the investigation prior to completing a final 
report. OPR's misconduct findings then are subject to review by the 
PMRU (for AUSAs and Criminal Division prosecutors) and the Office of 
the Deputy Attorney General prior to the implementation of discipline. 
Provided that OPR's findings of misconduct are upheld, discipline may 
range from a reprimand to removal from Federal service.
    Question. Has the OPR been tasked to investigation allegations of 
misconduct by members of the Stevens prosecution team? How long has 
this investigation been going on and when might the public expect that 
it be concluded? Once OPR's investigation is completed, who is 
responsible for implementing its findings? Will the findings be made 
public?
    Answer. OPR conducted a 2\1/2\ year investigation of the Stevens 
misconduct allegations. While OPR completed its 672-page investigative 
report on August 15, 2011, the entire disciplinary process involves 
various steps, and the process is not finished until all the necessary 
steps have been completed. OPR's misconduct findings are subject to 
review by the PMRU and the Office of the Deputy Attorney General prior 
to the implementation of discipline. No formal action is taken against 
a Department employee until the disciplinary process is final. Because 
DOJ's disciplinary process is not yet complete, and because of 
limitations on public disclosure contained in the Privacy Act, the 
Department is unable to release the OPR Report at this time. Such a 
release also would be contrary to the integrity of the Department's 
ongoing disciplinary process. As the Attorney General has stated 
previously, the Department plans to release publicly as much of the OPR 
report and the Department's findings as possible, at the appropriate 
time and consistent with law. This cannot happen until the disciplinary 
process is complete.
    Question. What potential consequences could members of the 
prosecution team found culpable of misconduct in the Stevens matter 
face?
    Answer. While we cannot discuss at this time OPR's specific 
findings in the Stevens case, when OPR's findings of misconduct are 
upheld by the PMRU (for AUSAs and Criminal Division attorneys) and the 
Office of the Deputy Attorney General, discipline may range from a 
reprimand to removal from Federal service. However, any suspension in 
excess of 14 days is appealable to the Merit Systems Protection Board. 
All disciplinary determinations must fully consider the 14 factors 
enunciated in Douglas v. Veterans Admin., 5 MSPR 313 (1981) that can 
mitigate or aggravate the level of discipline taken against an 
employee.
    Question. In his November 21, 2011 order, Judge Sullivan observes 
that his investigative counsel found misconduct on the part of members 
of the Stevens prosecution team--misconduct that was characterized as 
``at times willful and intentional.'' DOJ has had access to the report 
of Judge Sullivan's investigators since last November. Yet USA Today 
states that court records show that most of the attorneys named in the 
Stevens case continue to be assigned to criminal cases. As of March 8, 
2012, does DOJ know who was responsible for the willful and intentional 
misconduct referred to in Judge Sullivan's November order and has it 
nevertheless permitted that individual or those individuals to continue 
to work on criminal cases? Has DOJ acted on the findings of Judge 
Sullivan's investigative counsel? If not, please explain why not.
    Answer. In November 2011, Judge Sullivan released the report of his 
investigative counsel, Henry F. Schuelke, III, to certain DOJ 
individuals under a protective order for the purpose of assessing 
whether privacy and/or privilege issues affected the public release of 
the report. The designated individuals reviewed the document and 
responded accordingly that DOJ did not object to the release of the 
report. The report recently was publicly released. We are aware that 
the report is critical of Department attorneys, and we are addressing 
the matter through our disciplinary process. OPR, which cooperated 
fully with Mr. Schuelke's investigation, has conducted an independent 
review and has produced a detailed report concerning the misconduct 
allegations. This report is similar to Mr. Schuelke's in that it 
addresses the same misconduct issues; however, the OPR report makes 
specific findings and recommendations regarding each subject's conduct. 
Once our internal disciplinary review procedures are complete, and the 
subjects have been afforded an opportunity to comment on OPR's report 
and any disciplinary proposals, we will impose appropriate discipline 
in accordance with the 14 factors enunciated in Douglas v. Veterans 
Admin., 5 MSPR 313 (1981) that can mitigate or aggravate the level of 
discipline taken against an employee.

                   FEDERAL CRIMINAL DISCOVERY REFORM

    Question. Could you briefly explain what the Brady rule states and 
whether it is in your judgment it is necessary to the guarantee of a 
fair trial?
    Answer. The Brady rule requires the disclosure of exculpatory and 
impeachment evidence when such evidence is material to guilt or 
punishment. Brady, 373 U.S. 83, 87 (1963); Giglio v. United States, 405 
U.S. 150, 154 (1972). The Supreme Court indeed held in Brady that 
Government disclosure of material exculpatory and impeachment evidence 
is part of the constitutional guarantee to a fair trial. 373 U.S. at 
87; Giglio, 405 U.S. at 154. DOJ is committed to ensuring this 
constitutional guarantee is met in every Federal case.
    Question. Some would suggest that it is awkward for prosecutors to 
provide the defense with information that might undermine their hard 
work to gain a conviction. I believe that you would agree with me that 
the responsibility of a prosecutor is not to secure a conviction but to 
secure justice. Would you explain what DOJ is doing, particularly in 
light of the lessons learned from the Stevens case to ensure that Brady 
obligations are met?
    Answer. DOJ takes its discovery obligations very seriously. For 
that reason, after discovery violations were uncovered in the Stevens 
case, the Attorney General moved to set aside the guilty verdict 
against Senator Stevens and dismiss the indictment. Furthermore, the 
Attorney General took decisive and unprecedented action to improve the 
criminal discovery practices within the Department. The following 
steps, among others, have already been taken:
  --The Office of the Deputy Attorney General issued memoranda to all 
        Federal prosecutors providing overarching guidance on gathering 
        and reviewing discoverable information and making timely 
        disclosure to defendants; directing each U.S. Attorney's Office 
        to develop additional, more specific discovery policies; and 
        providing separate guidance on discovery of electronically 
        stored information (ESI).
  --DOJ developed a ground-breaking protocol concerning the discovery 
        of electronically stored information in criminal cases in 
        collaboration with representatives from the Federal public 
        defenders and counsel appointed under the Criminal Justice Act.
  --DOJ dramatically expanded its discovery training requirements for 
        all Federal prosecutors and institutionalized those 
        requirements through codification in the U.S. Attorneys' 
        Manual. All Federal prosecutors are now required to undertake 
        annual discovery training, so that roughly 6,000 Federal 
        prosecutors across the country receive the required training 
        annually on a wide variety of criminal discovery-related 
        topics.
  --DOJ holds ``New Prosecutor Boot Camp'' courses for newly hired 
        Federal prosecutors, which includes training on Brady, Giglio, 
        and ESI, among other topics.
  --DOJ has trained thousands of Federal law enforcement agents and 
        support staff in criminal disclosure policies and practices, 
        and produced criminal discovery training materials for our 
        victim witness coordinators.
    DOJ distributed to all Federal prosecutors nationwide a Discovery 
Blue Book that comprehensively covers the law, policy and practice of 
prosecutors' disclosure obligations, and made it available on the 
desktop of every Federal prosecutor and paralegal.
    Question. In spite of DOJ's efforts to educate its attorneys about 
Brady's requirements, many commentators have noted that Brady practices 
vary from office to office and even within offices. It has been 
suggested that the Brady obligation should be codified in the Federal 
Rules of Criminal Procedure. In fact, Judge Sullivan wrote to U.S. 
Court of Appeals Judge Richard Tallman, Chair of the Advisory Committee 
on the Federal Rules of Civil Procedure suggesting that this approach 
be taken. It has been reported that DOJ opposed these efforts in 2006 
and again in 2009 and the Advisory Committee chose not to pursue the 
issue in light of this opposition. Is this accurate and can you explain 
why this is the case?
    Answer. In 2006, DOJ opposed any effort to amend the Federal Rules 
of Criminal Procedure to codify or expand government disclosure 
obligations under Brady. In 2009, this administration was prepared to 
codify the Brady rule within the Federal Rules of Criminal Procedure. 
However, the administration opposed the expansion of criminal discovery 
under consideration, because we believed the expansion being considered 
by the Advisory Committee would have damaged the carefully constructed 
balance created by the courts for criminal discovery and would have 
ignored the need to protect the rights of victims, witnesses, law 
enforcement officers, and national security in criminal discovery 
practice.
    Question. In light of DOJ's lack of support for improving Brady 
practices through the Federal Rules, the National Association of 
Criminal Defense Lawyers has proposed a model Brady reform bill. I am 
preparing this bill for introduction in the Senate. Is it reasonable to 
expect that DOJ would oppose this proposal?
    Answer. We will oppose legislation that deviates from Supreme Court 
law, requires the disclosure of nonmaterial, legally irrelevant, and 
inadmissible information, or that does not properly account for and 
respect the interests of victims, witnesses, law enforcement officers, 
and national security.
    Question. Would DOJ be supportive of the Judiciary Committees 
conducting a hearing on the Brady reform bill I intend to introduce and 
Brady practices overall in the near future?
    Answer. We think any hearing on criminal discovery legislation 
should include witnesses who can speak to all the interests of justice, 
including the interests of defendants, victims, witnesses, law 
enforcement, and national security. A hearing on discovery legislation 
should also explore the practical realities of the legislation. We 
would have no objection to such a hearing.

                           BILL ALLEN MATTER

    Question. Is there anything you would like to say, in addition to 
what you told the subcommittee last year, which would explain why DOJ 
declined the recommendations of career prosecutors and professional law 
enforcement in this matter?
    Answer. The protection of children is of the highest priority for 
DOJ and we aggressively prosecute those who harm our Nation's children. 
As a result of DOJ's decision to expand Project Safe Childhood (PSC) in 
May 2011, the Department now coordinates closely with law enforcement 
at the Federal, tribal, State, and local levels to investigate and 
prosecute all Federal crimes involving the sexual exploitation of a 
minor, including those committed in Indian country and those that 
involve commercial sexual activity, whether or not they involve the 
Internet.
    Moreover, DOJ's track record of vigorously prosecuting those who 
sexually abuse minors speaks for itself:
  --In fiscal year 2011, DOJ obtained approximately 2,713 indictments, 
        against 2,929 defendants, for offenses involving the sexual 
        exploitation of a minor. This represents a 15-percent increase 
        in the number of indictments more than fiscal year 2007 (in 
        which 2,364 indictments were filed against 2,470 defendants). 
        Since the beginning of fiscal year 2007, more than 11,447 
        defendants have been convicted in Federal courts of an offense 
        related to the sexual exploitation of a minor. These crimes 
        have ranged from production of obscene visual depictions of 
        minors engaged in sexually explicit conduct; to receipt, 
        distribution, possession, and/or production of child 
        pornography; to the direct physical, sexual abuse of a minor.
  --Since fiscal year 2001, the caseload of the attorneys in the Child 
        Exploitation and Obscenity Section of the Criminal Division has 
        increased every year, and it has increased cumulatively by more 
        than 1,100 percent.
    As the Attorney General has previously testified regarding the 
investigation of Bill Allen, any decision that we make to prosecute or 
not prosecute a case is governed by the Principles of Federal 
Prosecution, and we look at a host of relevant factors including the 
strength of evidence; the state of the law; the age of the case; the 
reliability of witnesses and other evidence; whether we can adequately 
address anticipated pretrial motions and discovery demands; and whether 
we believe any conviction can be defended on appeal, among many other 
factors. Very simply, we make all decisions to prosecute or not 
prosecute--including that relating to Bill Allen--based solely on the 
law and the facts and nothing else.
    Question. At my request, OPR has undertaken a preliminary inquiry 
into this issue. Can you tell me the status of that inquiry and explain 
what steps are being taken to ensure that OPR arrives at an independent 
and objective conclusion on this politically sensitive issue?
    Answer. OPR's preliminary inquiry is ongoing. While OPR reports to 
the Attorney General, it operates independently, and the Attorney 
General's office exerts no influence over OPR's investigations or the 
content of its reports.
    Question. The Alaska Attorney General's Office and the Anchorage 
Police Department investigative team have asked to meet with OPR to 
discuss their case. I have asked OPR to send a team to Alaska to 
understand how the case against Mr. Allen was prepared. Is OPR team 
authorized to travel to Alaska to meet with those who did the hard work 
to build the sexual abuse case against Mr. Allen?
    Answer. OPR has the authority to take whatever steps it deems 
necessary in order to complete an inquiry or investigation.

    Senator Mikulski. Before I recess the subcommittee, I want 
to conclude the hearing the way I began. As I listened to the 
questions, the answers, we've looked at the budget in the short 
time that we have to review, I want to end the hearing the way 
I began, which is to thank the men and women who work at the 
Justice Department.
    I've been on this subcommittee a long time. It's been a 
great blessing and a great honor. And when I think about it, 
the scope and complexity of what our citizens and our country 
face, and what our Justice Department faces, it's an amazing 
job, from community safety, to national safety--just in the 
last decade, the expansion in the national security portfolio, 
and the transformation of agencies. FBI is not, you know, J. 
Edgar Hoover's FBI any more.
    So for everybody who works, everybody's out on the street, 
everybody tracking sexual predators, everybody who's doing 
their job, the prison guards, and all the wonderful support 
staff, the paralegals, the secretarial staff, the 
administrative staff, et cetera, we just want to say thank you.
    I think our country's safer, because of your work. And we 
have to look out for our civil service, because we need an 
independent judiciary. We need a Justice Department that 
functions with absolute integrity. But we, who fund the 
appropriations, need to know that if you're going to have a 
crackerjack civil service, we have to also support that 
crackerjack civil service. So, thank you, and God bless you, 
and God bless America.

                          SUBCOMMITTEE RECESS

    The subcommittee stands in recess until March 15, next 
Thursday, at 10 a.m. We will take the testimony of the Director 
of the FBI, in both an open hearing and then ultimately a 
classified hearing.
    The subcommittee is in recess.
    Attorney General Holder. Thank you, Madam Chair.
    [Whereupon, at 11:37 a.m., Thursday, March 8, the 
subcommittee was recessed, to reconvene at 10 a.m., Thursday, 
March 15.]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
